<html>
<title> - SCIENTIFIC RESEARCH AND THE KNOWLEDGE-BASE CONCERNING FOREST MANAGEMENT FOLLOWING WILDFIRES AND OTHER MAJOR DISTURBANCES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
     SCIENTIFIC RESEARCH AND THE KNOWLEDGE-BASE CONCERNING FOREST 
      MANAGEMENT FOLLOWING WILDFIRES AND OTHER MAJOR DISTURBANCES

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                       Friday, February 24, 2006

                               __________

                           Serial No. 109-39

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-461                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                     GREG WALDEN, Oregon, Chairman
             TOM UDALL, New Mexico, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Wayne T. Gilchrest, Maryland         Neil Abercrombie, Hawaii
Chris Cannon, Utah                   Dan Boren, Oklahoma
John E. Peterson, Pennsylvania       Peter A. DeFazio, Oregon
  Vice Chair                         Jay Inslee, Washington
Thomas G. Tancredo, Colorado         Mark Udall, Colorado
J.D. Hayworth, Arizona               Dennis Cardoza, California
Jeff Flake, Arizona                  Stephanie Herseth, South Dakota
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Henry Brown, Jr., South Carolina         ex officio
Cathy McMorris, Washington
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Friday, February 24, 2006........................     1

Statement of Members:
    Baird, Hon. Brian, a Representative in Congress from the 
      State of Washington........................................     9
    DeFazio, Hon. Peter, a Representative in Congress from the 
      State of Oregon............................................     6
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     7
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     2
        Prepared statement of....................................     4
        Forest Service document submitted for the record.........   125

Statement of Witnesses:
    Atzet, Dr. Thomas, Atzet Ecological Consulting, Merlin, 
      Oregon.....................................................    75
        Prepared statement of....................................    77
    Donato, Daniel C., Graduate Student, Department of Forest 
      Science, Oregon State University...........................    19
        Prepared statement of....................................    21
    Drehobl, Richard John, Retired BLM Field Manager, Medford, 
      Oregon.....................................................   103
        Prepared statement of....................................   108
    Franklin, Dr. Jerry F., Professor, College of Forest 
      Resources, University of Washington........................    86
        Prepared statement of....................................    88
    Hobbs, Dr. Stephen D., Chairman, Oregon Board of Forestry, 
      Executive Associate Dean, College of Forestry, Oregon State 
      University.................................................    13
        Prepared statement of....................................    14
    Kolb, Dr. Peter F., Montana State University Extension 
      Forestry Specialist, Adjunct Professor of Forest Ecology, 
      College of Forestry and Conservation, University of Montana    24
        Prepared statement of....................................    26
    Lorensen, Ted, Assistant State Forester, Oregon Department of 
      Forestry...................................................    35
        Prepared statement of....................................    38
    Perry, Dr. David A., Professor Emeritus, Oregon State 
      University.................................................    97
        Prepared statement of....................................    99
    Salwasser, Dr. Hal, Dean, College of Forestry, and Director, 
      Forest Research Laboratory, Oregon State University........    80
        Prepared statement of....................................    82
        Additional statement submitted for the record............    83
    West, Dr. Cynthia, Acting Director, Pacific Northwest 
      Research Station, Forest Service, U.S. Department of 
      Agriculture................................................    16
        Prepared statement of....................................    18

Additional materials supplied:
    Huso, Manuela M.P., Consulting Statistician, Department of 
      Forest Science, Oregon State University, Corvallis, Oregon, 
      Statement submitted for the record.........................   119


 OVERSIGHT FIELD HEARING ON SCIENTIFIC RESEARCH AND THE KNOWLEDGE-BASE 
   CONCERNING FOREST MANAGEMENT FOLLOWING WILDFIRES AND OTHER MAJOR 
                              DISTURBANCES

                              ----------                              


                       Friday, February 24, 2006

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                            Medford, Oregon

                              ----------                              

    The Subcommittee met, pursuant to call, at 1:00 p.m., at 
the Medford City Council Chambers, 411 West 8th Street, 
Medford, Oregon, Hon. Greg Walden [Chairman of the 
Subcommittee] presiding.
    Present: Representatives Walden, DeFazio, and Inslee.
    Also Present: Representative Baird.
    Mr. Walden. The Subcommittee on Forests and Forest Health 
will come to order.
    The Subcommittee is meeting today to hear testimony on the 
scientific research and knowledge base concerning forest 
management following wildfires and other major disturbances.
    Before we open our session, I would like to introduce the 
fire chief for Medford, who has some words he needs to share 
with us because of the capacity crowd here. So please join and 
welcome Fire Chief Dave Bierwiler.
    Chief.
    Chief Bierwiler. Thank you, Congressman.
    Mr. Walden. That was right on cue.
    Chief Bierwiler. The occupancy limit here, once all the 
chairs are filled, that's all the people we can have in here. 
There's an exception that we're going to invoke today. We're 
going to allow some people to be standing in three of the 
corners. Because we have such a large crowd, we need to make 
sure that everyone knows where the exits are. And in that rare 
event we have an emergency and you have to leave, out this door 
next to the elevator is a stairwell that goes down to the 
bottom floor. Do not take the elevator if we should all have to 
leave. Same thing over here for those of you on this side. 
There's an elevator out here. There is a stairwell before you 
get to the elevator. Use the stairwell and go to the bottom of 
the building in some event we would have to leave.
    Thank you.
    Mr. Walden. Thank you, Chief.
    Ladies and gentlemen, please stand for the posting of the 
colors by the United States Naval Sea Cadet Corps, Higgins 
Battalion, Central Point, Oregon.
    Please be seated.
    Thank you very much for your posting of the colors.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    I want to welcome everyone here today and thank you for 
attending.
    As you know, I've been working for nearly two years with 
Congressman Brian Baird from Washington State, Stephanie 
Herseth from South Dakota, Wayne Gilchrest from Maryland, and 
Bob Goodlatte from Virginia and many other Members of Congress 
to put together legislation to help land managers more 
effectively restore forests after catastrophic events such as 
wildfires, windstorms and hurricanes and ice storms. After 
holding seven congressional hearings and reviewing thousands of 
pages of reports, we introduced the Forest Emergency Recovery 
and Research Act, H.R. 4200.
    While some have attacked the bill even before it was 
drafted, the overall response to the legislation since 
introduction has been favorable, garnering support from diverse 
groups such as the International Association of Fish and 
Wildlife Agencies, the Society of American Foresters, the 
Theodore Roosevelt Conservation Partnership, the Wildlife 
Management Institute, former long time Oregon State Forester 
Jim Brown, Forest Service Chief Dale Bosworth, Department of 
Interior, Associated Oregon Counties, the Evergreen Foundation, 
the National Association of Forest Service Retirees, the United 
Brotherhood of Carpenters and Joiners, and other organizations. 
There are nearly 150 cosponsors of the bill in the House of 
Representatives.
    And I believe the initial success of the bill has much to 
do with the high quality of testimony that we have received in 
previous hearings, which have greatly helped us to draft this 
legislation. Virtually every provision in the bill came out of 
testimony from the seven hearings we've had on this topic in 
this Subcommittee over the last couple of years.
    For example, we heard that the public wants to have the 
ability to participate or comment on potential projects. That's 
why we require the agencies to allow for public involvement, 
comment and appeal. This process builds on the successful 
Healthy Forests Restoration Act.
    We heard there's no one-size-fits-all management 
prescription for treating burned or damaged forests. That's why 
our bill does not dictate any specific activity such as salvage 
logging. And let me say that again. The legislation does not 
mandate any particular activity take place on our forests.
    Not only do forest conditions vary greatly from place to 
place, and our Subcommittee has held hearings all across this 
country looking at those different places, but catastrophic 
events such as wildfire act unpredictably, each event requiring 
a unique response. Our local land managers and scientists with 
local knowledge probably have the best ability to prescribe 
appropriate treatments. The only action we require in this 
legislation is that the agencies do a rapid evaluation of the 
area after a major disturbance event. Any actual project or 
activity after that is up to the discretion of local managers 
to put forward for public review, comment, and appeal.
    We heard that more attention needs to be given to retaining 
snags and downed woody debris for wildlife habitat and soil 
stability. That's why we require peer-reviewed research 
protocols be developed that include the retention of standing 
dead and downed trees and why we require that the agencies 
provide guidance to the field for updating their management 
plans concerning dead tree retention and other restoration 
activities.
    We heard repeatedly that management objectives as stated in 
forest plans need to be guidance for all restoration 
activities. That's why we require that all management actions 
following a catastrophic event comply with that area's forest 
plan and be compliant with all environmental laws. If logging 
is prohibited for an area in a forest plan, then nothing in our 
legislation would change that.
    We heard from numerous scientists and managers that if the 
Forest Service or the Bureau of Land Management decided they 
wanted to harvest and reforest after a catastrophic event, then 
it was essential that they move quickly while there was still 
value in the trees and while reforestation was most likely to 
be successful. This is why we provided expedited procedures and 
timelines so the agencies could be more responsive and move 
quicker, better mimicking more successful state and tribal 
forest practices. And we've heard from both states and tribes 
on different land management strategies and results.
    The Government Accountability Office told us that there was 
nearly a million acres backlogged of reforestation needs on 
America's forests, almost all of which resulted from 
catastrophic events. That's why our bill provides better 
guidance and more funding for restoration and other 
reforestation work.
    We heard and we have observed that more scientific research 
is needed on post-disturbance forest management. While there is 
a tremendous amount of practical knowledge that's been built 
from decades, if not centuries, of trial-and-error forest 
management following fire and other events, there's not a large 
amount of actual peer-reviewed science on the issue of how best 
to manage our forests after catastrophic events. That's why a 
major part of this legislation is dedicated to developing and 
funding scientific research with university partners and other 
qualified organizations. To insure the quality of such 
research, we require that it be subject to independent, third-
party peer review. And to make sure that it's funded, we are 
modifying the bill that was first introduced a month or two ago 
to include a guaranteed stream of revenue.
    All of us in this room today are aware that post-fire 
scientific research has become a hot item, if you'll excuse the 
pun, especially in recent months. Too often it's sometimes hard 
to see the real science through the political smoke.
    In particular, a short-term study that was recently 
published in the journal Science has been touted by a few as 
the definitive and final say on the effects of post-fire 
harvest. And while I believe that most reasonable people 
recognize that no single study provides all or even most of the 
answers, each one, however, does offer some insight and does 
help broaden our understanding and base of knowledge about what 
happens in these forests after an event. I agree with my 
colleague Mr. Udall, the Ranking Democrat on this Subcommittee, 
that we as members of this committee and others who are 
interested could benefit by actually hearing from the 
researchers about their research, their findings, their 
protocols. And that's what brings us here today.
    Likewise, it's important that we all remember that academic 
freedom is a crucial element of open scientific discourse. 
Researchers have an obligation to follow agreed upon protocols 
and sound scientific and ethical principles while policymakers 
have an obligation to give researchers the support and freedom 
to engage in their work, regardless of whether or not their 
findings agree with anybody's political agenda. More 
information, more scientific research can only help us achieve 
the common goal of better forest and habitat stewardship.
    At the same time we need to recognize that science is not 
the final arbiter of forest management. Many societal values 
that are cultural or economic, for example, must also be 
considered in management decisions. As Dr. Jerry Franklin, whom 
we'll hear from later this afternoon, has told this 
Subcommittee before, science can help managers to make more 
informed decisions, but the decisions are societal choices.
    So today we're here to look at the level of knowledge 
concerning post-disturbance forestry. What does the most recent 
science tell us? How do we prioritize and fund more and better 
research? How well is science applied by land managers and how 
can this be improved? Or, in other words, what do we know? How 
do we know it? And how do we apply it?
    [The prepared statement of Mr. Walden follows:]

 Statement of The Honorable Greg Walden, a Representative in Congress 
                        from the State of Oregon

    Welcome everyone and thank you for attending:
    As you know, I've been working for nearly two years with 
Congressmen Brian Baird from Washington, Stephanie Herseth from South 
Dakota, Wayne Gilchrest from Maryland, Bob Goodlatte from Virginia, and 
many other Members of Congress to put together legislation to help land 
managers more effectively restore forests after catastrophic events 
such as wildfires, windstorms, hurricanes and ice storms. After holding 
seven congressional hearings and reviewing thousands of pages of 
reports, we introduced the Forest Emergency Recovery and Research Act, 
H.R. 4200.
    While some attacked the bill before it was even drafted, the 
overall response to the legislation since introduction has been very 
favorable, garnering support from diverse groups such as the 
International Association of Fish and Wildlife Agencies, the Society of 
American Foresters, the Theodore Roosevelt Conservation Partnership, 
the Wildlife Management Institute, former Oregon State Forester Jim 
Brown, Forest Service Chief Dale Bosworth, the Department of the 
Interior, Associated Oregon Counties, the Evergreen Foundation, the 
National Association of Forest Service Retirees, the United Brotherhood 
of Carpenters and Joiners, and many additional conservation and local 
government organizations. The bill has strong bipartisan support with 
nearly 150 cosponsors in the House.
    I believe that the initial success of the bill has much to do with 
the high quality of testimony we received in previous hearings, greatly 
helping to guide us as we drafted the legislation. Every provision in 
the bill came out of testimony or research findings.
    For example, we heard that the public wants to have the ability to 
participate or comment on potential projects; that's why we require 
that the agencies allow for public involvement, comment and appeal. 
This process builds on the successful Healthy Forests Restoration Act.
    We heard that there's no one-size-fits-all management prescription 
for treating burned or damaged forests; that's why our bill does not 
dictate any specific activity, such as salvage logging. Let me say that 
again. Our bill does not mandate salvage logging.
    Not only do forest conditions vary greatly from place to place, 
catastrophic events such as wildfire act unpredictably, each event 
requiring a unique response. Only local managers and scientists, with 
local knowledge, have the ability to prescribe appropriate treatments. 
The only action we require in our bill is that the agencies do a rapid 
evaluation of the area after a major disturbance event; any actual 
project or activity after that is up to the discretion of local 
managers.
    We heard that more attention needs to be given to retaining snags 
and downed woody debris for wildlife habitat and soil stability; that's 
why we require peer-reviewed research protocols be developed that 
include the retention of standing dead and downed trees, and why we 
require that the agencies provide guidance to the field for updating 
their management plans concerning dead tree retention and other 
restoration issues.
    We heard repeatedly that management objectives as stated in forest 
plans need to guide all restoration activities. That's why we require 
that all management actions following a catastrophic event comply with 
the area's forest plan, and be compliant with all environmental laws. 
If logging is prohibited for that area in the forest plan, then nothing 
in our legislation changes that.
    We heard from numerous scientists and managers that if the Forest 
Service or BLM decide they want to harvest and reforest after a 
catastrophic event then it is essential that they move quickly while 
there is still value in the trees and while reforestation is most 
likely to be successful. This is why we provide expedited procedures 
and timelines so the agencies can be more responsive and move quicker, 
better mimicking more successful state and tribal forest practices.
    The Government Accountability Office told us that there was nearly 
a million-acre backlog of reforestation needs on our national forests--
almost all of which results from catastrophic events; that's why our 
bill provides better guidance and more funding for reforestation and 
other restoration work.
    We heard and observed that more scientific research is needed on 
post-disturbance forest management. While there is a tremendous amount 
of practical knowledge that has been built from decades, if not 
centuries, of trial and error forest management following fire and 
other events, there is not a large amount of actual peer-reviewed 
science on this issue. That's why a major part of our bill is dedicated 
to developing and funding scientific research with university partners 
and other qualified organizations. To insure the quality of such 
research, we require that it be subject to independent, third-party, 
peer-review.
    All of us in this room today are aware that post-fire scientific 
research has become a very hot item (pardon the pun), especially in 
recent months. Too often it's hard to see the real science through the 
political smoke.
    In particular, a short-term study that was recently published in 
the journal Science has been touted by a few as the definitive and 
final say on the effects of post-fire harvest. While I believe that 
most reasonable people recognize that no one study provides all or even 
most of the answers, each one however does offer some insight and helps 
to broaden our base of knowledge. I agreed with my colleague Mr. Udall 
that the Subcommittee members could benefit by actually hearing from 
the researchers about their research, their findings and the protocols 
they followed.
    Likewise, it is important that we all remember that academic 
freedom is a crucial element of open scientific discourse. Researchers 
have an obligation to follow agreed upon protocols and sound scientific 
and ethical principles, while policy makers have an obligation to give 
researchers the support and freedom to engage in their work, regardless 
of whether or not the findings of that research agree with anyone's 
political agenda. More information, more scientific research can only 
help us achieve the common goal of better forest and habitat 
stewardship.
    At the same time we need to recognize that science isn't the final 
arbiter of forest management. Many societal values, that are cultural 
or economic, for example, must also be considered in management 
actions. As Doctor Jerry Franklin has told this Subcommittee before, 
science can help managers to make more informed decisions, but the 
decisions are societal choices.
    So today we are here to look at the level of knowledge concerning 
post-disturbance forestry--what does the most recent science tell us? 
How do we prioritize and fund more and better research? How well is 
science applied by land managers and how can this be improved? Or in 
other words: What do we know? How do we know it? And how do we apply 
it?
                                 ______
                                 
    Mr. Walden. Now, before I ask other Members for their 
opening remarks, I ask unanimous consent that Representative 
Brian Baird of Washington have permission to sit on this dais 
and participate in the hearing. Hearing no objection, it is so 
ordered.
    Now, I would like to welcome my neighbor, my colleague, and 
my friend from the Fourth District of Oregon, Peter DeFazio, 
for an opening statement.

   STATEMENT OF THE HON. PETER DeFAZIO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. DeFazio. Thank you, Mr. Chairman. I really appreciate 
your providing us this opportunity. I am always pleased to be 
able to try and make policy and understand things here at home 
as opposed to inside the Washington, D.C. Beltway, which seems 
to be a different reality.
    You know, I think there's substantial grounds for agreement 
here. I mean 40 years ago we were telling people operating 
logging shows to get all those logs out of the stream, and we 
paid them to do it in fact. Then we figured out that no, 
actually structure in the stream is really important, and now 
we pay people to put logs in streams, or we require it. In the 
case of the site we visited this morning involving private 
lands, a condition of their post-fire efforts on their property 
with--where substantial salvage logging was conducted was to 
also put structure in the stream and protect the stream as best 
they could against sedimentation with other--with other 
methods.
    So I think when we say we don't know everything we should 
know or need to know, it's really true. I mean it's a lot like 
the Woody Allen movie where they find out 50 years from now 
that chocolate really is really good for you and we should all 
be eating a lot more of it. You know, we don't know everything 
we need to know. So that's--that's absolutely key.
    As a policymaker, you know, we ultimately--and I think 
people need to understand this--we need to be informed by the 
science, but the science is never going to be definitive 
because there are social choices to be made once we have the 
science. Once we understand the range of options that are 
available for post-catastrophic event recovery, as policymakers 
we have to decide where on the spectrum you're going to fall. 
You know, do you--and it depends to a great deal upon the 
classification of that land that--going into the fire. The 
private land we saw this morning, they want to maximum timber 
production. That's their right under state forest practices, 
and that's how they conduct their activities.
    On the Federal land it becomes a more complex issue, and 
that's where the U.S. Congress and particularly this committee 
comes in. You know, what was the classification of that land? 
What was the intention for the future? What objectives do we 
want to accomplish with that? Which could require more or less 
intervention after an event.
    And not all land will be treated the same, as the Chairman 
said. You know, lands that were intended to, you know, continue 
basically totally unmanaged, such as wilderness areas, will be 
left as wilderness areas. But there are a lot of other Federal 
lands in the gray area, and then the overlay of the Clinton 
forest plan, editorial comment, of which I was not a big fan, 
end of editorial comment, you know, really complicates things 
here in the Pacific Northwest, particularly when it comes to 
the issue of late successional reserves. Many late successional 
reserves are not what people would envision. They're not a 
bunch of big old trees that we've draw a line around. Some of 
them are actually quite young tree plantations, many of them 
overstocked, that they drew lines around in the idea or hope 
that some day they might be old growth. But in some cases where 
man has interfered, then man is going to need to carefully 
manage to move back toward what we think was a natural state.
    And that's why we're here today, to hear from a range of 
opinions on science, you know, and try and become better 
informed, because we're going to make policy. We're going to 
try and make it in the most informed manner possible. And, you 
know, our job is to understand the implications of what we're 
doing. We won't always agree totally on the objectives, but we 
need to know where we're leading with any legislation we might 
impose.
    So thank you, Mr. Chairman.
    Mr. Walden. Thank you, Mr. DeFazio.
    Mr. Inslee from Washington State, thanks for coming down 
and joining us in your participation in our Subcommittee every 
time. So welcome and your opening remarks.

STATEMENT OF THE HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you. Thanks for letting me join you. I 
spent three years up in Salem and I just love this country, and 
I appreciate you letting me join you.
    We share something. We share in Washington your national 
forest, and you share ours up in here. And I think we equally 
love and care for each.
    I really appreciate Mr. Walden holding this hearing. And I 
was thinking about sort of why we're here today, and I came 
across a quote I wanted to share that--it says it's from some 
old social commentator. He says: ``It's not what we don't know 
that gets us into trouble; it's what we think we know that just 
ain't so that's the problem.''
    And now the only problem is I can't remember whether that 
was Will Rogers or Yogi Berra or Mark Twain. But it still 
applies no matter who it was.
    And I think it's kind of a comment, as Peter suggested, 
that getting to the bottom of the science and the new science 
is very important. That's why I appreciate Mr. Walden's holding 
this hearing.
    I also appreciate his efforts to have reinstated this study 
that has been in the news lately out of OSU, to get that 
research going again. And I think that's important to clear the 
decks, because I think we all agree on a hopefully bipartisan 
basis that censorship is not going to be an effective way for 
us to get to the bottom of the science associated with this.
    If there are critiques of science, it's important that we 
all look at the critiques, but let's get the information out so 
we can all have a healthy debate. So I appreciate Mr. Walden's 
efforts in that regard.
    I wanted to make just a comment what I think about the big 
issues here. I think it's important to say. One is during our 
discussion today I hope we will--we will focus on the 
difference between replanting and salvage logging of standing 
dead timber. And the reason I say that is in discussions with 
my constituents I found a lot of confusion about that, that 
people sort of just wash them all together. And I hope during 
our discussion we will segregate revegetation replanting from 
the issue of whether or not we remove standing dead timber. I 
think if we focus on that difference that will help in our 
discussion.
    Second thing is that I hope that we'll also focus on the 
fact that we have different values about what we want to see 
the forest do. And all of them that are sincere, we got to work 
out as a community which ones we want to follow. Some are 
economic. Some ecosystem. Some are simply aesthetic. And I hope 
we focus on the difference between those.
    Having said that, I wanted folks to know Tom Udall, Ranking 
Member in our committee, and I have also submitted a bill. It 
is designed to do some of the things that Mr. Walden and Mr. 
Baird would do, which is to enhance and improve our scientific 
understanding of things in the forest. And we take a little 
different approach how to do that.
    I wanted to comment on three things just so the witnesses 
might address themselves to this. I do have some concerns about 
Mr. Walden and Mr. Baird's bill that I wanted to address.
    One, I am concerned that the bill as drafted today would 
reduce the degree of scientific inquiry on the specific 
proposals, management proposals we have for these forests. What 
we have learned is we have made collectively on a bipartisan 
basis enormous mistakes in the forest, starting with Yogi Bear 
who taught us to put out all forest fires and now we have thick 
forests as a result.
    Peter suggested some of the other----
    Mr. DeFazio. Smokey the Bear, not Yogi the Bear.
    Mr. Inslee. Smokey the Bear, not Yogi the Bear.
    Mr. DeFazio. Yogi the Bear, Smokey the Bear.
    Mr. Inslee. Well, you know, actually----
    Mr. Walden. That was clearly a partisan thing there.
    Mr. Inslee. There's a certain irony because actually Yogi 
the Bear had better scientific advice, actually.
    Mr. DeFazio. He had better food.
    Mr. Inslee. He had better food, yeah.
    Thank you for that editorial comment. I appreciate that, 
Peter. I know that didn't sound right.
    But we made mistakes. And one of the mistakes we've made is 
not doing enough science when we make these decisions. And I am 
concerned about the underlying bill would in its noble effort 
to reduce the time period to make decisions reduce the 
available science that is available to decisionmakers to make 
these decisions. And I hope that as this thing moves forward 
that we can find a way to have adequate scientific inquiry, 
including following the standards and the rigorous science 
involved in the EIS process and somehow to meet that standard 
before we make management decisions here.
    Second, I'm concerned that the bill would essentially 
severely damage the roadless area policy that we have adopted, 
or at least many of us believe have adopted in this country, 
that 96 percent of the public wants to see these roadless areas 
respected. There--we have found it's very rare to find 
something called a really temporary road because we have a ten 
billion dollar backlog of decommissioning roads already. So I'm 
very concerned in that respect.
    Third, I think all of us need to be concerned of lack of 
funding to do any of these mandates of the Forest Service. It 
doesn't matter how brilliant any of us are on this panel to 
adopt a statute involving this unless we provide these agencies 
the funding to get these jobs done. They're simply not going to 
be able to get the job done. In fact, they are being starved. 
They can't meet their legitimate obligations they have today. 
And until that focuses, until we have a higher priority in 
funding the Forest Service rather than tax cuts in this 
country, we're not going to get this job done.
    Thank you, Mr. Walden.
    Mr. Walden. Thank you, Mr. Inslee. Thanks for joining us.
    And now I'm pleased to welcome another Congressman from the 
great State of Washington. It's a great state. Not quite as 
great as Oregon, but, you know, kind of carved it out of our 
side. Brian Baird from the Fourth District, right?
    Mr. Baird. Third.
    Mr. Walden. Third District of Washington State. Welcome.

STATEMENT OF THE HON. BRIAN BAIRD, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Baird. Thank you, Mr. Walden.
    I want to thank the Chairman and all of you for being here. 
This is obviously an important issue. I am pleased to have 
worked with your congressman, Greg Walden, on this legislation. 
And I'll tell you why I do.
    I represent a district that is one of the ten most forested 
districts in the entire country. Thousands of people depend on 
forest products for their livelihood, and at the same time 
there are many people there who care very passionately, as do 
I, about protecting and preserving the environment.
    The hearing today was called by our friend and colleague, 
Mr. Udall, in order to address the recent study by Mr. Donato. 
And regarding that study, I must tell you that I am actually 
quite disappointed. And I'll tell you why I'm disappointed.
    A little bit about my background. Before I worked in this 
job, I chaired the Department of Psychology at Pacific Lutheran 
University. I hold a doctorate and taught statistics and 
research methods.
    I want to be absolutely blunt. I have placed a high premium 
on scientific integrity. I have risked my political career on 
votes defending scientific integrity. I have spoken out and 
written repeatedly on the importance of scientific integrity. 
And I would tell you that I believe scientific integrity is a 
two-way street.
    My judgment is that in this case Mr. Donato, the journal 
Science, and the reviewers of this article did not do their 
job. I'll articulate why in a moment, but I will tell you that 
quite frankly I don't think that this----
    Mr. Walden. Can you hold on one second.
    I just want so the audience knows, the protocols in our 
hearings are not to have audience reaction.
    Mr. Baird. But if you're going to react, applause beats the 
heck out of laughter.
    Mr. Walden. A little laughter is fine. But just so we set 
the parameters.
    Mr. Baird. I appreciate that, Mr. Chairman.
    I am also disappointed because I sought sincerely in 
preparation for this hearing to examine the study pretty 
carefully. That's why we're having the hearing. If we're going 
to put forward scientific studies and suggest that they should 
inform public policy, it's incumbent on the authors of those 
studies and on those of us who would consume it to carefully 
look at the design and the conclusions that they're drawing.
    I repeatedly asked Mr. Donato for his raw data and was 
repeatedly denied that request. Now, you should know that your 
taxpayer dollars funded this study. Frankly, studies should let 
the chips fall where they may as far as what the outcome is. 
But to suggest that a fellow scientist, which I consider 
myself, and a representative of the people, the taxpayers who 
fund your studies, should not have access to the data to 
evaluate the merits or demerits of your study I think is absurd 
and beyond what I think.
    The policies of Science magazine itself are as follows:
    When a paper is accepted for publication in Science, it is 
understood that any reasonable request for materials, methods, 
or data necessary to verify the conclusions of the experiment 
must be honored. As a condition of publication, authors must 
agree to honor any reasonable request for materials and methods 
necessary to verify the conclusion of experience--experiments 
reported and must agree to make the data upon which the study 
rests available to the community in some form for purposes of 
verification and replication.
    Now, on our side of the aisle, the Democratic side, we have 
repeatedly and I think rightfully challenged the administration 
to provide information on everything from how they developed 
their energy policy to pre-Katrina information to pre-9/11 
information. And yet when I asked a very simple request of an 
individual who has offered a study up to inform public policy 
to give me his data, that's been rejected. Data that were 
funded, the collection of which was funded by the taxpayers. So 
I am to say the least disappointed by that.
    Mr. Chairman, as I mentioned before, scientific integrity 
goes both ways. We have not only a right but a responsibility 
to carefully evaluate not only this particular study but the 
entire breadth of studies.
    Today we had the opportunity, this group and a host of 
others, to go visit real world sites, not in the abstract, not 
in some photo, but a real world site where you had seen post-
fire logging and reforestation and post-fire situation where 
there was no harvest.
    We have data to inform this debate. There is no such thing 
as the science says logging always harms restoration. 
Scientists will tell you that it depends on the nature of the 
fire. It depends on the nature of the vegetation. It depends on 
the goals of the purpose of the land. It depends on what you 
would replant and why and how you would do it and importantly, 
vis-a-vis this study, when you would do it.
    So the notion that one position exists on this I think is 
specious. And I'm proud that as part of our legislation we've 
included extensive discussion of including science and 
preapproved management plans and in funding science, further 
scientific research as part of actual harvest efforts.
    So I thank the Chairman for convening this and look forward 
to actually getting some serious discussion of a study and of 
the broader issue.
    Mr. Walden. Thank you, Mr. Baird. I appreciate working with 
you and appreciate you having the opportunity to come and sit 
with our Subcommittee today. It is helpful to have somebody who 
actually taught statistics as well as understands them be on 
our panel.
    Mr. Baird. Well, that's not necessarily synonymous.
    Mr. Walden. I know. We appreciate it.
    We'd like to--OK. Now we go into the--just so the audience 
knows, we'll invite our witnesses up to present their findings 
to us, and then we'll each have an opportunity on the 
Subcommittee to ask questions.
    If our witnesses would make their way up over here, I'll 
read a little about your background as you make your way up.
    Dr. Stephen D. Hobbs is the Executive Associate Dean, 
College of Forestry at Oregon State University. Dr. Hobbs has 
been on the faculty for 28 years. He has a Bachelor of Science 
in Forest Management from the University of New Hampshire, a 
Ph.D. in Forestry Science from the University of Idaho. He's a 
Fellow in the Society of American Foresters and is currently 
Chair of the Oregon Board of Forestry.
    Dr. Cynthia West, Acting Director, Pacific Northwest 
Research Station, has oversight responsibilities for research 
programs across ten laboratories and eleven experimental 
forests in Alaska, Washington and Oregon. She acts as a liaison 
between the Pacific Northwest Research Station and land 
management agencies in the region. Prior to joining the PNW 
Station in 2002, Dr. West led a comprehensive program in forest 
products research, education, and technical assistance as 
Department Head of Forest Products at Mississippi State 
University. Prior to her appointment with MSU, Dr. West served 
for nine years with the USDA Forest Service in the Northeastern 
Research Station as a Researcher and Project Leader. She was 
co-located at the Forestry Sciences Lab in Princeton, West 
Virginia and Virginia Tech in Blacksburg, Virginia, where she 
served as an Adjunct Faculty in the Wood Science Department.
    Dr. Dave Peterson, Fire Ecologist, USDA, has been engaged 
in forest and ecology research for more than 25 years after 
receiving his Ph.D. in Forest Ecology from the University of 
Illinois. He has worked with the USDA Forest Service's Fire 
Management Planning Research Work Unit and Atmospheric 
Deposition Effects Research Work Unit, the U.S. Geological 
Survey's Cascadia Field Station and, currently, at the USDA 
Forest Service's Pacific Northwest Research Station with the 
Fire and Environmental Research Applications Team. That's a 
mouthful. He's been a Professor at the College of Forest 
Resources at the University of Washington since 1989.
    Daniel Donato, Graduate Student, Oregon State University. 
Mr. Donato is a graduate student in the Forest Sciences 
Department at Oregon State University. He earned a Bachelor of 
Science degree from the University of Washington in forestry 
and has about a decade of experience in forest and fire 
ecology. He's been collecting field data on the ecosystem 
response to the Biscuit Fire in southwestern Oregon for 
approximately three years.
    Dr. Peter F. Kolb, Montana State University Extension 
Forestry Specialist; Adjunct Professor of Forest Ecology, 
College of Forestry and Conservation, University of Montana. 
Dr. Kolb earned his Ph.D. from the University of Idaho in 
forest and range ecophysiology, his M.S. from Idaho in 
silviculture, and his B.S. in Forestry from Michigan State 
University. His past research emphasis includes the effects of 
heat and water stress on conifer seedling establishment, the 
role of soil characteristic, forest pests, pathogens and 
wildfire on forest succession dynamics, the impacts of forest 
thinning on root diseases, woody debris treatments and their 
effects on forest and range restoration, cultural practices to 
enhance woody debris decomposition, and plant community 
recovery following wildfires and salvage logging. During the 
past six years he has worked extensively with wildfire-affected 
private forest landowners in both assessing fire impacts as 
well as developing restoration treatment guidelines.
    And Ted Lorensen, Assistant State Forester, Oregon 
Department of Forestry. Mr. Lorensen is currently Assistant 
State Forester for the Department of Forestry's Resource Policy 
Division. In this role he oversees the Forest Resources 
Planning and Private and Community Forests Program. He received 
a Bachelor of Science in Forest Management from the University 
of Washington in 1977 and has been employed by the Oregon 
Department of Forestry since then. Past positions within the 
Department have included a range of field and staff posts, 
including forest practices forester, protection from fire 
program staff, policy analyst/land use planning coordinator, 
and forest practices program director.
    I have one thing I need to take care of here.
    Now then, if you would all please stand and raise your 
right hand and repeat after me. We'll swear you in for the 
testimony you're going to give today.
    [Witnesses sworn.]
    Mr. Walden. Let the record show they all indicated 
affirmatively. Please be seated.
    Now, let me remind our witnesses that, under the Rules of 
the Committee, you must limit your oral statements to five 
minutes, but as you know your entire statements will appear in 
our hearing record.
    So we welcome all of you, and we have your testimony. And 
we appreciate the work you've put into providing us with your 
insights into these issues.
    I'd like to now start by recognizing Dr. Hobbs for his 
statement. Dr. Hobbs, welcome. Thank you for joining us today.
    And just one mike check issue. If the light is on, your 
mike is off. If the light is off, your mike is on. So you want 
them lit if you don't want to be heard.

   STATEMENT OF STEPHEN D. HOBBS, EXECUTIVE ASSOCIATE DEAN, 
          COLLEGE OF FORESTRY, OREGON STATE UNIVERSITY

    Mr. Hobbs. Well, good afternoon, Chair Walden and Members 
of the Committee. My name is Steve Hobbs, and I'm the Executive 
Associate Dean of the College of Forestry at Oregon State 
University.
    Mr. Walden. You might pull that just a little closer I 
think.
    Mr. Hobbs. Can you hear me OK now.
    Mr. Walden. That's better.
    Mr. Hobbs. During my career as an OSU faculty member, I 
have had the very good fortune to have been stationed right 
here in Medford as a leader of an interdisciplinary team of 
scientists working on reforestation problems in southwest 
Oregon.
    What I'd like to do this afternoon is briefly describe the 
program that I worked on while I was here in Medford, because I 
think it has applicability to the subject of this hearing. I'll 
also summarize some of the broader findings of the program and 
make recommendations about how to develop the knowledge base 
necessary to address post-wildfire restoration issues.
    Now, in 1978 the Forestry Intensified Research Program, 
commonly referred to as the FIR Program, if you will, was 
formed to find solutions to the region's widespread 
reforestation problems associated with timber harvest and brush 
field reclamation. Now, this was a cooperative 
interdisciplinary and interagency program that integrated 
fundamental and applied research with an intensified outreach 
education program.
    Now, one of the very unique aspects of this program was 
assigning an interdisciplinary team of OSU scientists to 
actually live and work in southwest Oregon. And this I think is 
a very important point and one of the reasons why this program 
was so successful.
    Now, the FIR Program was conducted over a 13-year period of 
time and involved probably more than a hundred studies. The FIR 
Program was highly successful in addressing the reforestation 
problems of the region.
    Now, what I'd like to do now is summarize some of the key 
results from this very extensive research and outreach 
education effort. Some of the more important findings were:
    First, that most of the forest lands can be successfully 
reforested with planted seedlings following timber harvest and 
site preparation, and included in that is prescribed fire, or 
brush field reclamation.
    Second, successful reforestation requires achieving certain 
standards in a carefully choreographed sequence of events 
appropriate to site conditions and the management objectives to 
be achieved for those lands.
    Third, the landscape and environmental conditions are 
highly variable in space and time. Thus treatments must be 
tailored to fit site conditions to achieve management 
objectives.
    Fourth, competition from woody and herbaceous plant species 
well adapted to site conditions can delay stand development.
    Fifth, if intervention is necessary to achieve management 
objectives, the timing and sequence of operations is crucial. 
Delays in particular can often have unintended consequences, 
for example, competition from associated vegetation or logging 
damage to regeneration.
    And, finally, establishing an interdisciplinary team of 
scientists and educators in the problem area on a year round 
basis greatly enhanced the applicability of the research to 
management problems and the acceptance and implementation of 
new knowledge by practitioners.
    Now, given the current threat of wildfire and the need for 
better information about post-wildfire restoration, salvage 
logging, and other effects these practices have on resource 
values, it is of--this is of critical importance.
    To develop the knowledge base that will provide resource 
managers and policymakers with credible information upon which 
to base decisions both they and the public can have confidence 
in, I'd like to make the following four recommendations to the 
Subcommittee.
    First, establish a long-term research and outreach 
education program that is specifically focused on post-wildfire 
restoration, including salvage logging.
    Second, insure that universities and Federal agencies are 
full partners in this program. Universities are uniquely 
equipped to provide a broad range of interdisciplinary 
expertise and research and outreach education, and university 
involvement would also provide the training for the next 
generation of forest resource scientists and managers to better 
deal with these problems that we face.
    Third, use the FIR model as a basis for this program. 
Integrating fundamental and applied research with outreach 
education, using interdisciplinary teams stationed in the 
geographic problem areas creates huge advantages over the 
traditional research and outreach education model and greatly 
speeds the transfer of new information to decisionmakers.
    And my final point. Sufficient flexibility should be built 
into the planning and management of Federal forests to permit 
the kind of rigorous scientific experimentation needed to 
generate credible, scientifically sound information for 
policymakers and resource managers.
    Thank you very much for providing me with an opportunity to 
testify before this Subcommittee today.
    [The prepared statement of Mr. Hobbs follows:]

       Statement of Stephen D. Hobbs, Executive Associate Dean, 
              College of Forestry, Oregon State University

    The occurrence of wildfire is a major forest health issue facing 
resource managers and policy-makers throughout the western US. In 
Oregon the hazard is particularly severe on overstocked federal 
forestlands. Management actions surrounding post-fire restoration 
activities, including salvage logging, are controversial and often the 
subject of heated debate and litigation. Frequently these situations 
are characterized by lengthy delays of management actions which 
sometimes result in unintended consequences. A major contributing 
factor is the lack of credible information about the effects on 
resource values of post-wildfire restoration practices, including 
salvage logging that might be used to achieve management objectives. 
Although a great deal is known about subjects such as reforestation, it 
is clear adequate information is still not available. To build the 
knowledge base necessary for managers and policy-makers to have a wider 
range of options and greater confidence in the decisions they make and 
to gain public trust, a significant research and outreach education 
effort is required. We need search no further than southwestern Oregon 
to find an example of what can be accomplished when leaders have a 
vision and take action to solve a serious forest resource management 
problem.
    For many years forest managers in southwestern Oregon were plagued 
by serious reforestation problems following timber harvest. In the 
1970s this resulted in the USDI Bureau of Land Management withdrawing 
significant acreage from the allowable cut land base. As a result, 
federal agencies, the forest industry, and county governments 
approached Oregon State University (OSU) about forming a new research 
and outreach education program focused on finding solutions to the 
reforestation problems. In 1978 the Forestry Intensified Research (FIR) 
Program was launched. This program integrated fundamental and applied 
research with outreach education. The FIR Program was conducted 
cooperatively by scientists from the OSU College of Forestry and the 
USDA Forest Service Pacific Northwest Research Station. Researchers 
based in Corvallis and Medford worked closely with local managers and 
resource specialists to address critical questions related to the 
reforestation problems. An important and innovative aspect of the 
program was the location of an interdisciplinary team of OSU scientists 
in Medford for the duration of the program (1978-1991) to conduct 
research and outreach education programs. When the FIR Program was 
completed in 1991, new information had been developed from more than 
100 studies spanning 13 years. These studies conclusively demonstrated 
the vast majority of forestland could be reforested. This information 
was summarized in the book Reforestation Practices in Southwestern 
Oregon and Northern California published in 1992. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Hobbs, S.D., S.D. Tesch, P.W. Owston, R.E. Stewart, J.C. 
Tappeiner II, and G.E. Wells. Eds. 1992. Reforestation Practices in 
Southwestern Oregon and Northern California. Forest Research 
Laboratory, Oregon State University, Corvallis, Oregon. 465 p.
---------------------------------------------------------------------------
    Although post-wildfire restoration and salvage logging were not the 
focus of the FIR Program, much of what was learned does have 
applicability. For example, in southwestern Oregon it is clear that:
    1.  Lands can be successfully reforested with planted seedlings 
following timber harvest, site preparation (including prescribed 
burning) or brush field reclamation.
    2.  Successful reforestation requires achieving certain standards 
in a carefully choreographed sequence of events appropriate to site 
conditions and the management objective(s) to be achieved.
    3.  The landscape and environmental conditions are highly variable 
in space and time. Thus treatments must be tailored to fit site 
conditions to achieve management objectives.
    4.  Competition from woody and herbaceous species well-adapted to 
site conditions can delay stand development.
    5.  If intervention is necessary to achieve management objectives, 
the timing and sequence of operations is crucial. Delays in particular 
can often have unintended negative consequences (e.g., competition from 
associated vegetation, logging damage to regeneration).
    6.  Establishing an interdisciplinary team of scientists and 
educators in the problem area on a year round basis greatly enhanced 
the applicability of the research to management problems and the 
acceptance and implementation of new knowledge by practitioners.
    Despite the many achievements of the FIR Program, it did not 
directly address questions related to post-wildfire restoration per se 
or salvage logging and although some work was done on natural 
regeneration, this was a relatively small part of the program. Given 
the current threat of wildfire, the need for better information about 
post-wildfire restoration, salvage logging, and the effects these 
practices have on resource values, is of critical importance. To 
develop the knowledge base that will provide resource managers and 
policy makers with credible information upon which to base decisions 
both they and the public can have confidence in, the following steps 
are recommended.
    1.  Establish a long-term research and outreach education program 
specifically focused on post-wildfire restoration, including salvage 
logging.
    2.  Insure that universities and federal agencies are full partners 
in the program. Universities are uniquely equipped to provide a broad 
range of interdisciplinary expertise in research and outreach 
education. University involvement would also provide for training the 
next generation of forest resource scientists and managers to better 
deal with these problems.
    3.  Use the FIR model as the basis for the program. Integrating 
fundamental and applied research with outreach education using 
interdisciplinary teams stationed in the geographic problem areas 
creates huge advantages over the traditional research and outreach 
education model and greatly speeds the transfer of new information to 
decision-makers.
    4.  Sufficient flexibility should be built into the planning and 
management of federal forests to permit the kind of rigorous scientific 
experimentation needed to generate credible, scientifically sound 
information for policy makers and resource managers.
                                 ______
                                 
    Mr. Walden. Thank you, Mr. Hobbs, for being here, Doctor. 
We appreciate your comments and the work that you do.
    I now recognize Dr. West for her statement.
    Good afternoon. Welcome. We look forward to hearing your 
comments.

 STATEMENT OF CYNTHIA WEST, ACTING DIRECTOR, PACIFIC NORTHWEST 
 RESEARCH STATION; ACCOMPANIED BY DAVID PETERSON, TEAM LEADER, 
       FIRE AND ENVIRONMENTAL RESEARCH APPLICATIONS TEAM

    Ms. West. Thank you, Mr. Chairman and members of the 
Subcommittee, for the opportunity to talk to you today about 
scientific research concerning forest management following 
wildfires and other major disturbances.
    I am Dr. Cynthia West. I'm Acting Director of the Pacific 
Northwest Research Station. And I would like to summarize my 
remarks, and you have my written testimony submitted for the 
record.
    I'm accompanied here today by Dr. David Peterson, who is 
the Team Leader of our Fire and Environmental Research 
Applications Team at the Pacific Wildland Research Fire 
Sciences Laboratory in Seattle, Washington. Dr. Peterson will 
be able to answer more specifically your questions about 
current and ongoing post-fire management research.
    First, I would like to talk a little bit about the role of 
science, the process of scientific debate and discourse within 
our science community, and the role of science in land 
management decisionmaking.
    Scientists help managers interpret what they're seeing on 
the ground and help evaluate the environmental effects, social 
and economic costs and benefits, and the effectiveness of 
potential management programs and activities toward reaching 
some set of management objectives.
    For example, many managers in recent fire seasons have 
reported dramatic reductions in fire spread and intensity as 
fires entered stands that have been thinned or previously 
burned. In recent years research results from carefully 
designed scientific studies on a number of sites has supported 
and actually added specificity to these observations.
    We know that the scientific basis for land management 
decisionmaking is more complete for some areas than for others. 
We acknowledge that we have much to learn. There are important 
knowledge gaps that exist that we should and must address.
    Scientific research is a process of building knowledge 
study by study. As we are able to integrate results from 
multiple studies, we increase our understanding of where 
responses differ and where they can be generalized. Scientists' 
ability to provide information will aid decisionmakers in the 
future.
    Information and technology produced through basic and 
applied science programs, like the Forest Service Research and 
Development programs and our partners, can be found on our 
Forest Service Web site and publications and through other 
sources.
    Scientists through the peer review process and often 
vigorous discussion seek to continually evaluate and improve 
the scientific body of evidence and the strength and range of 
applicability of their conclusions and results. Results are 
affected by the specific geographic area or forest type, 
variability in weather and climate conditions, and variability 
in the way management treatments are applied. Active discussion 
and debate within the science community can help sort out the 
reasons for differences in results and help build scientific 
consensus on important issues. To external observers, this 
debate can be seen as an argument for or against a certain 
management practice or policy. But the best scientific debates 
lead to refinements in our understanding, new research to 
answer remaining questions, and better information for 
managers. Scientific debates are focused on competing results 
or differences in possible explanations or theories for those 
results. This contrasts with public policy debates, which often 
derive from different philosophies of the role of government or 
of the desired social outcomes.
    Management of fire and the effects of fire on the landscape 
raises many questions of policy in addition to the questions of 
science. Although policy questions may often be framed as 
science questions, many nonscientific considerations, such as 
societal goals, current law, economics, must be part of the 
answer to these policy questions. And while science can provide 
a solid foundation for management and policy decisions, science 
alone is not sufficient to determine policy.
    Adaptive management by land managers is a useful tool that 
combines emerging research with evaluation of management 
practices. This approach enables managers to modify practices 
as our understanding of management impacts and opportunities 
improve.
    While many managers and scientists consider post-fire 
logging as part of a suite of appropriate restoration 
techniques after wildfire, others argue that it causes damage 
to burned sites sufficient to outweigh potential benefits. 
These discussions have often been carried on with a notable 
absence of balanced evaluation of the available science. Some 
of these arguments have at their root different core 
philosophies on what constitutes appropriate management. 
Managers and policymakers need the best possible information 
presented in an unbiased manner to support them in developing 
sound and supportable recommendations for post-fire management 
activities. The appropriate role of science is to provide such 
information while avoiding participating in policy or political 
debates.
    Thank you for the opportunity to discuss with you the role 
of science in management decisionmaking and policy development. 
Dr. Peterson and I will be happy to answer any questions you 
may have.
    Thank you.
    [The prepared statement of Ms. West follows:]

        Statement of Dr. Cynthia West, Acting Station Director, 
        Pacific Northwest Research Station, USDA Forest Service

INTRODUCTION
    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to talk to you today about scientific 
research concerning forest management following wildfires and other 
major disturbances.
    I am Dr. Cynthia West, Acting Director of the Pacific Northwest 
Research Station. The Station is one of eight research facilities in 
the Research and Development branch of the USDA Forest Service. These 
facilities collectively conduct the most extensive and productive 
program of integrated forestry research in the world. Our mission is to 
synthesize and communicate scientific knowledge that helps people 
understand and make informed choices about society, natural resources, 
and the environment. Our researchers work with a range of partners 
including scientists in other agencies, universities, nonprofit groups, 
and industry as well as community groups and state, local, and federal 
land managers. The information and technology produced through basic 
and applied science programs are available to managers, policy makers, 
and the public through many outlets.
    The headquarters for the Pacific Northwest Research Station is in 
Portland, Oregon. The Station has 10 laboratories located in Alaska, 
Oregon, and Washington and employs about 95 scientists, and 400 
technicians and support staff. Our research program includes studies on 
impacts and management of disturbances such as fire; interactions 
between upland management and aquatic systems; forest inventory and 
analysis, and social and economic impacts of resource management.
    I am accompanied today by Dr. David L. Peterson, team leader of the 
fire and environmental research applications team at our Pacific 
Wildland Fire Sciences laboratory in Seattle, Washington. Dr. Peterson 
will be able to answer your questions about current and ongoing post 
fire management research.
    First I would like to talk a little about the role of science, the 
process of scientific debate and discourse within the science 
community, and the role of science in land management decision-making.
THE ROLE OF SCIENCE
    Science can describe the connections between human and ecological 
systems, develop methods to forecast the occurrence of damaging fire 
events and other disturbances, and characterize the possible outcomes 
of alternative management options. Scientists can help managers 
interpret what they are seeing on the ground and can help evaluate the 
environmental effects, social and economic costs and benefits, and 
effectiveness of potential management programs towards reaching 
management objectives. This scientific information can help managers 
and policy makers to decide the most appropriate management strategies 
for specific situations.
    For example, many managers in recent fire seasons have reported 
dramatic reductions in fire spread and intensity as fires entered 
stands that have been thinned or previously burned. In recent years, 
research results from carefully designed scientific studies on a number 
of sites have supported and added specificity to these observations. 
Scientists continue to work closely with managers to better interpret 
these events, improve models for predicting and visualizing fire 
behavior in modified fuels, and set up landscape scale experiments.
    We know that the science basis for land management decision-making 
is more complete for some areas than for others. The PNW Station, along 
with its sister facilities, and other scientists are working to improve 
information so that managers and the public are able to evaluate 
alternatives using the best technical knowledge and expertise. We 
acknowledge that we have much to learn--important knowledge gaps that 
we must address. Scientific research is a process of building knowledge 
study by study. As we are able to integrate results from multiple 
studies, we increase our understanding of where responses differ, and 
where they can be generalized. Scientists' ability to provide 
information will aid decision-makers.

DEBATE WITHIN THE SCIENCE COMMUNITY
    Scientists, through the peer review process and often vigorous 
discussion, seek to continually evaluate and improve the scientific 
body of evidence and the strength and range of applicability of their 
conclusions and results. Studies, especially in resource management, 
often vary greatly in scope and objectives, apply different methods, 
and control for different variables. Results are affected by the 
specific geographic area or forest type, variability in weather and 
climate conditions, and variability in the way management treatments 
are applied. Active discussion and debate within the science community 
can help sort out reasons for differences in results, and build 
scientific consensus on important issues. To external observers, this 
debate can be seen as an argument for or against a certain management 
practice or policy. But the best scientific debates lead to refinements 
in our understanding, new research to answer remaining questions, and 
better information for managers on the effects of management options 
under a range of scenarios. Scientific debates are focused on competing 
results or different possible explanations (theories) for those 
results. This contrasts with policy debates, which often derive from 
different philosophies of the role of government or of the desired 
social outcomes.

THE ROLE OF SCIENCE IN LAND MANAGEMENT DECISION-MAKING
    Management of fire and the effects of fire on the landscape raises 
many questions of policy in addition to questions of science. Although 
policy questions may often be framed as science questions, many non-
scientific considerations--such as societal goals, law, and economics--
must be part of the answer to these policy questions. While science can 
provide a solid foundation for management and policy decisions, science 
alone is not sufficient to determine policy. Adaptive management by 
land managers is a useful tool that combines emerging research with 
evaluation of management practices. This approach enables managers to 
modify practices as our understanding of management impacts improves.
    Debate over the effects and appropriate use of post fire 
management, including logging, has intensified in recent years as the 
sheer size of wildfires has grown. While many managers and scientists 
consider post fire logging as part of a suite of appropriate 
restoration techniques after wildfire, others argue that it causes 
damage to burned sites sufficient to outweigh potential benefits. These 
discussions have often been carried on with a notable absence of 
balanced evaluation of the available science. Some of these arguments 
have at their root different core philosophies on what constitutes 
appropriate management. Managers and policy makers need the best 
possible information, presented in an unbiased manner, to support them 
in developing sound and supportable recommendations for post fire 
management activities. The appropriate role of science is to provide 
such information while avoiding participating in policy or political 
debates.
SUMMARY
    Thank you for the opportunity to discuss with you the role of 
science in management decision-making and policy development. Dr. 
Peterson and I would be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Walden. Thank you very much, Dr. West. We appreciate 
you and Dr. Peterson for being here today.
    I now recognize Mr. Donato for your statement today.
    Good afternoon. Thanks for joining us. We appreciate your 
taking time away to be with us and actually talk about your 
findings with this Subcommittee. So welcome.

  STATEMENT OF DANIEL DONATO, GRADUATE STUDENT, OREGON STATE 
                           UNIVERSITY

    Mr. Donato. Good afternoon, Chairman Walden and members of 
the Committee. Thank you for the opportunity to speak today.
    My name is Dan Donato. I'm a graduate student in Forest 
Science at Oregon State University. I am representing a team of 
senior ecologists and research associates conducting an 
extensive field study of post-fire vegetation and fuel dynamics 
in southwestern Oregon. For the past three years we've been 
collecting data on forest structure and composition in 
especially cogent, rigorously selected set of recent and older 
fires that have experienced post-fire management.
    The recent publication of a paper from our study has 
generated some intense discussion. And the very fact that a 
one-page paper has generated this level of discussion 
underscores the paucity of direct scientific information that 
exists on the effects of management intervention following 
disturbances.
    Before moving on to the specifics of our paper, I do want 
to note that--and this is a repeating theme I'm sure you're 
familiar with--decisions regarding intervention after 
disturbance are driven by management objectives. The relevance 
of science is to provide information within this context.
    What does this study contribute?
    Previous to our research, very few published studies 
existed on the effects of salvage logging with respect to 
forest regeneration and fire hazard. Of the very limited number 
of studies, most have been retrospective and confounded. They 
could not disentangle the effects of logging from those of 
slash treatments or tree planting. Moreover, none of these 
prior studies implemented an experimental design that included 
pretreatment data, replication and controls. Pretreatment 
measurements and short-term data provide critical reference 
points for understanding long-term processes. This study 
contributes these aspects.
    What are the limitations of this study?
    In our paper we presented data on the immediate effects 
only of salvage logging two to three years after the Biscuit 
Fire in southwestern Oregon. Strictly speaking, the scope of 
inference of this study is limited to that timeframe and set of 
conditions, although it is likely relevant in some capacity to 
other fires.
    And I think you worded it well yourself, Chairman Walden, 
that no study's ever meant to be the final word, and certainly 
we make no inferences to longer term processes in this paper.
    Our study employs a replicated and statistically rigorous 
design known as a before/after control intervention framework 
to assess the effects of management treatments across a broad 
portion of the burn targeted for salvage.
    In our study we have sampled five of the seven east side 
salvage units on the Biscuit Fire, large enough to accommodate 
study plots. And this included all five that were available for 
sampling as of the summer of 2005. This includes a 
representative cross-section of Biscuit salvage operations.
    We sampled the burn on portions that were expected to be 
the most problematic for conifer establishment and the critical 
first years following the burn. We found substantial conifer 
establishments two and three years after the fire and that 
seedlings were surviving multiple years. Mature trees 
distributed throughout the burn that had not been killed by the 
fire probably acted as seed sources, and this underscores the 
importance of surviving trees to forest regeneration. The 
seedling densities we observed thus far exceed what would be 
planted under current management plans, although appreciate 
that other factors other than density are also important.
    These findings highlight a need for caution in 
extrapolating knowledge gained from post-timber harvest studies 
to post-disturbance ecology. Much of what we have learned 
indicates that ecosystem response to harvest and disturbance 
differs in fundamental ways. This cannot be stressed enough.
    Now, with respect to the salvage effects, we conducted our 
measurements after logging and prior to subsequent fuel 
treatments. The regeneration we observed was reduced by 71 
percent as a result of the salvage operations. This was due to 
soil disturbance and burial by woody materials. We also saw an 
increase in the amount of surface fuels of a magnitude that may 
well be significant with respect to reburn potentials. This 
simply underscores the importance of subsequent fuel treatments 
if mitigation of short-term fire risk is an objective.
    While the results are not necessarily surprising, they 
raise some important questions. For example, does the increase 
in fire hazard associated with salvage slash exceed acceptable 
levels? And how will these fuel loads compare between logged 
and unlogged stands over time? What might the specific effects 
be of subsequent slash treatments in post-fire ecosystems? And 
what role might natural processes play in attaining management 
objectives?
    Where management objectives include rapid reforestation as 
a goal, it is useful to note that salvage has consistently been 
shown to reduce natural regeneration that is underway by two 
years after the fire. This was shown in the 1930s on the 
Tillamook burn and again in the '50s in California and with 
this study as well.
    We do not know of any evidence of an ecological need to log 
a burned site in order to plant it. To the contrary, studies to 
date indicate a need to replant because of the logging. 
However, this does not preclude salvage as a management option. 
Rather, with information from this study and additional ones 
that isolate the effect of different harvest techniques and 
timing, any undesirable impacts of salvage could be minimized.
    In closing, while there is a large body of knowledge, 
observational knowledge on the part of land managers, which is 
an extremely important piece, our scientific understanding of 
the effects of post-fire interventions is weak at best. 
Moreover, because the knowledge base from timber harvest has 
limited inference to post-fire ecology, our understanding of 
the effects of post-fire intervention will only advance with 
well-designed experiments that include controls and 
pretreatment data. Also, quantifying short-term responses and 
isolating individual management actions provide critical 
reference points for understanding long-term processes. In 
light of this, our team intends to expand its research across a 
broad range of time scales, ecosystems and fires in order to 
address many of the questions currently being raised as a 
result of our paper.
    Thank you to the Committee for the opportunity to present 
my findings today.
    [The prepared statement of Mr. Donato follows:]

  Statement of Daniel C. Donato, Department of Forest Science, Oregon 
   State University; Joseph B. Fontaine, Department of Fisheries and 
  Wildlife, Oregon State University; John L. Campbell, Department of 
     Forest Science, Oregon State University; W. Douglas Robinson, 
Department of Fisheries and Wildlife, Oregon State University; J. Boone 
 Kauffman, Institute of Pacific Islands Forestry, USDA Forest Service, 
PSW Research Station; and Beverly E. Law, Department of Forest Science, 
                        Oregon State University

Introduction
    Thank you for the opportunity to speak today. I am a graduate 
student in the Forest Science Department at Oregon State University, 
and have a Bachelor of Science degree in forestry and about a decade of 
experience in forest and fire ecology.
    For the past three years our team has been conducting an extensive 
field study of vegetation and fuel dynamics following the Biscuit Fire. 
Our study employs a replicated and statistically rigorous design to 
assess the effects of individual management treatments across the broad 
portion of the burn targeted for salvage.

Paucity of studies
    The recent publication of a paper\1\ from our study has generated 
intense discussion in the public and scientific communities. The very 
fact that a one-page paper has generated this discussion underscores 
the paucity of direct scientific information that exists on the effects 
of management intervention following natural disturbance events.\2\
    By way of example, consider two important works germane to this 
topic. The first is considered the bible of fire ecology in the Pacific 
Northwest, containing much of what we know about fire in forests of the 
region.\3\ The second exemplifies a vast body of knowledge regarding 
reforestation after timber harvest in the region of our study.\4\ 
Salvage logging and post-fire management are arguably where these two 
bodies of knowledge meet. Yet neither text has a chapter on salvage.
    Before moving on to the specifics of our paper, I want to note that 
decisions regarding intervention after disturbance are driven by 
management objectives. The relevance of science is to provide 
information within this context.

Results and implications of the recent Science paper\1\
What this study contributes
    Previous to our research, very few published studies existed on the 
effects of salvage logging with respect to forest regeneration and fire 
hazard. Of the very limited number of studies, most have been 
retrospective and confounded--they could not disentangle the effects of 
logging from those of slash treatments or tree planting.\5\ Moreover, 
none of these prior studies implemented an experimental design 
including pre-treatment data, replication, and controls. Pre-treatment 
measurements and short-term data provide critical reference points for 
understanding long-term processes. This study contributes all of these 
aspects.

Limitations
    In our paper we presented data on the immediate effects of salvage 
logging two to three years after the Biscuit Fire in southwestern 
Oregon. Strictly speaking, the scope of inference of this study is 
limited to that timeframe and set of conditions. Like all fire studies, 
it is a case study in time and space. The long-term effects of salvage 
logging on the Biscuit Fire remain unknown.
    Rather than characterizing the entire Biscuit Fire, we conducted 
our research in mature forest stands that were identified as potential 
logging units following the fire. Similarly, we did not set out to 
measure all different logging methods, but measured representative and 
commonly employed practices (helicopter and cable yarding).

Conifer Regeneration
    In this study we sampled the Biscuit Fire on portions that were 
expected to be the most problematic for conifer establishment in the 
critical first years following the burn. One source of that problem was 
thought to be a lack of seed source in large burned areas with no 
surviving trees.\6\ However, we found substantial conifer establishment 
2 and 3 years after the fire and that seedlings were surviving multiple 
years. The wildfire area is a mosaic of live and dead trees. Mature 
trees distributed throughout the burn that were not killed by the fire 
probably acted as seed sources, underscoring the importance of 
surviving trees to forest regeneration.\7\ The seedling densities 
observed thus far exceed what would be planted under current management 
plans. Other factors in addition to density are important in 
determining whether regeneration is ``adequate,'' but this too depends 
on management directives.
    These findings suggest a need for caution in extrapolating 
knowledge gained from post-timber harvest studies to post-disturbance 
ecology. Much of what we have learned indicates that ecosystem response 
to harvest and disturbance differs in fundamental ways.\8\ Examples of 
post-fire conditions that may differ from post-harvest conditions 
include the following:
    <bullet>  Abundant on-site seed from stress cone crops, canopy seed 
banks, and surviving trees dispersed throughout the disturbed area\7\  
\9\  \10\  \11\
    <bullet>  Favorable soil seedbed conditions (exposed mineral soil)
    <bullet>  Temporary reduction in competing ground vegetation
    <bullet>  Increases in nutrient availability
    <bullet>  Differences in microclimate afforded by the dead trees

Salvage Effects
    We conducted our measurements after logging and prior to subsequent 
fuel treatments. The regeneration we observed was reduced by 71% as a 
result of the salvage logging operations. This was due to soil 
disturbance and burial by woody materials. We also, to the best of our 
knowledge, published the first study quantifying the effect of logging 
fire-killed trees on surface fuel loads. We saw an increase in the 
amount of surface fuels of a magnitude that may well be significant 
with respect to fire potentials. This underscores the importance of 
subsequent fuel treatments if mitigation of short-term fire risk is an 
objective.
    While the results are not necessarily surprising, they raise 
important questions. For example:
    1.  Does the increase in fire hazard associated with salvage slash 
exceed acceptable levels?
    2.  How will fuel loads and fire hazard compare between logged and 
unlogged stands over time?
    3.  What are the specific effects of subsequent slash treatments in 
post-fire ecosystems?
    4.  What role might natural processes play in attaining management 
objectives?
    A mechanistic understanding of the effects of post-fire management 
activities will emerge from studies that isolate the effects of each 
step, followed by re-integration of the knowledge gained to form a 
complete picture. This approach will vastly improve our ability to 
predict whether various strategies will succeed in achieving management 
objectives. Our study represents a beginning to such a process.
Salvage logging as a management tool
    Our study was not designed to critique salvage logging as a 
management tool; it serves only to provide information on the immediate 
ecological response.
    Where management objectives include rapid reforestation as a goal, 
it is useful to note that salvage has consistently been shown to reduce 
natural regeneration that is underway by 2 years after the fire.\1\  
\7\  \12\ The implications of this depend on the specific objectives 
for a site. We do not know of any evidence of an ecological need to log 
a burned site in order to plant it. To the contrary, studies of salvage 
and regeneration indicate a need to replant because of the 
logging.\1\,\7\,\12\ These studies underscore a need to conceptually 
separate the activity of salvage logging from reforestation activities, 
which can occur with or without salvage. However, this does not 
preclude salvage as a management option. Rather, with information from 
this study and additional ones that isolate the effect of different 
harvest techniques and timing, any undesirable impacts of salvage could 
be minimized.

In Closing
    Because the knowledge base from timber harvest has limited 
inference for post-fire ecology, our understanding of the effects of 
post-fire intervention will only advance with well-designed experiments 
that include controls and pre-treatment data. Furthermore, quantifying 
short-term responses and isolating individual management actions 
provide critical reference points for understanding long-term 
processes. In light of this, we intend to expand our research across a 
broad range of time scales, ecosystems and fires in order to address 
many of the questions currently being raised as a result of our paper.
    Some additional closing remarks:
    <bullet>  Retention of surviving trees and other legacies will 
likely contribute to ecosystem response following disturbance.
    <bullet>  Knowledge of ecosystem responses must be combined with 
management objectives to determine whether actions need to be taken 
following disturbance.
    <bullet>  Considerations of post-disturbance intervention should be 
placed within the context of fire regime, landscape conditions, and 
forest type.
    Thank you again for the opportunity to present our findings.
Citations
     1.  Donato, D.C., J.B. Fontaine, J.L. Campbell, W.D. Robinson, 
J.B. Kauffman, B.E. Law, 2006. Post-wildfire logging hinders 
regeneration and increases fire risk. Science 311: 352.
     2.  McIver, J.D. and L. Starr, 2001. A literature review on the 
environmental effects of postfire logging. W. J. Appl. For. 16, 159.
     3.  Agee, J.K. 1993. Fire ecology of Pacific Northwest forests. 
Island Press, Washington, D.C. 493 p.
     4.  Hobbs, S.D., S.D. Tesch, P.W. Owston, R.E. Stewart, J.C. 
Tappeiner, G.E. Wells eds., 1992. Reforestation practices in 
southwestern Oregon and northern California. Forest Research 
Laboratory, Oregon State University, Corvallis, OR.
     5.  Stuart, J.D., M.C. Grifantini, L. Fox, 1993. Early 
successional pathways following wildfire and subsequent silvicultural 
treatment in Douglas-fir/hardwood forests, NW California. For. Sci. 
39(3): 561-572.
     6.  Sessions, J., R. Buckman, M. Newton, J. Hamman 2003. The 
Biscuit Fire: Management options for forest regeneration, fire and 
insect risk reduction, and timber salvage. Department of Forest 
Resources, Oregon State University, Corvallis, OR. 65 p.
     7.  Isaac, L.A. and G.S. Meagher, 1938. Natural reproduction on 
the Tillamook Burn four years after the fire. 15 p. Pacific Northwest 
Forest and Range Experiment Station.
     8.  Franklin, J.F., T.A. Spies, R. Van Pelt, A.B. Carey, D.A. 
Thornburgh, D.R. Berg, D.B. Lindenmayer, M.E. Harmon, W.S. Keeton, D.C. 
Shaw, K. Bible and J. Chen, 2002. Disturbances and structural 
development of natural forest ecosystems with silvicultural 
implications, using Douglas-fir forests as an example. For. Ecol. 
Manage. 155: 399.
     9.  Larson, A.J. and J.F. Franklin, 2005. Patterns of conifer tree 
regeneration following an autumn wildfire event in the western Oregon 
Cascade Range, USA. For. Ecol. Manage. 218: 25-36.
    10.  Gray, A.N. and J.F. Franklin, 1997. Effects of multiple fires 
on the structure of southwestern Washington forests, Northwest Sci. 71: 
174-185.
    11.  A.N. Vagle, Rogue River-Siskiyou National Forest 
Silviculturalist, personal communication, 2006.
    12.  Roy, D.F., 1956. Salvage logging may destroy Douglas-fir 
reproduction. Research Note No. 107. USDA Forest Service, California 
Forest and Range Experiment Station.
                                 ______
                                 
    Mr. Walden. Thank you, Mr. Donato. We appreciate your being 
here.
    Dr. Kolb, welcome. We look forward to your comments this 
afternoon. Please find a microphone and go ahead. Maybe Mr. 
Donato's can be moved. Actually, that's the public broadcasting 
mike, so it doesn't do the P.A. System any good.
    Mr. Kolb. I usually don't have a problem being heard, so 
I'll----
    Mr. Walden. Well, but they are cable--somebody's audio 
system.

  STATEMENT OF PETER KOLB, EXTENSION FORESTRY SPECIALIST AND 
ASSOCIATE PROFESSOR OF FOREST ECOLOGY, MONTANA STATE UNIVERSITY

    Mr. Kolb. OK. Well, I would like to draw your attention to 
the screen as I have prepared a PowerPoint program for you. And 
as that comes up, I'll be glad to continue.
    OK. I would like to present to you some research that we 
conducted upon fires of the southern Bitterroot Valley in which 
356,000 acres burned in 2000, of which roughly half burned 
severely or moderately.
    We scrambled pretty quick and established eight study 
blocks that looked at fire severity or vegetative response on 
severely burned, moderately burned, and lightly burned areas as 
might be demonstrated by this transect. We also established 
plots on adjacent state forest land that was salvage logged 
within six months following the fire, again represented by 
these transects. Twenty million board feet or, in addition to 
that, fire killed or harvested within six months of fire on 
this study area.
    This is what the study area looked like prior to salvage 
logging, immediately after the fire. This is what it looked 
like one year afterwards. Trees that had any propensity to 
survive were left with a pretty liberal margin. Many of them 
have subsequently died.
    Logging debris was left to maximize soil stabilization. As 
you can see, debris was left on the contour to slow down water 
movement. As opposed to natural forest land where in the first 
year nothing happened with the exception of some road 
rehabilitation, as might be shown here.
    Briefly, before fire many of these forested sites had heavy 
organic layers. In this case here's an example of four inches. 
Light or low severity burn does not consume that, for the most 
part, as is demonstrated. Here is one of our plots in a light 
burn one year after the fire, three years after the fire. This 
is the stand where it occurred in, and revegetation was very--
very good, pretty much back to prefire situations. And this is 
what we call beneficial fire, as opposed to severely burned 
areas where the entire organic layer is consumed.
    This is a study plot on an unsalvaged log site one year 
post-fire, three years post-fire. You see a lot of noxious 
weeds moving into these zones.
    This is a salvage log site, severely burned, one year post-
fire. The repeat photo three years later is in the red square. 
And I made this a little bit larger because these severely 
burned areas that don't recover are typically where we saw 
large diameter fuels consumed, generating a lot of heat and 
essentially baked the soils underneath. And the recovery is 
very slow.
    Just for reference, this is--tree species respond 
differently. This is a ponderosa pine seedling, which can 
handle the high soil surface temperatures following fire. 
Here's a Douglas fir seedling that does not handle these high 
temperatures very well and many of these die. This is an area 
where we did see natural regeneration, and I'd like to point 
out that we often see the less heat tolerant seedlings 
regenerating underneath logging debris in the shade. And the 
difference in temperature when measured can be 80 degrees 
difference, wherein the open soil surface can be up to 180 
degrees Fahrenheit, which is lethal, whereas under the shade of 
this debris it will be 100 degrees, which these seedlings can 
tolerate.
    So our results:
    One, we found no difference in vegetative recolonization 
between salvage logged and nonsalvage logged sites. More 
extensive data is presented in the written testimony.
    Second, 57 percent of our sample area, which included equal 
amounts of low severity and moderate severity and high 
severity, had scarce conifer natural regeneration three years 
afterwards. This is supported by a parallel independent survey 
by the Department of Natural Resources in conservation of 
12,000 acres. 2,910 sample points showed that 87 percent of the 
area had scarce or no conifer regeneration.
    The response was affected by at least eleven variables, 
independent of salvage logging, fire severity, aspect, 
landscape position, et cetera. So, yeah, these are complex and 
variable systems affected by a lot of different things.
    All study plots on lower elevation Doug fir sites showed 
good recovery rates of grasses, forbs and brush, indicating 
they are not as fragile as might be suggested. However, with 
the exception of erosion potential during the first year.
    And, finally, salvage logging restoration plan that was 
developed and administered by professional foresters did no 
harm to natural revegetation establishment on salvage log sites 
and assisted the recovery of the burned area to forest.
    Now, there's a key point, because if you leave them alone, 
they'll do just fine, but they may not come back to forest. So, 
yes, this is a social decision: Do you want forest or do you 
want conversion to grass or shrubland.
    So--and the final point I'd like to make on this is I'm a 
strong advocate of science and scientific research. However, we 
train people in colleges to go out there and be able to think 
critically, observe, and adapt their management. These are very 
intelligent people.
    If we wait for science to solve every answer that we have 
out there, consider the complexity of these systems. A common 
quote is that one teaspoon of biologically active top soil can 
have 20,000 organisms. To fully comprehend every little thing 
that happens out there, we could study these things for 100 
years and not be sure.
    So we need to know how much science do we need to have 
before we proceed and not neglect the experiential knowledge 
and the ability of management actions to coincide with 
scientific studies.
    Thank you.
    [The prepared statement of Mr. Kolb follows:]

    Statement of Dr. Peter Kolb, Extension Forestry Specialist and 
    Associate Professor of Forest Ecology, Montana State University

    Good afternoon.
    For the past 21 years I have studied and worked in the forests of 
Idaho and Montana specializing in forest regeneration, restoration, and 
the roles of disturbance processes on forest ecosystem health. Over the 
past 9 years I have worked specifically on applied research and 
restoration practices following wildfires and insect and disease 
outbreaks with private landowners, industry foresters, and public land 
managers. I would like to present the results of post-fire vegetation 
research conducted following the Bitterroot fires of 2000.
    First, I'd like to point to a few general observations that can be 
made about post-fire recovery, based on my experience, the scientific 
literature, and the experience of other forestry professionals:
    <bullet>  Harvesting fire killed trees before natural revegetation 
takes place would have the least impact on plant recolonization. There 
is a wealth of research examining natural post-fire plant recovery, the 
effects of prescribed fire on forest plant communities and impacts of 
various harvesting practices on natural tree regeneration. This 
literature provides significant information that is needed to make good 
decisions about post-fire management practices.
    <bullet>  Furthermore, research examining the conditions that favor 
tree seedling regeneration and survival indicates that some disturbance 
of the of soil surface organic layers, including ash, that exposes 
mineral soil might favor natural tree regeneration.
    <bullet>  A comprehensive literature review of post-fire mitigation 
impacts was published in 2000 that indicated contour felling, often 
part of salvage operations, had been shown to have the greatest impact 
on soil stabilization, often a major concern after wildfires.
    <bullet>  Although scientific experimentation is a critical 
component, and requires adequate funding, it is important to recognize 
the experiential expertise and knowledge that exists in the current 
forestry workforce.
    To demonstrate these points and other information about the forest 
recovery and reforestation following wildfires, I'll share with you 
findings from a study conducted following the Bitterroot fires in 
Montana. In 2000, approximately 356,000 acres burned across the 
Bitterroot National Forest (307,000 ac), the Sula State Forest, and 
private ownerships in Montana. The southern Bitterroot Valley provided 
a remarkable opportunity as a post- fire study area because of the 
large area affected by the 2000 wildfires that burned in diverse 
topography at various levels of fire severity. Approximately 101,000 
acres of this area burned with high severity, 71,500 acres with 
moderate severity, and 183,500 with low severity effects (USDA Forest 
Service 2000).
    Following the fires, a team of professional foresters consulting 
with scientists and logging practitioners developed a salvage plan for 
post-fire management in Douglas-Fir forest types in western Montana. We 
conducted a study after the management plan was implemented. Our 
findings include:
    <bullet>  There are many variables that affect post-fire recovery.
    <bullet>  Salvage logging implemented under the specific conditions 
specified by the post-fire recovery management plan, did achieve a 
desirable outcome with respect to vegetative recovery and soil 
stabilization.
    <bullet>  That the forest ecosystem we sampled appears to have a 
natural resilience to disturbance, whether it is natural or human 
related. Although without human intervention a significant portion of 
the study area will convert from forest to grass and shrubland, from an 
ecological perspective this is not destructive. From a human 
perspective it may, however, be undesirable.
Study Background and Design
    The Bitterroot Valley is located in western Montana nestled between 
the Bitterroot Mountains to the west and the Sapphire Mountains to the 
east (see below). The Bitterroot National Forest (BNF) surrounds the 
valley like a large horseshoe, encompassing both mountain ranges above 
the wildland/urban interface. The Sula State Forest (SSF) is located in 
the southeastern portion of the valley between the privately owned 
French In the spring of 2001, eight post-fire study blocks were 
established within the 2000 Bitterroot fires perimeter, where each 
block consisted of a 0.5--0.75 mile transect with three 1/10 acre plots 
and twelve 50-ft subtransects. Four of the eight blocks were located in 
the Bitterroot Mountains within Sula Ranger District of the Bitterroot 
National Forest (BNF) in the Laird and Warm Springs drainages (Picture 
1). The remaining four blocks in the Sapphire Mountains were above 
French Basin in the Cameron Creek drainage, with one block on the BNF 
and three blocks on Sula State Forest (Picture 2). Since the Valley 
complex fire burned in a mosaic of severities, each block was located 
to cross all three fire severities along one contour (Picture 3). The 
study area encompasses approximately 20,000 acres of fire affected 
landscape. Fire severity and vegetation recovery were sampled within 
these blocks in 2001 and again in 2003 (Pictures 4-12).

[GRAPHIC] [TIFF OMITTED] T6461.002

[GRAPHIC] [TIFF OMITTED] T6461.003


    All blocks were located within the Douglas-fir habitat type series. 
The five study blocks located on the Bitterroot National Forest (BNF) 
had a broad spectrum of past management activities including no past 
management, thinning treatments, shelterwood, seed tree, and overstory 
removal harvests. None of the study areas on the Bitterroot National 
Forest experienced immediate post-fire salvage harvesting prior to the 
2001 sampling. Several of the study plots were salvage logged during 
2002 and 2003 prior to their remeasurement in the summer of 2003. These 
treatments were not statistically comparable since they occurred on 
only a few plots. A non-statistical comparison of these later salvage 
logging impacts did not show any differences from comparable non-
salvage logged plots. Three study blocks within the Sula State Forest 
crossed severely burned sites that had been salvage logged during the 
winter of 2000 to 2001 on snow-covered ground with a ground based 
mechanical harvesting system, rubber tired skidders, and cable yarding 
on steeper slopes.
    The purpose of this study was to investigate post-fire vegetation 
recovery in western Montana by exploring the influence of fire 
severity, topography, and management. The specific research objectives 
included:
    1.  Compare post-fire vegetation recovery on severely scorched 
soils based on the influence of independent variables such as 
topographic position, forest structure, habitat type, tree fire 
impacts, etc.
    2.  Compare individual plant species ability to colonize across 
severe, moderate and mildly fire impacted soils.
    3.  Compare the vegetation recovery of salvaged with unsalvaged 
sites to determine if there are any differences in plant species 
occurrence, distribution, overall plant cover, and natural conifer 
regeneration.
    4.  Model plant recovery to determine which independent variables 
(fire severity, topographic position, plant community type, etc.) best 
predict understory vegetation cover by the third year post-fire.
Summary of Results
    Fire severity and forest plant community type affected plant 
recolonization. The plant colonization results varied significantly for 
each species and across fire induced variables such as overstory 
severity, understory severity, and by existing plant community type. 
Numerous species showed affinities for certain environmental factors 
and fire effects as demonstrated by successful colonization.
    There is much variability in the initial recovery and subsequent 
rate of recovery of vegetation due to naturally occurring gradients 
across the landscape. Overall plant resprouting and colonization can be 
summarized by the amount of total vegetative cover present on sampled 
sites. Table 1 shows a summary of vegetative cover as stratified by 
some of the variables encountered in a post-fire landscape.
    Much of the initial post-fire vegetation recovery occurs within the 
first growing season following a fire event for the sites we studied, 
and then increases at a much slower rate. This point is demonstrated in 
Table 2. In general, the 40% average plant cover occurred on patches of 
soil that had not been severely scorched within the first year. By year 
three, moderately scorched soil surfaces had been colonized. Severely 
scorched soils had a very slow rate of vegetative recovery on them with 
many of the more severe patches showing minimal recovery even 3 years 
post-fire.
    Colonizing plants originate from a variety of sources. Table 3 
shows sources of plants that sprouted in the sites, including on-site 
and off-site sources. Three survival strategies describe the immediate 
response following a disturbance. On-site species are represented by 
two forms: survivor and residual colonizer. Survivor plants have fire 
avoidance mechanisms that enable species to resprout from the root 
crown, stolons, or rhizomes. Residual colonizers include germinating 
seeds and fruits that survived the fire through heat resistant 
properties or by being located in fire avoidant sites. Off-site sources 
include seeds and fruits that are transported by wind, animals, or 
water, and is often the means by which exotic weedy species invade. On-
site sources dominated the post-fire community in 2001 and 2003. This 
leads us to conclude that a healthy pre-fire understory plant community 
can ensure a faster plant recovery following a fire.
    Salvaged logged sites showed similar vegetation recovery as 
unsalvaged logged sites, indicating that salvage does not necessarily 
damage vegetation recovery (see Table 4). It is critical to point out 
that for this analysis to be meaningful, sites that had similar burn 
severities must be compared. Therefore, only sites that had experienced 
similar fire impacts and no post-fire manipulation were used for 
comparison. Salvage logging occurred on sites within the Sula State 
Forest that had experienced severe overstory fire effects where more 
than 80% of the trees had been killed. Salvage logging encompassed 
approximately 10,000 acres with an average of 5,000 board-feet per acre 
removed (DNRC harvest statistics). Although logging occurred during the 
winter using a combination of mechanical harvesting and skidding along 
with cable yarding on steeper slopes, mild conditions often resulted in 
minimal snowpack and unfrozen ground, thus some soil disturbance 
occurred. This was actually favorable for our study since we had 
speculated that disruption of the thick organic ash layer by equipment 
travel would actually enhance vegetative recovery. Although there is 
some evidence of higher plant cover on salvage logged sites the 
differences are not statistically different. Similarly several of the 
plots on the Bitterroot National Forest experienced selective salvage 
harvesting two and three years after the fire. We did not have enough 
of these plots to make statistically valid comparisons; however, the 
limited data did not show any observable differences on these plots 
with associated plots on similar fire severities without salvage 
logging. Considering the number of variables that affect post-fire 
recovery more study plots would have been needed to make meaningful 
statistical comparisons among all variables.
    Natural conifer regeneration was closely correlated to the 
occurrence of seed producing mature trees, and the prevalence of shade 
from either surviving trees or northern aspects. A record was kept of 
residual tree cover survival for both 2001 and 2003 sample periods, 
natural conifer tree seedling abundance, insect and disease activity, 
and presence of invasive exotic weeds (Table 5). Only 19% of our sample 
area had abundant conifer natural regeneration (more than 49 seedlings 
per 1/10 acre plot), 24% of our sample area had moderate natural 
regeneration (between 21 and 49 seedlings per 1/10 acre plot), and 57% 
of our sample area had scarce natural regeneration (1--20 seedlings per 
1/10 acre plot). There was no correlation between salvage logging and 
seedling abundance, nor was there any correlation between the presence 
of invasive weeds and salvage logging.
    Bark beetle activity on residual surviving trees was present on 76% 
of the plots.

Corroborating data
    In 2002, the Montana Department of Natural Resources and 
Conservation conducted an independent survey of the 12,000 acres of 
fire affected lands within the Sula State Forest. A survey sample grid 
of 2,910 plots that were 1/300 acre in size was measured. The results 
showed that only 13.3% of the area had naturally establishing seedlings 
and that 18.9% of the area was within 200ft of trees capable of 
producing seed. This survey indicated a need to plant tree seedlings 
across 86.7% of the fire affected forest to ensure adequate tree 
regeneration.
    An additional study conducted by the Montana DNRC monitored soil 
erosion on burned sites across the Sula State forest in the year 
following the fires. Although there were areas that exhibited severe 
post-fire erosion, salvage logged sites did not show any greater 
propensity for erosion than sites that were not salvaged. In a second 
study of salvage logged areas following the 2003 Moose fire in northern 
Montana, soil impacts from salvage logging were found to be ``less than 
15% of detrimental affect considered to acceptable...Levels of soil 
erosion and disturbance observed on logged sites are not expected to 
affect long-term soil productivity compared to unlogged sites.''

Conclusions
    The study of trends within nature is very difficult because of the 
many variables that influence a single event. Wildfires across a 
forested landscape add another dimension of variability by burning in a 
mosaic that is influenced by topography, wind, fuel, fuel 
characteristics, and past human management activities. Once these fires 
have stopped burning, the vegetation response is equally variable, and 
depends on seed availability, microclimate, animal influences, weather 
trends, and continued disturbance processes. The ash left by a wildfire 
may be a good seedbed for some tree species, and a poor seedbed for 
others. On some sites the burn severity has affected the soil surface 
to such a degree that it presents an inhospitable seedbed. In other 
instances the desired tree species may no longer be in the vicinity to 
provide seed or even capable of producing viable seed. For forested 
sites that are water limited and prone to high summer temperatures, 
even adequate seed may not ensure a desired survival rate. 
Alternatively, cooler moist sites with a good seed source may 
regenerate with an over abundance. Considering that we have been 
experiencing a warm dry climatic trend, which is partially responsible 
for the wildfires in the first place, it should come as no surprise 
that natural regeneration is severely inadequate on many sites that 
formerly supported trees within our study area.
    It is important to note that this study is based on one forest type 
in one ecological region. However, its findings combined with other 
scientific analysis and practical experience demonstrates:
    <bullet>  A need for localized management prescriptions based on 
local experiential knowledge of site conditions and vegetation 
responses, professional forestry expertise, and scientific data.
    <bullet>  A need for additional research that is conducted 
cooperatively with applied land managers to help refine management 
prescriptions.
    <bullet>  Timely salvage, using the appropriate equipment and 
management prescriptions can produce desired outcomes while limiting 
the negative consequences of wildfires.
    <bullet>  Natural regeneration, while desirable, does not always 
occur following wildfires in forests. Tree planting may be needed to 
return an ecosystem into a forested condition.
    This study was initiated to add basic knowledge of how vegetation 
recovers following wildfires across a mosaic of severities on the 
Douglas-fir habitat type of western Montana. It was also designed to 
measure if salvage logging, combined with logging debris manipulation 
to stabilize soil would impact natural vegetation recovery. Although 
the desire was to establish more study plots, the data we gathered was 
adequate. Although not yet published in a peer reviewed journal, the 
study was the basis for the Master's Thesis of LaWen Hollingsworth and 
was reviewed by three other well respected and prominent scientists 
with expertise in statistics, fire behavior and fire ecology.

[GRAPHIC] [TIFF OMITTED] T6461.004

[GRAPHIC] [TIFF OMITTED] T6461.005

[GRAPHIC] [TIFF OMITTED] T6461.006


[GRAPHIC] [TIFF OMITTED] T6461.007

[GRAPHIC] [TIFF OMITTED] T6461.008

[GRAPHIC] [TIFF OMITTED] T6461.009

                                 ______
                                 
    Mr. Walden. Thank you, Dr. Kolb. We appreciate the research 
you do and your time here with us today.
    Mr. Lorensen, welcome. We look forward to your comments 
this afternoon. Thanks for joining us. And I assume your mike's 
turned on.

  STATEMENT OF TED LORENSEN, ASSISTANT STATE FORESTER, OREGON 
                     DEPARTMENT OF FORESTRY

    Mr. Lorensen. Chairman Walden, Members of the Subcommittee, 
I'm Ted Lorensen, Assistant State Forester, Oregon Department 
of Forestry.
    One nice thing about going last is I can respond to some of 
the earlier comments, and they were very thoughtful and did 
perk my interest in making some deviation from my written 
remarks.
    Representative DeFazio talked about removal of wood from 
streams for the purpose of fish restoration back in the '50s, 
'60s, '70s, '80s, '90s. That was done and it was done despite a 
substantial body of science that showed the importance of wood 
in streams. In fact, in the '30s and '40s in Pennsylvania they 
were starting to put wood back in streams to recover fish.
    The science that was applied in this case was not thorough 
nor well tested. And the experience that was applied and used 
in making the decisions was also based upon fairly unique and 
localized circumstances that have been applied to the 
landscape. So that's kind of a bad example maybe of the use of 
science and experience in making some inappropriate and 
overextended decisions.
    Mr. Donato had mentioned the Tillamook burn. I do need to 
explain a bias here. I come from an agency that is--took on the 
Tillamook burn back in the '50s and restored it after a series 
of fires that were called the six-year jinx. And we do have a 
lot of experience about what we can expect in some cases in 
terms of reburn of the large-scale intense fires. And, again, 
these forests reburn on a six-year period. It wasn't until we 
did some snag management, created corridors and salvage logging 
and then took on the first massive reforestation project really 
in the world that that became the forest that it is today.
    And so seeding and planting were both done. We learned a 
lot from that. There's a tremendous amount of information that 
supports opportunities, but it is one issue and one experience 
that's--that isn't applicable to a broader scale, but certainly 
has some importance in this topic.
    The Board of Forestry, of which Dr. Hobbs is Chair, clearly 
works on a range of forest issues; really have to separate 
values and science. The only scientific uncertainty is a key 
part of using science. And as we looked at this issue, the 
Board of Forestry is exploring a number of ways to better 
address science and dealing with uncertainty, in setting 
policy.
    And I think you've heard from a number of folks about the 
notion of active adaptive management. And, again, that's a 
concept in your bill. We believe very strongly that active 
adaptive management is a way to apply a diverse set of 
treatments and allow us to learn from a range of actions on a 
diversity of sites. This approach recognizes there's no single 
best option to achieve all our values, but it does speed up our 
learning process by placing multiple treatments across the 
landscape, much the same way that a scientific experiment 
would.
    We can place a range of active and passive management 
options side by side in a landscape, measure the outcomes over 
time, and compare how the results of each option match our 
values. This is a key component of the Board of Forestry's 
Forest Management Plan for the Tillamook and Clatsop and other 
state forests.
    However, to be successful, the resources must be in place 
and ready to go to capture learning moments like the Biscuit 
Fire. And my experience is that that's often not the case, and 
hopefully your bill will address that.
    Another process the Board of Forestry's been looking at is 
what's called systematic evidence review. It's a new way of 
dealing with conflicting science. It provides a systematic 
approach for reviewing or synthesizing scientific literature. 
Many different management situations like post-fire recovery 
conflicts over what is or what is not best available science 
frequently occur. Problems also arise when interest groups use 
selective studies with conflicting results to challenge public 
land management decisions.
    Former Oregon Governor John Kitzhaber suggested to the 
Oregon Board of Forestry that natural science--natural resource 
decisions might strongly benefit from developing a process 
similar to the systematic evidence review process used in the 
medical field. This process differs in some important ways from 
additional literature review by using a preestablished explicit 
protocol for finding, screening, grading and integrating 
primary research studies to answer specifically narrow, defined 
question.
    A key difference with systematic evidence review is that 
the protocol spells out in advance how information will be 
gathered to reduce bias in the selection and inclusion of 
studies. Plus it indicates an evidence quality hierarchy to 
guide researchers in assessing the quality applicable with 
different studies. The Board of Forestry is looking at this 
process and we'd welcome involvement of Federal agencies in its 
use. We have presented background on that to the regional 
forester, and I think we're going to continue to use this as a 
way of exploring some better opportunities in the use of 
science.
    I do provide some comments on the importance of expedited 
salvage process, and again a lot of the study that you've heard 
about today, some of the outcomes depended upon when they 
started it and what were the circumstances. Our view of the 
world as an expedited salvage process gives you a whole lot 
more options, may reduce some of the value conflicts, and we 
encourage again that process being improved.
    Very clearly in time further scientific studies will likely 
calm the scientific divide over post-fire forest response if 
the studies are sufficiently broad and long term. The science 
alone will not settle this policy choice. It is a choice that 
reflects public policy in the case of public lands and desires 
of forest owners in the case of private lands.
    Policy seeks certainty of outcome for complex issues. 
Science cannot deliver either certainty or solutions to complex 
problems that are beyond the realm of science or outside the 
daily gathered, analyzed and debated. The proper role of 
science is to help inform people on some of the possibilities 
and consequences of choices. To do that, science must be 
thorough and well tested. People must understand and accept the 
limits of what science can do to inform complex social choices 
that must consider other nonscientific factors.
    In closing, I just offer one thought. In my experience with 
scientists, and I'm one non-Ph.D. here probably and maybe Mr. 
Donato will become one eventually, but I have been in the 
interface between policy and science for a long, long time, and 
I've always been amazed at how often we invite scientists to 
speak to policymakers. And the first thing they want to do is 
go off task and talking about science to telling people what 
should be done. And I think it's also incumbent upon 
policymakers to say hold it, stop, let's get back to the 
science. And, again, I think that's an important corrective 
measure. And I encourage that all policymakers think about 
their role in the use of science as well.
    Thank you.
    [The prepared statement of Mr. Lorensen follows:]

       Statement of Theodore Lorensen, Assistant State Forester, 
                     Oregon Department of Forestry

Introduction
    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to talk with you today about science and forest management. 
Policy makers must consider both science and values in setting 
policies. Forest managers must consider science, experience and values 
to get their job done. Based on the values reflected in federal policy, 
federal forests produce a wide range of outputs including water, 
wildlife, timber, and recreation. In hotly debated policy issues, like 
the issues surrounding post-fire salvage, there is a tendency to mix 
science and values.
    The controversy about the new study provides a perfect object 
lesson in the need to distinguish between science and values, each of 
which must play a role if we are to derive the greatest possible 
benefit from the richness of our forests. The experts who carry out 
forest management on the ground use science and their experience to 
achieve objectives that are based on values--the values of landowners, 
shareholders, or those of policy-makers like Congress who craft the law 
and policy that guide the management of public land. If a landowner 
wants to emphasize a particular forest objective--or to achieve a broad 
range of benefits--and is willing to leave the details to the forester, 
in most cases we have ample science and experience to provide 
satisfactory results.
    However, science will not decide whether to salvage log and 
reforest, or not. That choice is not a scientific issue, but one of 
values. It is a choice that must reflect public policy in the case of 
public lands and the desires of forestland owners in the case of 
private lands. The proper role of science is to help inform people on 
the possibilities and consequences of those choices, and to do that the 
science must be thorough and well tested. It is not the role of science 
to tell people what those choices should be.
    As the Oregon Board of Forestry has worked on a range of forest 
issues, they have strived to separate values and science while setting 
policy. In this effort they have recognized that scientific uncertainty 
is part of the problem and they have explored ways to better address 
science and its uncertainty in setting policy.

Dealing with Scientific Uncertainty
    Science is often incomplete and sometimes even contradictory. 
Ecosystems are very complex, and there remains some scientific 
uncertainty about how to provide the values we want from our forests 
after a large fire or other disturbance. Some scientists suggest that 
aggressive salvage and reforestation will provide the ``best'' recovery 
of a burned area, while others suggest that the area will ``best'' 
recover without human intervention. While what is ``best'' is primarily 
a value based decision, scientific uncertainty has also played a role 
in the current debate.
    There are many sources of uncertainty surrounding post-fire 
recovery. There is a degree of uncertainty related to our ability to 
predict future outcomes in the forest. Events like weather and climate 
introduce a range of random elements. Natural reforestation success and 
future stand development contain large random components that are not 
predictable at every scale. While we might be able to predict the 
average development of a large number of forest stands, we might not 
predict with certainty the outcome in any one particular stand. 
Ecosystems are dynamic and forest stands that start with similar 
characteristics can take a number of different successional pathways 
and end up with very different characteristics depending on random 
events like fire, wind-throw, and insect epidemics. There are 
substantial differences in the scientific community over how post-fire 
logging and reforestation studies should be designed and interpreted. 
All this adds to uncertainty.

Active Adaptive Management
    Even though there is uncertainty about the outcomes of using 
different forest management treatments, there are ways that 
policymakers, scientists, and managers can deal with this uncertainty. 
Active adaptive management applies a variety of diverse treatments and 
allows us to learn from a range of actions on a diversity of sites. 
This approach recognizes that there is no single best option to achieve 
all our values. Active adaptive management speeds up our learning 
process by placing multiple treatments across the landscape in much the 
same way that a scientific experiment would. We can place a range of 
active and passive management options side-by-side on the landscape, 
measure the outcomes over time, and compare how the results of each 
option match our values. To be successful the resources must be in 
place and ready to go to capture learning moments like the Biscuit 
Fire.

``Systematic Evidence Review''
    Another way to deal with conflicting science would be to develop a 
systematic approach for reviewing and synthesizing scientific 
literature. In many different management situations, like post-fire 
recovery, conflicts over what is or is not the ``best available 
science'' frequently occur. Problems also arise when interest groups 
use selective studies with conflicting results to challenge public land 
management decisions. Former Oregon Governor John Kitzhaber suggested 
to the Oregon Board of Forestry that natural resource decisions might 
benefit from developing a process similar to the Systematic Evidence 
Reviews used in the medical field. This process differs from a 
traditional literature review by using a pre-established, explicit 
protocol for finding, screening, grading and integrating primary 
research studies to answer specific narrowly defined questions. A key 
difference with a Systematic Evidence Review is that the protocol 
spells out in advance how information will be gathered to reduce bias 
in the selection and inclusion of studies, plus it includes an evidence 
quality hierarchy to guide researchers in assessing the quality and 
applicability of different studies. The Oregon Board of Forestry is 
currently evaluating the usefulness of incorporating a systematic 
approach into their decision-making and would welcome the participation 
of the federal agencies. Attached is the Executive Summary of an 
evaluation done about the applicability of Systematic Evidence Review 
to natural resource issues prepared for the Oregon Board of Forestry by 
the Institute for Natural Resources at Oregon State University.

Importance of an Expedited Salvage Process
    If salvage is going to be a viable option, the processes leading to 
approval of a salvage operation needs to be expedited or the economic 
values will greatly diminish or be lost entirely. Post-fire salvage 
operations on federal lands have become increasingly contentious and 
difficult for federal forest managers to implement. The complexity and 
length of Environmental Impact Statements and other NEPA documents has 
grown to the point where post-fire salvage operations normally take 
between one and three years to implement. Because of this delay in 
implementation, much of the salvageable value in the burned timber 
stands is being lost to decay. It is worth noting that on state-owned 
land in Oregon, salvage can and does commence within a few weeks of a 
fire.
    The merchantable value of small and mid-sized diameter trees is 
especially time sensitive, and delays in harvesting may result in 
substantial or complete loss of value from these trees. The reduced 
value of the smaller trees means that most or all of the economic value 
in the stand is contained in the larger trees that are also most 
valuable as future stand structure and wildlife habitat. This basic 
relationship of the large trees being the major source of both the 
economic and the environmental values is part of the value based 
controversy over recent salvage sales.
    One way to help address this issue is to reduce the time associated 
with planning and implementing salvage sales. Reducing the time it 
takes to plan and implement a salvage sale would allow more of the 
value of the small and mid-diameter trees to be captured and allow 
greater flexibility to leave larger trees, while still maintaining the 
economic viability of the timber sale. However, to be socially 
acceptable, reducing the time it takes to implement a salvage operation 
must not cause a corresponding reduction in environmental protection. 
Therefore, a carefully crafted set of design criteria needs to be 
developed that will ensure both the provision of economic benefits and 
environmental protection.
    Another value at the heart of this debate is reducing the risks of 
future wildfires. Speeding up the decision to salvage burned timber has 
the advantage of reducing the standing fuel load while leaving options 
to use natural regeneration available. If salvage is done promptly, 
natural regeneration can be used if it is desired. Experience with 
wildfire has taught us that snags are lightning ignition sources, burn 
for long periods of time, and increase fire spread though torching and 
spotting. Therefore, managing standing fuels through salvage logging 
can reduce both fire risk and hazard to some degree. If the salvage 
logging is done promptly, before natural regeneration occurs, land 
managers can take advantage of natural seedlings without causing the 
mortality that can be associated with logging equipment.

In Conclusion
    Forests touch us all, providing benefits that contribute to our 
economic well-being, the health of our environment and the quality of 
our lives. Consequently, we are all *obligated to remember that science 
is always evolving, and to maintain a clear distinction between science 
and values. Conflicts over forests have often been perpetuated by 
ignoring this distinction.
    In time, further scientific studies will likely calm the scientific 
divide over post-fire forest responses if the studies are sufficiently 
broad and long term. But science alone will not settle this policy 
choice. It is a choice that reflects public policy in the case of 
public lands and the desires of forestland owners in the case of 
private lands. Policy seeks certainty of outcome for complex issues. 
Science cannot deliver either certainty or solutions to complex 
problems that are beyond the realm of science or outside the data 
gathered, analyzed and debated. The proper role of science is to help 
inform people on some of the possibilities and consequences of choices; 
to do that the science must be thorough and well tested. People must 
understand and accept the limits of what science can do to inform 
complex social choices that must consider other non-scientific factors.
    The lesson is this: Science must be addressed distinct from values. 
Science and values each have an important role to play if we are to 
agree on a course for managing our forests to provide a sustainable 
flow of a wide variety of benefits. Values shape our views about what 
we expect and cherish in our forests. Science, as it evolves, helps us 
achieve those results. Blurring the difference between science and 
values only fuels the conflict and rancor that is gripping our forest 
management decisions.
    This concludes my statement, and I am glad to answer questions.
Appended Material
    Behan, Jeff. December, 2005. Executive Summary: Applying systematic 
evidence reviews in Oregon forest policy: Opportunities and challenges. 
Institute for Natural Resources, Oregon State University, Corvallis 
Oregon. 10 pp.
                                 ______
                                 
    [Additional information submitted for the record by Mr. 
Lorensen follows:]
     Applying Systematic Evidence Reviews in Oregon Forest Policy: 
                      Opportunities and Challenges
                             december, 2005

                    Institute for Natural Resources

                           210 Strand Ag Hall

                        Oregon State University

                           Corvallis OR 97330

                       Lead Preparer: Jeff Behan

     Graduate Research Assistants: Seth Crawford and Erica Kleiner

Executive Summary
    Use of ``best available science'' to inform natural resource 
policies is codified in federal and state statutes. Forest management 
stakeholders consistently agree that the best available science should 
be used in policymaking. But conflicts over what is, and is not 
``good'' science and selective use of studies with different 
conclusions by competing interest groups continue to challenge public 
land managers. These conflicts point to a need to develop a method of 
synthesizing technical information that relates to particular forest 
management questions in a way that will be more readily accepted as 
objective and definitive.
    In June 2004, former Oregon Governor John Kitzhaber presented 
testimony to the Oregon Board of Forestry (BOF) on a number of forest 
policy issues, including the problem of ``dueling science''. Dr. 
Kitzhaber introduced the Systematic Evidence Review (SER) process and 
explained how it is used to rigorously evaluate evidence on treatment 
efficacy in clinical medicine. He suggested that this process could be 
adapted and brought to bear on developing a more credible evidence base 
for forest policy making.
    The BOF subsequently incorporated exploration of the SER process 
into the Oregon Department of Forestry (ODF) State Forests Program work 
plan. ODF contracted with the Institute for Natural Resources (INR) at 
Oregon State University (OSU) to prepare a report on SERs. The 
Institute works to provide Oregon leaders with ready access to current, 
science-based information and methods for better understanding our 
resource management challenges and developing solutions. The BOF and 
ODF requested that INR develop:
    <bullet>  Background information on SERs;
    <bullet>  A comparison of medical research studies and natural 
resource research studies to identify any differences that affect the 
ability to develop methods for evaluating the quality of research 
evidence; and
    <bullet>  Proposed principles for a simplified SER-like research 
evidence evaluation process for ODF to use to organize, present, and 
synthesize scientific information for use in BOF decision making.
How does ODF currently gather and assess scientific information to use 
        in forest management policies?
    <bullet>  ODF utilizes scientific knowledge in its duties to (1) 
manage Oregon state forests for the ``greatest permanent value'' to the 
people of Oregon, and (2) regulate commercial forest operations on non-
federal forests through the Oregon Forest Practices Act.
    <bullet>  ODF policies are informed by science through (1) internal 
science reviews, (2) external reviews commissioned by the agency to 
assess the scientific validity of its planning documents and regulatory 
proposals.
    <bullet>  Despite well-intentioned and in many cases quite involved 
efforts to use the ``best science available,'' ODF is regularly 
challenged by groups suggesting that they really are not doing so.
    <bullet>  These challenges may stem from disputes over which pieces 
of technical evidence were, or were not considered, or over how 
particular pieces of evidence were interpreted, weighed and applied in 
policymaking.
    <bullet>  The core of disputes over use of technical information 
may involve broader disagreements over forest policy goals, and the 
appropriate course of action when outcomes are uncertain, rather than 
disputes over scientific evidence per se.
What is a ``Systematic Evidence Review'' and how do SERs work?
    <bullet>  An SER is rigorous, transparent, reproducible process for 
assessing scientific and technical information, used primarily in 
clinical medicine.
    <bullet>  An SER focuses tightly on a specific question, or small 
set of questions, which frame decisions about what evidence is relevant 
to the review, and what is not.
    <bullet>  SERs differ from traditional literature reviews in their 
use of pre-established, explicit protocols for finding, screening, 
grading and integrating primary research studies.
    <bullet>  SERs are designed to be as comprehensive, exhaustive and 
objective as possible, which means they are typically time consuming 
and expensive.
    <bullet>  Systematic Evidence Reviews and evidence based medicine 
have been described as a ``paradigm shift'' in healthcare, but there is 
still considerable debate about how SERs are conducted and used.
    <bullet>  Costs of medical SERs range from $50,000-$250,000. A 
natural resource SER may cost considerably less because the evidence 
base is likely to be smaller, but this would depend on the nature of 
the question.
History of Systematic Evidence Reviews
    <bullet>  Since emerging in the 1980's the SER approach has been 
widely adopted in the fields of clinical medicine and public health, 
and continues to expand rapidly.
    <bullet>  The largest international entity that conducts and 
disseminates SERs is the Cochrane Collaboration, which maintains a 
database of over 2000 SERs, develops and refines review methods, and 
offers training on conducting SERs.
    <bullet>  In the United States, SERs are conducted and disseminated 
by the Agency for Healthcare Research and Quality (AHRQ) through its 15 
designated Evidence-based Practice Centers. Oregon Health Sciences 
University in Portland is one such center.
    <bullet>  Interest is growing in adapting the SER approach to other 
areas of public policy, including wildlife conservation, but SERs are 
not well suited for all policy areas, or to all questions within a 
particular field.
The Systematic Evidence Review process in clinical medicine
    <bullet>  SERs require specific, tightly focused review questions 
to (1) clarify the purpose and delimit the scope of the review, and (2) 
strengthen linkages between the questions and subsequent steps in the 
review process.
    <bullet>  SERs use explicit protocols that spell out in advance 
exactly how evidence will be gathered, assessed, collated and 
summarized. Documenting all steps in the SER ensures that it is 
transparent, replicable and can be updated later if necessary.
    <bullet>  SERs are characterized by vigorous and thorough efforts 
to compile all available research and technical information that 
pertains to the review question(s), including unpublished and ``gray'' 
literature.
    <bullet>  Quality assessment of individual studies is a key 
characteristic of SERs, providing more rigor than traditional reviews. 
Quality assessments are used to (1) decide whether a relevant study 
should be included in the review, and (2) to rank included studies in 
an evidence quality hierarchy, usually based on study design and 
methods.
    <bullet>  Quality assessment is labor intensive and remains 
controversial. Random controlled trials and other tightly controlled 
study designs are favored in medical SERs, but there is no general 
consensus on standardized quality assessment criteria.
    <bullet>  Synthesis consists of tabulation of study 
characteristics, quality and outcomes for the primary purpose of 
investigating whether results are consistent across included studies, 
and if not, investigating reasons for apparent differences.
    <bullet>  A narrative synthesis is used to qualitatively compare 
and synthesize included studies. Qualitative synthesis may be all that 
is possible if differences in population, intervention, outcome 
measures, designs and quality preclude meta-analysis.
    <bullet>  Quantitative synthesis, such as meta-analysis may be used 
to statistically combine study findings, as long as the studies are 
similar with regard to population and intervention under study, outcome 
measures, study design and quality.
    <bullet>  The strength of a body of evidence (all included studies) 
is assessed by examining aggregate study quality, the quantity of 
evidence (number of studies, sample size), consistency of findings 
across studies, and coherence of the evidence as a whole.
    <bullet>  SERs obtain their rigor partly through efforts to 
identify and explicitly acknowledge ways in which bias could enter into 
and affect results in primary studies, and to reduce bias during 
selection and review of these studies.
    <bullet>  SERs can be, and often are updated when new information 
emerges that will significantly strengthen or change the outcome of an 
existing review. Explicit documentation of how the review was conducted 
makes updating possible.
    <bullet>  A key use of SER information is developing clinical 
practice guidelines: ``systematically developed statements to assist 
practitioner and patient decisions about appropriate health care for 
specific clinical circumstances.''
    <bullet>  More progress has been made in rigorously assessing 
available evidence through SERs than in incorporating this evidence 
into medical policy due to problems accessing clinical guidelines and 
because many patients prefer tailored care.
Critiques of SER methods and cautions about using SER information
    <bullet>  Research quality assessment criteria are a cornerstone of 
SERs, but there is still no consensus on what these criteria should be 
and how different types of quantitative evidence should be weighed.
    <bullet>  There is growing criticism within the medical community 
of rigid study exclusion criteria and the practice of ranking evidence 
quality on the basis of research methodology alone.
    <bullet>  There are growing calls for including a broader range of 
evidence in SERs, including qualitative evidence and expert opinion, 
but finding ways to include, and weigh, such disparate types of 
evidence are major challenges.
    <bullet>  Framing questions in the tightly focused, specific way 
that current systematic review methods require may skew the review away 
from important issues that are more difficult to focus.
    <bullet>  Absence of evidence regarding the effectiveness or safety 
of a health care treatment or medication does not mean that the 
intervention is not safe or effective. In other words, ``absence of 
evidence is not evidence of absence''.
    <bullet>  Strength of evidence in and of itself is not related to 
the magnitude of effectiveness of an intervention. There may be very 
strong evidence that the intervention has little impact or, conversely, 
the apparent impact of the intervention may be large but the evidence 
regarding the impact may be weak.
    <bullet>  How strong the evidence needs to be when making a 
particular type of decision should depend, at least in part, on the 
potential consequences if assumptions about the outcomes of an 
intervention turn out to be wrong.
Applying SERs to Natural Resource Issues: Challenges and Opportunities
Disentangling questions about evidence from those about values and 
        preferences
    <bullet>  Forest and ecosystem managers usually lack the widely 
agreed upon single objective (better human health) that clinical 
medicine practitioners enjoy.
    <bullet>  Clarifying and obtaining consensus on the underlying 
objective (e.g., the proposed management action about which the 
information is being collected) may be critical to conducting a 
successful natural resource SER.
Differences between medical science and ecosystem science as fields of 
        inquiry
    <bullet>  Compared to clinical medicine, ecology is a younger 
science that involves a greater proportion of observational field-based 
studies to laboratory experiments.
    <bullet>  Ecological research typically involves greater 
methodological diversity, fewer laboratory controls, less replication 
and more ``nuisance'' variables than medical research.
    <bullet>  Ecology deals with larger spatial scales, longer 
timeframes and more complexity associated with multiple interacting 
species, habitats and ecological processes than medicine, which is 
focused on a single species.
    <bullet>  In general, there is less certainty about scientific 
conclusions in ecological studies than in clinical medicine.
The challenge of delimiting evidence that applies to a forest 
        management question
    <bullet>  SERs are best suited to synthesizing research focused on 
whether a single medical intervention ``works'' or ``doesn't work''. In 
the natural resources arena, SERs would be best suited to analogous, 
single variable questions.
    <bullet>  Complex, multifaceted forest management questions might 
be difficult to address using the SER approach, and for simpler 
questions, there may be little focused research evidence available.
    <bullet>  Much evidence concerning forest ecosystems consists of 
studies in which several variables are considered simultaneously in 
order to accurately describe real world ecological relationships.
    <bullet>  Synergies among species and processes are common in 
forest ecosystems. Thus, it may be impossible or misleading to isolate 
a single ecosystem component or single outcome of a management action 
as the focus of an SER.
    <bullet>  Delimiting the evidence that applies to a forest 
management question may also be challenging due to uncertainty about 
extrapolating results from studies to other areas with significant 
biological, physical, climatic or land use history differences
    <bullet>  For a forest management question structured as suggested 
by SER guidelines, there is likely to be a range of tangentially 
related research that falls somewhere between direct relevance and 
complete irrelevance.
    <bullet>  A feasible natural resource SER may require a compromise 
between a holistic approach that is closer to reality, but impractical 
for defining relevant studies, and a reductionist approach that may 
limit the review's relevance.
    <bullet>  A related challenge may lie in structuring a question 
with a degree of specificity that allows inclusion of enough evidence 
to make the review worthwhile, but also limits it to a manageable 
scope.
The challenge of assessing evidence quality in forest ecosystem science
    <bullet>  There is likely to be a paucity of relevant, focused 
experimental research and a greater proportion of potentially diverse 
observational evidence available to address a natural resource 
question.
    <bullet>  This type of evidence is typically graded as ``low'' 
quality in medical SERs, e.g., often observational with few controls, 
frequently with confounding interactions.
    <bullet>  If the same criteria used to assess evidence quality in 
medical SERs are deemed appropriate for a natural resource SER, these 
criteria would probably need to be applied less stringently to assess 
forest ecosystem research.
    <bullet>  Depending on the nature of the SER question and evidence 
available to address it, it may also be necessary to develop 
significantly different criteria for assessing the quality of forest 
ecosystem research.
    <bullet>  There is a lack of consensus on quality assessment 
criteria used in medical SERs. Achieving consensus on if, and how, such 
criteria should be used in forest ecosystem SERs may prove difficult.
    <bullet>  There may be no single set of quality assessment criteria 
that will work for all natural resource SERs. Assessment criteria may 
need tailoring to fit the evidence that pertains to a particular SER 
question.
    <bullet>  In cases where the evidence consists of studies and 
monitoring with disparate methods, locations and outcome measures, 
there may be no clear rationale for saying that one piece of evidence 
is ``higher'' or ``lower'' quality than another.
    <bullet>  With all else being equal, studies that involve 
relatively larger spatial scales, more replication, more controls and 
longer timeframes are likely to produce the most reliable results.
    <bullet>  However, ``all else equal'' assumptions often don't hold 
true. Greater complexity and diversity at larger scales can introduce 
more, rather than less uncertainty.
Locating the evidence
    <bullet>  Archiving of medical research abstracts and peer reviewed 
papers is more organized and standardized than in ecosystem science. 
Comprehensive literature searches in a natural resource SER may be 
harder to achieve than in clinical medicine.
The role of qualitative research, expert judgments and experience
    <bullet>  Expert knowledge and experience play a greater role in 
ecosystem research than in medicine because investigators must rely 
more heavily on expert judgment when interpreting results.
    <bullet>  Natural resource management also involves high levels of 
expert judgment because scientific information is often not available.
    <bullet>  Experiential knowledge may constitute an important part 
of the overall evidence base, but incorporating this evidence into 
quality assessment and ranking framework in the context of an SER 
remains problematic and controversial.
    <bullet>  One potential way around this debate is to understand 
scientific and expert knowledge as complementary, and equally important 
in ecosystem and natural resource management.
Opportunities for applying Systematic Evidence Reviews to natural 
        resource issues
    <bullet>  Applying SERs to natural resource issues will be 
challenging, but early proponents of the SER approach in medicine faced 
significant challenges as well.
    <bullet>  Despite differences, there are a number of similarities 
between clinical medicine and aspects of conservation and natural 
resource management.
    <bullet>  These similarities include the common use of 
interventions (essentially experiments in progress), the need to make 
decisions on the basis of imperfect information, and the complementary 
role of evidence and experience.
    <bullet>  Some components of SERs could be incorporated into 
science reviews (e.g., better documentation of how studies were 
selected for inclusion, investigation of quality differences) in order 
to increase their objectivity and transparency.
    <bullet>  Conducting a synthesis of available science on a natural 
resource topic using SER techniques could highlight gaps in the 
evidence base and suggest relevant areas for future research.
    <bullet>  In combination with ecological monitoring and incremental 
updates, a synthesis of available science using SER techniques would 
mesh well with landscape-level adaptive management.
Principles, Guidelines and Considerations for Applying Systematic 
        Evidence Reviews to Forest Management in Oregon
    <bullet>  ``Evidence,'' in an ecosystem management context, is more 
than just data and hard facts. It involves contextual information and 
interpretation. Scientific evidence consists of scientifically guided 
empirical observations combined with background information, logic, and 
scientific expertise.
    <bullet>  Sweeping generalizations about the appropriateness of 
particular statistical or research methods over others are unwarranted, 
and laboratory experiments do not necessarily carry greater weight than 
field experiments in forest ecology. All types of data can add to the 
evidence base.
    <bullet>  Evidence does not have to be quantitative or gathered by 
a scientist. The key is that the information was collected and 
interpreted as objectively as possible and can somehow be verified.
    <bullet>  The weight given to a particular piece of evidence should 
not depend on the type of observation but on the match between the 
observation and the question being asked.
    <bullet>  Medical SERs are, by design, rigorous, exhaustive and 
comprehensive, and thus time consuming and costly. A ``small scale, 
practical approach'' to science assessment is fundamentally different 
than SERs as they are defined in the medical field.
    <bullet>  Despite this inconsistency, some aspects of SERs could be 
readily adopted and incorporated into the internal and external science 
reviews that ODF already conducts.
    <bullet>  A systematic review of evidence pertaining to a forest 
management question may be feasible for ODF if (1) the question is 
tightly focused, (2) the evidence base pertaining to the question is 
not large, and (3) there is consensus on the boundaries of the evidence 
base.
    <bullet>  Natural resource SERs are more likely to be feasible for 
focused questions involving a single intervention and/or a single 
species. Multifaceted questions that involve more than one species or 
more than one outcome would be more difficult to address using the SER 
process.
    <bullet>  Independence from stakeholders is a fundamental aspect of 
SERs. An SER is more likely to be considered objective by all 
stakeholders if it is conducted by an independent entity, rather than 
internally by ODF.
    <bullet>  An SER process may reveal general consensus on the 
scientific evidence that is masked by fundamental differences of 
opinion on what outcomes are most important and what actions are 
appropriate in the face of imperfect evidence.
Three options for using the SER approach in Oregon forest management
    A full-scale SER on a complex forest ecosystem science question 
could be a major undertaking compounded by the need to recruit and 
train an external SER team before commencing the review itself. The 
feasibility of natural resource SERs and circumstances in which they 
would be most useful are not clear. Much could be learned by testing 
the SER approach, which offers some clear improvements over traditional 
literature reviews.
    ODF could take an incremental approach to adapting the SER process 
to forest policy making in Oregon. Three tiered options for doing so 
are outlined below. These options roughly parallel the three existing 
approaches to science review at ODF: (1) routine internal reviews, (2), 
external reviews commissioned by ODF to review long-term planning 
documents, and (3) other external reviews completed as part of broader 
policy initiatives such as IMST reports for the Oregon Plan.
    The form and details of each option are provided as a starting 
point and could benefit from further management and stakeholder review 
and discussion. The agency could develop a hybrid approach tailored to 
its needs in a particular circumstance.
    Option 1: Incorporate SER techniques into ODF's ``in-house'' 
science assessments and any external review of this work. The primary 
aim here would be to make existing ODF internal science review 
processes more transparent. This could be achieved with adjustments to 
what is already being done, primarily by adopting components of SERs to 
better document how science information is gathered and reviewed.
    Under this scenario, ODF would not be rigidly bound to assuring 
that the review was an absolutely exhaustive and complete examination 
of all available evidence. As with all science reviews however, 
credibility would be predicated on perceptions of the degree to which 
the review was thorough and objective. This option would be best suited 
to cases where the available evidence is relatively clear, 
uncontroversial and limited in scope.
        Option 1a: Conduct the science assessment ``in house'' as 
        described above, with the additional step of soliciting 
        external review of the draft final document. This process would 
        approximate that used during the Independent Scientific Review 
        of the Draft Western Oregon State Forests Habitat Conservation 
        Plan, as described in Section II. The key differences would be 
        use of SER procedures during the ``in house'' phase, and that 
        external reviewers would be asked to assess the quality of 
        evidence used and upon which they base their review and 
        comments.
Key components of Option 1:
    <bullet>  To the degree possible, develop tightly focused, specific 
questions to delineate the purpose and scope of the review.
    <bullet>  Develop a simplified SER-like protocol to explain how the 
review will be conducted, using the example shown in Appendix 2 as a 
starting point. Development and use of a formal evidence quality 
hierarchy and ranking system is probably not be feasible at this level 
of review, but a narrative discussion and comparison of study quality 
could strengthen the review.
    <bullet>  Document in a systematic way which studies were included, 
what they said and how the information was interpreted. If studies were 
identified as relevant, but not included for quality or other reasons, 
document these reasons.
    <bullet>  If/when documents are sent out for external review, 
include in the review process an expectation that reviewers will also 
provide a quality assessment of the information upon which they based 
their review comments.
    More specific guidelines for how this option might be implemented 
are offered in Appendix 4.
    Option 2: Commission an SER by an external, independent entity. 
Under this scenario, a review of evidence would be contracted to a 
qualified independent entity. Such a review might be triggered by 
politically sensitive or difficult scientific questions about which ODF 
staff sought external scientific review. External review should assume 
impartiality and take advantage of academic expertise in specialized 
subdisciplines within ecological science.
    The overall aim would be to prepare a defensible SER for a natural 
resource question, or a limited set of questions, with corresponding 
effort to obtain all relevant evidence and review it in formal, 
documented fashion. As with Option 1, this would not require an 
entirely new process. Existing external science review entities would 
consider using the SER approach.
Key components of Option 2:
    <bullet>  ODF would develop tightly focused questions to frame the 
purpose and scope of the SER. The additional step of vetting the SER 
questions with stakeholders could be considered. Questions would be 
refined in collaboration with stakeholders and SER review team.
    <bullet>  Develop a protocol that explicitly lays out how the 
review will be conducted. The external SER team should take the lead, 
or at least be included, in this process. If the review team believes 
it is feasible, develop and apply a formal set of evidence quality 
assessment and ranking criteria to the included studies.
    <bullet>  Publish results of review on ODF website and in academic 
journals.
    Option 3: Collaborate with other state and federal agencies to 
address regionally significant, highly policy relevant questions of 
using the SER process. Many forest management issues transcend agency 
boundaries and should be addressed at the landscape scale. Some of 
these issues are controversial and challenging, and more than one 
agency could benefit from synthesis of all available evidence into a 
package of ``best available science'' that all participating agencies 
could then use. Post-wildfire ``salvage'' logging and restoration is an 
example of a topic for which it may be worthwhile for ODF to initiate 
and/or participate in multi-agency efforts to identify key questions 
and support an SER process to address them.
    Topics would need to be carefully considered because of the time 
and effort that would likely be required to coordinate a multi-agency 
SER. Various approaches are possible. For example:
        Option 3a: Bring together an SER team comprised of technical 
        specialists from within different agencies (e.g., ODF, Oregon 
        Department of Fish and Wildlife, USDA Forest Service, USDI 
        Bureau of Land Management, Fish and Wildlife Service, National 
        Park Service, NOAA Fisheries) to develop questions, a protocol 
        and conduct the review.

        Option 3b: Conduct an external SER as described in Option 2, 
        but solicit and coordinate support from other agencies.
Key components of Option 3:
    <bullet>  Similar to Option 2, but with interagency collaboration 
in (1) identifying and refining questions and vetting them with 
stakeholders, and (2) locating evidence, particularly unpublished 
monitoring data and other agency-specific information that may not be 
widely available, and (3) providing support to conduct the SER.
Conclusions and looking ahead
    A pilot test of a modified SER process could shed light on the 
accuracy of many of the untested perspectives and assumptions in this 
report regarding the potential for SERs in natural resources. There is 
no way to really know how accurate the analysis contained here is 
without testing it in practice. The best way to do this is by applying 
a modified SER process in a pilot test on a carefully selected but 
relevant natural resource question. It would be important to start with 
a question that is limited in scope and for which it is reasonably 
certain that enough evidence exists to conduct a useful review.
                                 ______
                                 
    Mr. Walden. Mr. Lorensen, thank you. That's precisely what 
we intend to do and have been doing in our hearings, is say 
what does the science tell us, what can we learn from it, and 
how do we come to reach better policy decisions because of it. 
So thank you for your comments today, and thanks to all the 
panelists.
    We'll now go into a phase in the Committee for our 
audience. We'll each have five minutes to ask questions of the 
panelists. My hunch is we'll probably do two rounds for this 
panel, maybe more, but we also have to maintain a bit of a 
schedule here. And I know Mr. Inslee has a flight to catch at 
some point. He rearranged his schedule to be able to join us 
here.
    So why don't I go ahead and start off. And I have a 
question I hope you can answer kind of briefly, but I recognize 
that's hard to do. But five minutes is five minutes, and I've 
got a bunch of them.
    And so for Mr. Hobbs and I think for Mr. Kolb and Dr. West 
and maybe Mr. Lorensen, how important is timing in post-fire 
treatments? We were out on a stand today. We've heard about 
Judge Hogan's decision, you know, something several years long. 
We've read Mr. Donato's research about what happens if you wait 
two years and start to do post-fire recovery, salvage logging, 
whatever it is.
    Can you just briefly comment from your experience perhaps 
at this state and the research you've seen nationally how--what 
is it about the timing that's critical that we should know.
    Mr. Hobbs. Well, I can start to try and address that issue.
    And I think that timing is crucial for a number of reasons, 
but let's take southwestern Oregon as an example of why it's so 
important.
    Typically after a disturbance, whether it be timber harvest 
or some other sort of disturbance--it could be wildfire--you're 
going to get the associated vegetation on those sites that are 
quite frequently well adapted to those types of disturbances or 
those site conditions to recover very rapidly. And we've seen 
this on the Biscuit Fire. I know that I was down here, looking 
at it, in the late fall after that fire occurred and already 
the field brush, the tanoak, the madrone were sprouting very 
vigorously. And the problem you have is that these are very 
well adapted competitors, and they are going to have a 
significant effect on conifer establishment and subsequent 
growth if you do not get conifers established quickly, whether 
it be by natural regeneration or artificial regeneration, i.e., 
tree planting.
    Mr. Walden. All right.
    Mr. Hobbs. So that's just one.
    Mr. Walden. Dr. West, a brief comment.
    Ms. West. I would concur with Dr. Hobbs. And I would like 
to add that--I think Dr. Kolb mentioned this--we lose those 
learning opportunities. And if the management objective is to 
reestablish vegetation on that site to meet wildlife 
requirements or aesthetics or for wood production, it's 
essential to go in for the reasons that were stated. And we 
lose that opportunity.
    Mr. Walden. All right. Dr. Kolb, briefly.
    Mr. Kolb. Well, I concur. Timing is critical, and I would 
add one thing. We seem to be in a period of climatic 
uncertainty. And if you want a certain desired vegetation back 
with this uncertainty, it's critical to get these plants on the 
site as quickly as possible before competition exacerbates any 
climatic uncertainty, such as drought or higher temperature, et 
cetera.
    Mr. Walden. All right. Briefly, Mr. Lorensen.
    Mr. Lorensen. I think science has demonstrated the impact 
on timber values. I think that's important to restate.
    I also agree that climate/weather issues are huge and again 
may well have been a factor in the results in this particular 
study, but again you lose options to the extent that you wait.
    I guess I would state, if I could, the policy of the State 
of Oregon, established by Oregon's legislature, is they direct 
the state agencies to begin salvage as quickly as possible, in 
recognition of those multiple values and certainties. And the 
Department of Forestry typically begins salvation operations 
and put up the timber sales within weeks or months.
    Mr. Walden. Within weeks or months.
    Mr. Lorensen. Yes.
    Mr. Walden. Thank you.
    Mr. Donato, I have a couple of questions obviously for you. 
I'm glad you're here, and I thought it was important to give 
you an opportunity to address some issues that you may have 
heard or read about, because they've been sort of out there, 
so--
    Based on your comments, I don't get the impression that you 
blame the Bureau of Land Management for mistreatment or make 
claims of a scandal or heavy-handed treatment.
    Do you believe, given your original submittal that had 
references to legislation, that there were legitimate concerns 
with proper notification, the BLM had reasonable cause for 
review?
    Mr. Donato. Yeah, I think there were some issues that--
where there was some miscommunications and some perceptions of 
certain verbiage that raised some questions. And I don't 
necessarily question that.
    Mr. Walden. OK. And let me ask about that sequence of 
events, because this has been out there in the public and we're 
trying to get answers and you're the guy. So lucky you.
    In terms of the protocols--I'm not the scientist like my--
some of my colleagues. In terms of the protocols you were 
required to follow, were you supposed to--did you have a 
project investigator that you were supposed to report to prior 
to submission to any publication of your work? Was it----
    Mr. Donato. That was less than clear, I have to say, that 
the communication between the agency and the university turned 
out to be sort of an unclear two-way street. And we have 
consulted with the agency throughout the course of the project, 
including for the data presented in this paper. We presented 
these data at the Joint Fire Science Program meeting in 
November. And we also presented to the project inspector in 
December, the day that we were planning on submitting, so--
    Mr. Walden. So and was that the December meeting that Mr. 
Sensenig asked you to attend.
    Mr. Donato. Yes.
    Mr. Walden. And in that meeting you told him you'd 
submitted the science.
    Mr. Donato. That we were submitting a paper, yes.
    Mr. Walden. You did? Because he has an e-mail that we have 
in our record that doesn't indicate that at all. It's a much 
different version. Have you seen that e-mail?
    Mr. Donato. No, I'm afraid I haven't.
    Mr. Walden. All right. There's an e-mail from Tom Sensenig, 
the principal investigator and project inspector to the 
contracting officer, Mr. Shapiro, which we'll be glad to--do we 
have a copy we can give to him?--that indicates that he called 
the meeting with you in early December to prepare for a 
conference. Scheduled meeting for December 15th in Corvallis. 
And he says, and I quote here: ``Despite having already 
prepared and submitted their paper to Science, Dan did not 
offer any information regarding the other authors' involvement 
or the fact that they had submitted a paper for publication.''
    Mr. Donato. This really harkens to just a miscommunication 
as to the level of consultation required. This is an issue that 
has been resolved between the university and the agency as a 
miscommunication. It really was.
    Mr. Walden. Because he goes on to say: ``Had I not 
scheduled this meeting, there would not have been any 
communication between any of the authors.'' And----
    Mr. Donato. Well, how that--how that went was we presented 
at the Joint Fire Science Program meeting. And at first we were 
under the impression that all the P.I.s were going to be there. 
And when we found out that Dr. Sensenig would not be there, we 
unofficially scheduled a meeting for some time down the 
future--in the future. And that's when that occurred.
    Mr. Walden. But this would indicate that he met with you on 
December 15th. Do you remember that meeting.
    Mr. Donato. I believe it was earlier than that, actually. I 
don't know the exact date.
    Mr. Walden. Well, he said: ``I scheduled a meeting for 
Thursday, December 15th, in Corvallis, Oregon.'' And he goes on 
to say: ``Although the studies"--let's see.
    He says: ``I've scheduled the meeting, not them,'' and that 
it--"and it had nothing to do with their publication. Both Dan 
and Joe showed me some PowerPoint slides that they had 
prepared. Joe discussed the wildlife aspects of the project, 
mostly on deer mice. Although the study is comprehensive and 
involves many types of data, Dan only prepared slides on 
seedling counts and fine and coarse wood transects. He did not 
discuss any other aspects of the study.
    Curious about this, I asked about the other parts of the 
study. He indicated he did not have time to look at these data 
yet and that regeneration and fuel hazard are two factors in 
which pending House Bill 4200 is based. As I wasn't familiar 
with bill at that time, I asked him to explain what he was 
talking about because these projects were not complete, it was 
preliminary, and because they kept their publication from me. I 
had no reason to suspect any wrongdoing at this time. In 
closing, I asked them to send me any information. I did not 
receive any information until January 4th when Dan e-mailed the 
paper to my office. Had I not scheduled this meeting, there 
would not have been any communication between any of the 
authors with me prior to publication.'' I'll just give you this 
to read because----
    Mr. Donato. Sure.
    Mr. Walden.--it really raises questions about this issue 
that is so much in the press that I think every one of us here 
has weighed in to defend academic freedom, but we also have an 
obligation to make sure that the contractual obligations that 
you and your colleagues are involved in are met. I mean, that 
is, we have to be stewards of the tax dollar.
    Mr. Donato. We agree, that is an important issue, and we 
did work to resolve that between the agency and the university. 
We did.
    Mr. Walden. OK. My time has expired. Mr. DeFazio?
    Mr. DeFazio. Mr. Chairman, I'm only driving north on I-5. 
He's got to catch a plane, so I'm going to let him go ahead of 
me, if he wants.
    Mr. Walden. Mr. Inslee.
    Mr. Inslee. Thank you, Mr. Donato. I appreciate you being 
here and your research and your testimony for a couple of 
reasons. One, I think you've expressed appropriate humility for 
a scientific investigator; that your research really opens 
doors and really adds to more questions and is not resolved. It 
is not the end all, be all scientific research. I found your 
study to be critical in leading us to conclude rightfully we 
need more research on this issue and that there is some 
evidence you have suggested, at least has some suggestion, that 
logging may have some consequences we did not fully understand 
on regeneration. So I appreciate your humility in that regard.
    I also appreciate, I think it's fair to say, just a modest 
amount of courage in this regard in your research. And the 
reason I say that is that regardless of what happened in this 
specific situation--I don't want to get down in the weeds on 
that--but we really are in a country today that is living into 
a cloud of suppression of science from this administration 
trying to suppress information coming out of our principal 
global warming administrator on global warming and out of NASA, 
suppression of science out of NOAA on the same subject, right 
out of the White House, suppression of studies of Dr. Susan 
Wood about birth control. I was up at Western yesterday. There 
were researchers I talked to that are very concerned about 
this.
    And what happened in your situation is in large part 
because of that cloud that we're under, and I just want to sort 
of relate that to you, that is not a cause or effect of you, 
but it's simply a fact of life under this administration. And 
it's caused us all a great deal of concern.
    I wanted to ask a specific about your conclusion that the 
regeneration we observed was reduced by 71 percent as a result 
of the salvage logging operations. Could you just briefly 
describe how you reached that conclusion for us laypeople.
    Mr. Donato. OK. Well, it's a design with a series of plots 
set out across the areas designated for salvage, and about half 
of those plots get logged and about half don't. And before the 
logging, we measure all of the plots and we do seedling counts 
systematically. And the logging occurs, and we remeasure all of 
the plots again after the logging, and we follow the before and 
after data in the log stands. We compare the median value of 
seedlings beforehand and the median value afterward. And that's 
where the 71 percent reduction comes from.
    And then we followed the unlogged stands through time to 
make sure that it's not just a time effect that we're seeing, 
that the 71 percent of the seedlings just don't die anyway.
    Mr. Inslee. Got you.
    Mr. Donato. And so we documented that there is no 
significant difference within the absence of logging, so it 
isolates the effective logging as producing the regeneration.
    Mr. Inslee. Thank you.
    I have a question I want to make sure of all the witnesses. 
Do any of the witnesses believe that we need to eliminate the 
need for requirements, the National Environmental Protection 
Act requirements in our decisionmaking regarding salvage 
logging? Do any of you advocate for the elimination of the NEPA 
requirements in regard to salvage logging management decisions? 
Do any of the five or six witnesses advocate that today?
    Mr. Kolb, you do. None of the--so we have one that would 
advocate for getting rid of NEPA in that regard.
    Mr. Kolb. Not getting rid, but modifying.
    Mr. Inslee. Modifying. OK.
    Second question. Do any of the witnesses advocate for 
removing from protection of our forests the roadless area 
policy as it applies to post-disturbance salvage logging? Do 
any of you advocate for getting rid of the roadless area policy 
in that regard? Nobody.
    So we've got one out of the ten questions I've asked, doing 
quick multiplication, or twelve, depending on how you count.
    That's important. I'll tell you the reason I asked that 
question. This is what the whole issue is on this hearing. The 
legislation that has been proposed would gut the National 
Environmental Protection Act policy of asking our Federal 
employees to consider science when they make these management 
decisions. But nine out of ten or eleven out of twelve, 
depending on how you count scientists today, have not advocated 
for doing that.
    And this is exactly my concern about this proposed 
legislation, because I think it creates the potential that we 
will make the same type of mistakes in the woods that we have 
made on a bipartisan basis, I may add, in not looking at the 
science before we make these decisions.
    Now, Mr. Kolb, I want to ask you just one other issue 
about--there are other values certainly of standing dead 
limber--lumber--other than aesthetic or commercial.
    I want to read to you a statement from Dr. Richard Hutto, 
Professor and Director at the University of Montana. He says, 
quote:
    If you salvage these special biologically unique burned 
forests, birds disappear as perhaps do many of the other 
organisms unique to severely burned forests. In fact, every 
study ever conducted on the issue has shown that all bird 
species are less abundant in completely salvage logged than in 
uncut burned forests. Even partially salvaged forests reveal 
that all but possibly a few species are negatively affected. 
And, once again, none of the species most specialized on most--
on most restricted to post-fire conditions have been shown to 
benefit.
    Basically, I understand by lay terms Dr. Hutto's saying 
that standing timber can have a commercial value, but it causes 
a significant cost to the American citizens to the extent that 
they have values of our feathered friends in the forest. And we 
got to see two of them today, a red--or one of them--a red-
tailed hawk, and we heard about a red-headed woodpecker that 
was out in these forests that were supposed to have been cut 
but were blocked by litigation. And everybody gets mad about 
this litigation, but the habitat that supported the woodpecker 
that we almost saw today, but heard about, would have been 
destroyed had that salvage logging taken place.
    And just the question I have, do you agree with Dr. Hutto 
in his assessment of the impact on avian species of salvage 
logging?
    Mr. Kolb. No, I do not. And I've had many discussions with 
Dr. Hutto about this. And here's the basic rationale.
    And, by the way, studies have shown that flickers and red-
tailed hawks actually benefit from areas that are harvested 
versus dense forests. They're egg species. The only species 
that's been--the bird species, woodpecker, that's been 
documented to benefit from dense standing dead timber is the 
black-backed woodpecker.
    There are actually many species that have been shown to 
respond very favorably to logging. And really if you look at 
the compendium of research on avian response to fire, it shows 
that it's really a mixed bag. There are species that respond 
well to salvage logged areas and some that do not. But as a 
whole there are just as many studies that show positive 
responses as negative responses, but depends on the species.
    Now, with regard to Dr. Hutto's statements about the value 
of these dead standing trees, there is a value to dead standing 
trees. It's a question of magnitude. And the argument and the 
comment I make to Dr. Hutto is: If 500,000 acres of dead 
standing trees resulting from a fire is necessary to support 
these bird species, where did they come from? We had 70 to 80 
years of fire suppression where we didn't see fires of that 
magnitude. Now all the sudden these species are dependent on 
these huge black patches.
    So fire is important to provide habitat to some degree. 
It's a question of magnitude. I'm all for leaving patches of 
dead, fire-killed trees out there, but do we need 500,000 acres 
of it.
    Mr. Inslee. You raise a very interesting point, where did 
they come from. And if the presence of forest depends on human 
intervention in the forest after fires, the question must be 
raised: Where did these forests come from before the appearance 
of industrialized man? They came from an ecosystem devised 
through thousands of generations before our appearance in the 
Northwest. And I think we ought to think about that.
    By the way, I just want to mention that the gentleman I 
just quoted, Dr. Hutto, is Director and Professor of the Avian 
Science Center at the University of Montana. You know, we'll 
have to draw our own conclusion in that regard.
    By the way, if I may submit to the record the letter and 
information that Dr. Hutto--what came from that. If I may just 
have one more----
    Mr. Walden. Yes. Without objection.
    I'd also like to submit for the record the e-mail I 
referenced earlier that we're providing for Mr. Donato. So 
without objection, both will be in the official record.
    Mr. Baird. Would the gentleman--would my colleague, Mr. 
Inslee, yield for just one moment.
    Mr. Inslee. Sure, if I can catch my plane.
    Mr. Baird. It'll be brief.
    To your knowledge, what percentage of the Biscuit Fire 
would have been harvested?
    Mr. Kolb. I'm not familiar with the Biscuit Fire other than 
what I've read on it, so I don't feel----
    Mr. Baird. I believe we were told it's seven-tenths of one 
percent.
    Ms. West. Six percent. Six percent.
    Mr. Baird. Six percent. Six percent would have been 
harvested. So we would still have 94 percent of the area 
available for that bird habitat.
    Thank you. I appreciate the clarification.
    Mr. Walden. Mr. Inslee, I know you have to go to catch a 
plane. I'm anticipating a second round. Do you have anything 
else you want to ask before you have to leave.
    Mr. Inslee. No. I may try to sneak in a couple minutes 
after your next round. I'll just see.
    Mr. Walden. Oh, I thought you had to leave at 2:30.
    Mr. Inslee. Thanks for your courtesy.
    Mr. Walden. All right. Congressman DeFazio, five minutes.
    Mr. DeFazio. Thanks, Mr. Chairman.
    I'm just--Brian, just I'm pretty familiar with the Biscuit. 
And just to be clear, there's a perimeter within which we lump 
all and say this is the Biscuit Fire. But it's very much, as 
are all fires, a mosaic and not everything within that 500,000 
acres was burned or substantially burned. Some areas are total 
toast, and other areas are, you know, still, particularly in 
weather drainages and some places where it skipped, are still 
quite intact.
    The issue--I was particularly interested in Mr. Lorensen's 
testimony because it really--it's something that came up in the 
hearings in Washington and I want to pursue it because I think, 
you know, there's also some potential grounds for agreement 
here, even when we seem pulls apart.
    And in your testimony, page three, you say: To reduce value 
of the smaller trees means that most or all of the economic 
value in the stand is contained in the larger trees that are 
also most valuable as future stand structure and wildlife 
habitat.
    Then you go on to the next paragraph to say: One way to 
address this is to reduce the time associated with planning and 
implementing salvage sales. Reducing the time it takes to plan 
and implement would allow more of the value of the small and 
mid-diameter trees to be captured and allow greater flexibility 
to leave larger trees while still maintaining the economic 
viability of the timber sale.
    This is similar to some conclusions that Dr. Franklin 
offered in testimony in Washington.
    And I guess I'd just like to ask. Does--I would assume Dr. 
Kolb and others would agree there is value in having a 
retention standard? That's correct. And then you can agree or 
disagree over the magnitude or, you know, of the retention 
standard. But doesn't it make sense, what Mr. Lorensen's 
talking about here, is if an area is available for timber 
management, that if you want to go in there you would want to 
go in quickly and remove and target and get the value of the 
smaller, mid-diameter trees and then you would have some more 
or less retention of the biological reservoir of the larger 
trees.
    Does anybody disagree with that sort of premise or idea? 
Because I'm thinking that's where there might be a little more 
grounds for grooming here on the part of the Committee as we 
move through this debate.
    If I could go--I mean I'm a little puzzled because I read--
you know, I'm not a scientist, unlike Dr. Baird. But, you know, 
I read the one-page article in Science, and I don't quite get 
as excited about it. If you let a stand, the stand burns. OK. 
It was a mature stand, as I understand it, so these are--was it 
previously logged?
    Mr. Donato. No.
    Mr. DeFazio. No. OK. So we're talking old growth, very 
large trees that are fire resistant. So there was some 
survival. It was a mosaic kind of thing. They weren't all dead.
    Mr. Donato. There was a mosaic, but we sampled just the 
stands that burned with high severity.
    Mr. DeFazio. OK. But they were--there was still some 
scattering of seed sources and that.
    Mr. Donato. Around them, yes.
    Mr. DeFazio. So you got--so you got a lot of, you know, 
natural reseeding and small things growing up. And then you 
drive heavy equipment over the little trees three years later 
and they get crushed, right? OK. That to me doesn't require too 
much, you know, study. No offense. But, you know, I get that.
    Now, the key--the key becomes--when we were up at BLM, we 
saw a stand that was private where they had maximized salvage 
and maximized reforestation. The BLM stand hadn't been 
salvaged, but they went in with reforestation. They had very 
little natural regeneration because it was a previously managed 
stand and there wasn't much of a reservoir of seeds in the 
bigger trees to survive.
    So the--it seems to me that, you know, the conclusion that 
can be drawn here, I think the thing to me that was perhaps 
most compelling or interesting was the concern about the slash 
and how that infected--affected either future possibility of 
fire and/or whatever natural seedlings remain. And on the 
private lands here again they controlled and very much they 
removed most of the slash, which is not that usual in these 
operations, but they did and they brought it down the hill down 
by the road and got it out of there.
    So I think one of the conclusions you came to was that--and 
I saw it here in your testimony--rather with information from 
this study and additional ones that isolate the effect of 
different harvest techniques and timing, any undesirable 
impacts of salvage logging could be minimized.
    So, you know, that again does not seem to be a 
controversial conclusion to me. And I'm a bit--and, you know, 
we'll hear from Mr. Baird later in terms of his concerns. But 
let me go this way. If we had a young plantation--I was 
involved with Mark Hatfield legislating, actually. Salvage has 
been always controversial. And in order to do salvage on the 
timber, the Silver Fire, we legislated it and we stopped the 
building of a very controversial road. We established and we 
did helicopter logging, and we got fairly substantial salvage. 
Created a young plantation. A lot of that burned up in this 
fire.
    Now, if you have a young plantation that gets fried, your 
study wouldn't be applicable because there's really no seed 
source. Is that correct?
    Mr. Donato. If it had been a plantation prior to the first 
burn? I'm not quite sure what the question is.
    Mr. DeFazio. The first burn with the Silver Fire, I think 
it was pretty much--I think it was pretty much virgin forest. 
Someone here might know better than me. I mean it was--I don't 
think it had been entered. It was pretty roadless area. So I 
don't think it had been entered previously. But it was 
substantially burned and areas were salvaged and then 
plantations or--well, let's--maybe that's not a good example. 
The point is: If a plantation or managed area burns, you're not 
going to get much natural regeneration, right?
    Mr. Donato. Well, it depends on existing seed sources that 
surround that plantation.
    Mr. DeFazio. Right. But if it's a--if it's a big 
plantation, you know. I mean--what I'm trying to get at is 
that--and this is for us to decide, which is where it's 
appropriate to do harvest, where it isn't, and post-
catastrophic how you manage those lands. I mean if you have a 
large plantation that burns in this environment, you're not 
going to get probably natural conifer regeneration. You're 
going to get some other kind of regeneration, but it's not 
going to be conifer, at least for a very long time.
    Mr. Donato. Well, that's not certainly certain. It really 
depends on the site you're talking about.
    Mr. DeFazio. OK. All right. That's fair. I mean I don't 
think any of these things have totally definitive answers. But 
Mr. Inslee did sort of put out there, but he didn't ask the 
question, and I asked the question this morning, so I do want 
to ask it again now, which exactly was the question he asked.
    I said so if in this area that, you know, the natural 
competing vegetation is so good, you know, how did we 
previously, you know, maintain or regenerate or get these 
forests? And I think there's a very complex answer to that 
question. And I'd like anybody who wants to try and address 
it--I mean because we don't--we don't know exactly and we've 
got to interpolate backwards, but I mean, you know, hundreds of 
years. I assume climate change comes into effect, you know, 
natural fires, lower intensity, more frequently versus, you 
know, now. But I mean what--how is that? I mean how did it 
happen without intervention and management?
    OK. Dr. Peterson is the guest. OK.
    Mr. Peterson. I'll take a shot at that, I guess.
    Mr. DeFazio. Sure.
    Mr. Peterson. I think you've already stated most of the 
reasons for the current day complexity, is that particularly in 
these landscapes in Southern Oregon where we have what's called 
a mixed severity fire regime. When fires have occurred in the 
past, we normally got this mixed pattern of severity. Whereas 
in the Biscuit Fire, as in the Silver Fire, there were areas 
that were burned severely, there were areas that were hardly 
burned at all, and a lot of stuff in the middle. Very complex 
spatial patterns. And that's just absolutely natural and normal 
for these types of forest ecosystems. And then you have the 
wild card of climate that early in the regeneration process for 
conifers can determine the fate of that particular stand for 
the next hundred or 200 years.
    So we have this--it's a very complex spatial pattern along 
with these rather random things like weather and climate that 
come into play.
    Mr. DeFazio. You know, you said random. We won't even get 
into that.
    Mr. Peterson. I could have said stochastic.
    Mr. DeFazio. But you said random.
    And I guess what I want to get at, this is one of my big 
contentions with the Northwest Forest Plan, which is not an 
issue here, but when lines were drawn and these were called 
late successional reserves, some of them big old trees, some of 
them were tree plantations that were actually quite dense. And 
I asked one prominent scientist once, I said what happens if 
you draw a line around a tree plantation, what do you get in 50 
or 100 years. And he said dog hair. You know, and so I says you 
would have to re-enter and thin and, you know, really you would 
have--if you want just to manage ultimately back toward what 
you say is a natural state or large old trees, you would have 
to manage back to it. It's going to happen very easily unless 
the whole tree plantation burns down. I mean--would you like to 
address that, Dr. West or Dr. Peterson, either one. I saw her 
nodding. Because I mean that's the thing here. Part of what 
you're saying is but some of these lands were previously 
managed and therefore this was not a natural occurrence, which 
goes to the whole issue of fuel loading and management.
    Ms. West. And I think we've developed a fairly good 
understanding of the opportunities to go in and remove some 
trees from these very fixed width, between trees, you know, 
patterns to create more of a natural mosaic of trees, creating 
some gaps in those forests so that it can hasten its 
development into older characteristics, characteristics of 
older forests. So that's well documented, that we've got those 
opportunities if that's a management objective.
    Mr. DeFazio. OK. My time's expired, but I will have more 
questions.
    Thank you, Mr. Chairman.
    Mr. Walden. Dr. Baird.
    Mr. Baird. Thank you.
    Mr. Donato, I've survived a thesis defense and a 
dissertation defense. They're not pleasant, but I didn't have 
to do it in front of all these folks. So if I ask you tough 
questions, I'm not picking on you. This is how science works. 
It's worked for thousands of years this way.
    Mr. Donato. Fair enough.
    Mr. Baird. Mr. Inslee said that he thought you displayed an 
appropriate degree of humility. One of my concerns is, frankly, 
I don't think you did in a number of ways in the study or in 
your testimony today. And part of scientific integrity is 
making sure you don't make generalizations beyond the limits of 
your data. And nowhere in your study or did I hear in your 
commentary today two critical things germane to our 
legislation.
    First, I never saw reference in your study--maybe I just 
missed it. I read it a bunch of times, but maybe I missed it. I 
never saw you say that had the logging commenced prior to the 
two-year time allowed under the Biscuit Fire, the mortality of 
seedlings would have been substantially different. So that's 
one thing.
    I think you needed to say it because the entire purpose of 
our legislation is to allow folks to go in while the existing 
wood has more value and before you got seedlings coming up and 
you can do some of the work that Dr. Kolb has testified 
elsewhere on of cross-fallen trees to stop erosion. Did I miss 
something or did you address that?
    Mr. Donato. Can I address that?
    Mr. Baird. Please, yeah.
    Mr. Donato. Our goal in the paper was to present the 
numbers and present the dates and not make management 
recommendations. We just wanted to present the data.
    Mr. Baird. I find it disingenuous.
    Mr. Donato. We wanted to present the data.
    Mr. Baird. Throughout your study are value-laden 
statements.
    [Audience disruption.]
    Mr. Walden. Ladies and gentlemen, please. We don't tolerate 
that in Washington and not here either.
    Mr. Donato. Our goal was to present the data and let people 
draw their own conclusions. We--we in the paper indicate that 
as a 2002 fire that was--we measured before and after logging, 
which is 2004.
    Mr. Baird. I understand. I've read it. I don't want--I'm 
going to interrupt you.
    Mr. Donato. And I think it's clear that everyone--many 
people are making that conclusion, and I think that that's a 
fair thing. And we didn't want to make any specific management 
recommendations.
    Mr. Baird. With respect, I think it's disingenuous. With 
respect, the fact of the matter is that you're going to kill 
trees if you wait two years. And your title says Post-Wildfire 
Logging Hinders Regeneration and Increases Fire Risk. But 
there's no caveat in that title. It's a generic--the grammar of 
it, my friend, is a generic continuous generalization. And I've 
read probably 20,000 studies. I've taught this stuff. If I were 
your advisor or if I were a reviewer, to be perfectly frank, 
I'd have said I believe your title is deliberately biased, or 
maybe not deliberately, but will be interpreted that way. And 
here's why this matters.
    People are taking this to imply far more than the study 
suggests. And it particularly matters, and I'll get to this in 
more detail in a second, because it is apparent from some of 
the text of your earlier document that this document 
particularly was published when and how it was to influence 
policy, which it seems to me ethically to make it far more 
incumbent upon you to express the caveats.
    The second caveat I didn't see was any discussion about the 
possibility of reforestation efforts and how that might be 
affected.
    Now, our legislation again addresses not only prompt 
harvest, but also prompt reforestation through diverse species, 
which could certainly supplement any--any mortality of natural 
regenerated trees. So I just put that out there.
    Let me ask you a couple of questions. When I requested the 
material that you had, the full data set, I also asked through 
my staff, what did Science magazine request. And the reason I 
did it is because I wanted to see if Science had done due 
diligence. And, frankly, I don't think they had.
    You essentially said there's the one-page article itself 
and about a page and a half of supplementary material available 
on the Web. And I think your language was: What you see is what 
you get.
    Did at any point the reviewers from Science magazine ask 
you for raw data?
    Mr. Donato. No.
    Mr. Baird. OK. So what you saw was what you got?
    Mr. Donato. That's right. That is all--everything we 
submitted.
    Mr. Baird. Well, we have an hour and a half here. I could 
talk about and I will talk about in a second why I think that's 
problematic.
    One of the key variables from this is the interpretation 
that the median regeneration is reduced by, what, 71 percent, 
something like that. You're taking continuous data. You're 
taking an absolute number of trees. I want to walk people 
through this. A brief statistic lesson.
    This is what you call a measure of central tendency. We're 
familiar with the average, right, where you add everything up 
and then you divide by the total number of data points. That's 
called the average.
    The median doesn't encompass nearly that data. The median 
says the point at which there are equal number of data points 
lower than this value and an equal number of data points above 
this value.
    You've got, as I understand it, five cells, five study 
cells broken into four quadrants per cell.
    Mr. Donato. That's not quite right. It's nine plots 
distributed amongst five sites.
    Mr. Baird. OK. I'm not sure that's clear in the data, but 
I'll stay with that.
    The concept--your ``N'' was nine, but I looked at the study 
a lot and I didn't get an understanding. You had five sites, 
each of which had four transects, right?
    Mr. Donato. No. We had nine plots, each of which had four 
transects.
    Mr. Baird. Well, I--well, you'll have to sit with me 
afterwards and show me where that's reported in.
    Mr. Donato. I could--I could do that.
    Mr. Baird. Yeah. Good.
    Here's the problem with the median data. If you look on 
there, this is just hypothetical data I created. If you had the 
first prelogged values on the top, 5,100, 767, 1,000 and 2,000. 
And the second set--in the top set there, the post-logged were 
one different except for that middle median. You could look 
like there's quite a substantial difference in the median 
value, but in all the other plots there's not such a 
difference, is there? In fact, there's a difference of one on 
all the other plots, but those other plots aren't spoken to by 
this data.
    Now, in contrast, the chart below has the exact same median 
difference, but quite a lot of difference among the other 
plots.
    Now, my question to you was: Why not present that data? Why 
not give it to me? And why didn't the reviewers in Science look 
at it? Because I want to understand this question.
    Mr. Donato. Well, submission of raw data to a journal for 
peer review is almost unheard of.
    Mr. Baird. Well, wait a second.
    When a paper is accepted for publication in Science, it is 
understood that any reasonable request for materials, methods, 
or data necessary to verify the conclusion of the experiment--
    My point is: You have chosen a methodology for analysis and 
data report that is subject to significant misinterpretation. 
And this is not, my friend, a subtle academic issue; this is a 
matter of important policy decisions. Because if it is the top 
graph, then in many cases the plots were not that different 
pre/post than if it were the bottom graph, and merely reporting 
the mean is specious. And I can't tell without that data which 
is the case.
    Mr. Donato. Can I address that?
    Mr. Baird. Please.
    Mr. Donato. Using the mean, given the distribution of the 
data set, would be statistically indefensible.
    Mr. Baird. Well, describe that.
    Mr. Donato. And it would misrepresent the data.
    To use the mean, the average value, you need to have 
normally distributed data. It's a bell curve. And these data 
are what's called skewed.
    Mr. Baird. I understand.
    Mr. Donato. They're right skewed. And the best measure of 
central tendency for that is the median.
    Mr. Baird. Correct. But the median is ordinal level data. 
And by looking at 71 percent you've performed a ratio level 
operation, and going back to Stevens in the '50s you can't do 
it.
    Mr. Donato. Can I also point out the statistical test that 
I used, which is the Wilcoxon signed rank test, which is used 
on before/after data for each plot, which completely takes care 
of this problem, 100 percent.
    Mr. Baird. No, it doesn't.
    Mr. Donato. Yes, it does.
    Mr. Baird. It does not. It does not deal with the 
magnitude. I'm sorry. With respect, it doesn't. It does not 
deal with the absolute magnitude of the difference. It rank 
orders the variables or the plots on which ones are different. 
It rank orders the magnitude, but it doesn't tell the absolute 
magnitude. It just doesn't.
    Mr. Donato. The median is a measure of central tendency of 
all nine plots beforehand and all nine plots after.
    Mr. Baird. No, it's not.
    Mr. Donato. Yes, it is.
    Mr. Baird. It is not.
    Mr. Donato. Yes, it is. I disagree. I have to assure--I 
would like to----
    [Applause.]
    Mr. Baird. I understand the applause.
    Mr. Walden. Congressman.
    Mr. Baird. Let me ask you this question. Anything wrong 
with the logic of that chart I put up there? Is it possible 
that the median could obscure that data? I mean I'm asking you 
folks here, is it possible. I'll ask the other scientists here. 
Could a median report obscure differences in the cells such as 
I described, and if you really wanted to insure that such 
differences--I won't ask Mr. Donato this; I'm going to ask some 
other folks--is it really possible that reporting only the 
median data could have obscured substantial misinterpretation.
    Mr. Peterson. I think with data like this where the sample 
size is small, which is a constraint of many of our studies in 
forest ecosystems, it's incumbent on the investigator to look 
at a variety of statistical approaches in order to get a fair 
representation of the distribution of the data and the variance 
in the data.
    Mr. Baird. Would it be incumbent upon the reviewers to do 
so as well?
    Mr. Peterson. Certainly incumbent on the reviewers. Of 
course that's the luck of the draw when you submit it to a 
journal.
    Mr. Baird. How much effort would it take--would you assume 
that before someone submitted a--I mean Science and Nature are 
probably the two preeminent scientific journals in the world, 
broad-based journals. Before you submitted an article to 
Science, would you not at least have wanted to look at this to 
just insure that the median, which is a pretty basic measure of 
central tendency, was not obscuring some kind of pattern that--
--
    Mr. Peterson. If I were the reviewer, I guess that would be 
one of my comments, is to ask the author to display more about 
the data and the statistical approach.
    Mr. Baird. Yet the reviewer didn't ask you that.
    Mr. Donato. Well, at one point we had--we had mean values 
presented for the woody debris data. And the reviewer actually 
made a decision that the median was a better representation.
    Mr. Baird. Now, when I--I understand that. When I asked--
when I asked you, I don't think you provided that information. 
I just frankly disagree with the viewer in this--the reviewer 
in this case.
    Mr. Donato. Fair enough.
    Mr. Baird. And will you provide this data to me, Mr. 
Donato.
    Mr. Donato. Appreciate that I represent a team of 
researchers. It's not really just up to me. And I represent an 
institution who is concerned about the ability to publish on 
these data in the future. And we are working on going through 
the appropriate paths to provide the data should that be the 
appropriate path.
    Mr. Baird. Well, when you submitted the article to Science, 
did you intend to adhere to the requirements of submission in 
Science.
    Mr. Donato. Yeah, I'm aware of those requirements. And the 
university has advised that there are conflicting directives on 
that, and they're the ones working on that, because I am not an 
expert on those matters.
    Mr. Baird. Mm-hmm. Let me go to one other issue. If a 
logging sale were let to a contractor who went up into the 
woods and violated the terms of the sale, my guess is our goods 
friends on the--anybody responsible would say, hey, you ought 
to put a stop to that. If they're violating the law, you ought 
to put a stop to that. You know, you immediately stop. Yet I'm 
of the opinion that the terms of the agreement with the BLM 
were violated in this case. And when, based on that, people 
asserted that we ought to at least take a pause, it was 
described as an academic witch hunt, it's censorship, et 
cetera. And I'm not so sure it is. I mean let me read you the 
terms of the agreement.
    It's pretty explicit. It's page ten of the Assistance 
Agreement. It says: Recipients shall not use any part of the 
government's funds for any activity or the publication or 
distribution of literature that--and I want to underscore 
this--that in any way tends to promote public support or 
opposition to any legislative proposal on which congressional 
action in not complete.
    Now, explicitly in the publication of the original draft--
one of the drafts of your document, plus in one of the drafts 
of the Science publication, you specifically referenced this 
bill.
    Mr. Donato. We specifically reference it, but certainly 
offer no endorsement or opposition to it.
    I would like to read you a passage from the National 
Science Foundation Web site.
    Mr. Baird. Mm-hmm.
    Mr. Donato. Basically, they--first I'll paraphrase, that 
it's becoming increasingly important for scientists to not 
relegate themselves to the ivory tower and make their findings 
relevant to the boarder societal context, and they consider 
grant applications to be competitive only when they address 
those broader issues. And the following examples are included 
on their Web site as potential ways to achieve this.
    Quote, ``Provide information for policy formulation by 
Federal, state, or local agencies.
    Present research and education results in formats useful to 
policymakers, Members of Congress, industry, and broad 
audiences.
    Demonstrate the linkage between discovery and societal 
benefit by providing specific examples and explanations 
regarding the potential application of research,'' end quote.
    It was in this spirit that we referenced an important 
policy issue. And while no endorsement or opposition was ever 
offered, those references don't appear in the final published 
version.
    Mr. Walden. Mr. Baird.
    Mr. Baird. I'll yield back. I'll have some more questions.
    Mr. Walden. Thank you for yielding back nothing. You're in 
a long line here of going over the clock, including me, so--
    Mr. Baird. I figured I was OK.
    Mr. Walden. We're here to get answers.
    Mr. Baird. When you follow Peter, you're always in that 
line.
    Mr. Walden. That's all right.
    I want to--part of what is troubling, I think, is this 
conflict over the publication of your data. And this is 
government money we're talking about, not independent research, 
$300,000 to look at. And later we have somebody testifying--I 
don't know if you've read Mr. Drehobl's testimony, but it's 
pretty sharp as well. And he comes after this, so I want to 
give you an opportunity to respond. Because he specifically 
cites that the agreement that you and your colleagues had in 
this research required, and I quote, the recipients must obtain 
prior government approval for any public information releases 
concerning this award, which refers to the Department of 
Interior or any employee. The specific text, layout, 
photographs, et cetera, of the proposed release must be 
submitted with the request for approval.
    And that the agreement further states, government 
requirement: Provide timely review and comments on the document 
produced by this study and work and partnership on this 
project. And he goes on to express some other concerns.
    And I just have to go back to this e-mail because Mr.--and 
maybe you can help me. Mr. Sensenig was the project 
investigator and principal----
    Mr. Donato. Project inspector.
    Mr. Walden. And principal investigator, correct.
    Mr. Donato. I'm unclear on whether he was the P.I. or not.
    Mr. Walden. He indicates he is in this memo.
    Mr. Donato. I know.
    Mr. Walden. And you knew that. It says----
    Mr. Donato. No, I have not known that for sure.
    Mr. Walden. Who then did you believe to be your project 
investigator or principal contact at the BLM?
    Mr. Donato. Well, the principal contact at the BLM was Tom 
Sensenig.
    Mr. Walden. And so in terms of compliance with the 
agreement of the $300,000 grant for you and your colleagues to 
do the research, if you were to comply fully with what has 
been--what is in that agreement, would Mr. Sensenig have been 
the person that you would have needed to get approval of to do 
any kind of publication.
    Mr. Donato. Actually, I have to say that was unclear too. I 
really want to stress that the communication breakdown between 
the agency and the university is a two-way street and that when 
Tom Sensenig moved from the BLM to the Forest Service, we 
weren't notified who the contact was.
    Mr. Walden. Did you know when you got--did you know the 
requirements for prepublication approval when you got the 
agreement--or you got the funding.
    Mr. Donato. No.
    Mr. Walden. You never knew that you needed to consult with 
anybody before you submitted for publication.
    Mr. Donato. Not to the level specified in that agreement, I 
didn't.
    Mr. Walden. So you--none of your researches knew that 
either.
    Mr. Donato. I can't speak for the rest of the researchers.
    Mr. Walden. Did--who signed the agreement for the funding, 
do you know? I mean I would think--I mean I'm just trying to 
figure this piece out.
    Mr. Baird. I think it's a university person who signs it 
for whoever administers the grant.
    Mr. Walden. All right.
    Mr. Donato. Yeah. And this all occurred before I was even 
here at OSU.
    Mr. Walden. All right. So you never knew you were supposed 
to get approval.
    Mr. Donato. That's correct.
    Mr. Walden. You just submitted to Science.
    But when you met with Mr. Sensenig, so it never crossed 
your mind that you should----
    Mr. Donato. Yeah, I really want to stress that this is just 
a lack of clarity on the level of consultation required.
    Mr. Walden. I would think--and I was never a graduate 
student. I did get a journalism degree. But I would think if I 
were meeting with somebody from the agency who I knew to be my 
contact on a $300,000 research project that I had submitted to 
Science magazine, one of the preeminent science magazines in 
the country, I'd be pretty proud and I think I'd be blowing my 
horn a little bit.
    Did you share what you submitted to Science magazine with 
anybody else before it was published?
    Mr. Donato. No.
    Mr. Walden. So no other organization out there had--had a 
copy of your report and your findings prior to when Science 
magazine either printed it online----
    Mr. Donato. I may have e-mailed it to a couple people the 
week before or a couple days before, but----
    Mr. Walden. Who, do you recall.
    Mr. Donato. I don't recall.
    Mr. Walden. I think it would be interesting to know who 
that might have been.
    Here's--here's the other piece. And I want to get back to 
the title because I think that's part of what others have used 
to say your report claims certain things. And it does talk 
about, you know, that this hinders--Post-Fire Logging Hinders 
Regeneration and Increases Fire Risk. And Mr. Sensenig--
obviously you've seen the e-mail to you from--to him where he 
writes and says he disagrees with that and he pretty forcefully 
describes that.
    And I want to kind of rebuild those and then how your 
research applies to it, because if--you know, our bill does not 
mandate any particular action in the woods. We do not mandate 
in here they go salvage logs. In fact, they have to meet a 
criteria to even be able to use the expedited processes to do 
whatever the forest plan requires, correct? You've read our 
bill, I assume.
    Mr. Donato. I'm not terribly familiar with it.
    Mr. Walden. And I'm not asking you--I'm not trapping you or 
I'm not asking you to comment whether you like it or dislike 
it, because I know you're still a researcher.
    But having said that, if--based on what you know from your 
research--I'll try and couch this so I'm not causing you any 
other problems; that's not my intent--you would have fewer 
seedlings destroyed if the activity, if it was determined to be 
salvage logging, occurred sooner rather than later as in the 
first month or two months like the State of Oregon--Mr. 
Lorensen has testified the state tries to do on a very rapid 
basis, as opposed to two years later, correct?
    Mr. Donato. Yes, that is correct. In this case that would 
have been the case.
    Mr. Walden. So faster actually, because I think we've heard 
this from Dr. Franklin and others, that if the societal choice 
or the--is to go in and take out some trees, that you're better 
to do it earlier rather than later; you'll do less damage.
    Mr. Donato. In this case that's--that's true.
    Mr. Walden. So you see why some people have said post-fire 
logging hinders, you know, reforestation and creates problems, 
have taken that title to imply that in every case that is the 
outcome. And indeed I don't think that is what you meant.
    Mr. Donato. No, I think we should be--we should be aware 
ourselves of overinterpretation of that to all fires and all 
situations.
    Mr. Walden. And it really gets--it seems to me, and again 
you all are scientists and foresters and done this a long time 
and I'm still learning all this stuff, but it seems to me that 
you have to do it on a site-by-site basis. And as I travel all 
over Oregon and eastern Oregon, literally what happens on one 
slope is different than what happens on another in terms of 
moisture, vegetation, tree type. You go in the Hood River 
Valley, my home, one side of that valley gets probably ten or 
twelve inches more rain than the other. You cross over to 
Mosier and you've got scrub oaks and limits of pine and then it 
sort of disappears into grassland very rapidly.
    And so--but there are times when you have the need to get 
in and take actions in a rapid fashion to prevent erosion or to 
do other restoration work that doesn't even involve cutting 
trees, correct?
    Mr. Donato. What is the answer--what is the question?
    Mr. Walden. There are times when acting quickly--forget 
cutting trees for a second.
    Mr. Donato. Sure.
    Mr. Walden.
    Just to stabilize soils, maybe put logs in streams to help, 
you know, stop a washout, those sorts, need to happen quicker 
rather than slower.
    Mr. Donato. I think that's correct. Some of those actions 
if they're going to be taken are better off done sooner.
    Mr. Walden. All right. And I've expired my time. Thank you 
very much. I appreciate your being here today.
    Peter.
    Mr. DeFazio. Thanks, Mr. Chairman.
    I guess since--I mean I understood this ruling to be a 
hearing sort of on a post-fire recovery relationship, salvage 
logging, but since again you've characterized your bill several 
times, and I have some concern, let me say what my--I agree 
with all the objectives that you talk about in the bill and the 
way you characterize. I don't think the language quite gets us 
there, and I've expressed this to you and your staff.
    I think it gives unbelievably broad discretion to political 
appointees. And as I said to the Douglas timber operators, you 
might like that with Mark Rey and Gale Norton, but God forbid 
what if Bill Clinton or Hillary Clinton comes back and you get 
another Katie McGinty and Bruce Babbitt. And they go, oh, my 
god, no, we can't have that.
    So, you know, I really think we need to be more 
prescriptive and we need to continue that discussion and debate 
in this bill to go--to really get to class, forest type 
treatment, retention. And those are the kind of things I think 
the next panel can address who have read the bill and have 
some--you know, have varying opinions about it.
    But to get back to this. And, you know, you're never 
supposed to ask questions you don't have an idea what the 
answer is going to be, but I'm going to do it because--and I 
hope I don't put you in a really tough spot here. But, again, I 
read the article. I--like you drive a D9 over a little tree; it 
gets crunched. You know, I got it. OK. You know, you leave a 
bunch of slash on there. You know, no big deal.
    The BLM told us, for instance, that when we were viewing 
their site that it wouldn't be impossible and they do have 
experience in salvage logging, selectively salvage logging in 
sites that they have previously reforested very early on, and 
they require it to be done in a way that minimizes the 
mortality of the seedlings in terms of the equipment that's 
used and how the activities are conducted.
    So your--your--in this case I assume there was no intent, I 
mean the loggers weren't told, hey, try and preserve the 
natural regeneration. They didn't because the idea was they 
were going to come in--not them, but another contractor was 
going to come in and do reforestation. Is that correct?
    Mr. Donato. That is correct.
    Mr. DeFazio. But you do say in your testimony, which you 
don't say in there, that in fact you could minimize some of 
those impacts with different techniques in terms of slash 
removal and/or harvest techniques.
    Mr. Donato. That's specifically why we didn't go into all 
the different possible management recommendations about logging 
early or logging differently in an 800-page--or 800-word paper.
    Mr. DeFazio. Right.
    Mr. Donato. Yeah, that would be another option, is to if 
you identify existing natural regeneration, you could do a 
logging technique that protected that.
    Mr. DeFazio. OK. That's good.
    Now--but here's the question. I probably--again, I don't 
want to--and, you know, you can take the Fifth or whatever. But 
the thing that I think people find most inflammatory about the 
article is the title, which does seem, as Mr. Baird said, to 
draw a overly broad conclusion. And I guess the question is--I 
mean I write out bids all the time and they stick titles on 
them, and I go, oh, I can't believe they put that title on my 
bid, that's not what I was trying to communicate at all.
    Did you choose the title?
    Mr. Donato. Let me explain the title.
    I make no--no excuses for it, but do appreciate that 
there's an 800--eight-word limit on a title for the Science 
Brevia section. And by the time you say effects of post-
wildfire logging on, you've got like two words left, if that. 
And so--and do also appreciate----
    Mr. DeFazio. Debatable would have been a better term.
    Mr. Donato. Yeah. Yeah. And people have asked that we put 
the word ``delayed'' in the title too. It's like no, used all 
eight words, sorry.
    And--in any case wording of titles in high tier journals 
that is strong, that states the, you know, the results that you 
found, instead of just saying the effects of X on Y, you say 
here's the results we found. And most of the time it's a study 
that says plant pathogens accumulate in snail tissue, and no 
one cares about it. And it just happens to be that in this case 
people, you know, read that it was too broad because of the 
particular topic, but that's where it is.
    Mr. DeFazio. An educational moment.
    Just back to Mr. Lorensen. I just want--I mean, you know, 
we visited the site. The BLM had proposed some selective 
salvage. They weren't--they were restrained by the courts. But 
the point is they were going to do some selective salvage. But 
next door was private land which had been, you know, much more 
robustly salvaged and reforested, and it looked like it was 
doing pretty good in terms of the regrowth. And it sounds like 
the state would conduct operations similarly on state forest 
lands.
    Mr. Lorensen. We have a range of management prescriptions--
--
    Mr. Walden. Peter, can you try to turn on that mike? And 
get a little closer perhaps. Thank you.
    Mr. Lorensen. On state-owned land we have a range of 
management objectives, and we would tailor our prescription to 
those objectives. But, again, the objectives are fairly clear, 
and then the methods we use, the expertise and science are out 
there to implement them.
    Mr. DeFazio. Right. So if the objective is to create fiber 
or grow trees for harvest, you would conduct similarly to 
private.
    Mr. Lorensen. As we would--also we'd grow structure and 
other forest conditions that are similar to the Federal 
objectives that we would also implement in a similar active way 
but through different techniques. We use the full range of 
tools, and again----
    Mr. DeFazio. Different treatments for different objectives.
    Mr. Lorensen. But with a full range of tool box. And that's 
probably the biggest difference.
    Mr. DeFazio. And is that set by law or the management plans 
are written to--I mean are these catastrophic events 
anticipated in your management plan, so with this management 
objective this is the prescription you'd apply, or do you have 
to develop it after the fact.
    Mr. Lorensen. We do not have that in our current plan. 
We've talked about incorporating that, but we do it on an ad 
hoc basis based upon the circumstances. It's preferable to get 
them done very quickly.
    Mr. DeFazio. But would that be--I mean if we had the 
resources and the time, would that be a prudent thing to do, 
because that way if you knew it was an area that was reserved 
for fiber production, didn't have sensitive species, watershed, 
tribal soils, whatever issues, that you're going to get in 
there quick, salvage and reforest. I mean would it be desirable 
to sort of anticipate those different things with a cross of 
different classes in different areas.
    Mr. Lorensen. That's correct. And we basically have a 
desired future conditions.
    Mr. DeFazio. I know you say this, or your bill does, but 
I'm not sure we quite get there in legislative language, Brian. 
And we can--again, we can have that debate later. But I just 
want to establish that that's a desirable thing to do.
    Mr. Lorensen. On all arranged desirable future conditions 
we have active management centers we implement to accomplish 
those in a timely way.
    Mr. DeFazio. OK. That's good.
    Anybody else of anything I've asked here want to, because 
this is going to be my last round, anybody want to comment on 
any question I've raised, anything the other people have said?
    Yeah, go ahead, Dr. Kolb.
    Mr. Kolb. Well, I just want to get back to a question that 
Mr. Inslee asked me.
    Mr. Baird. Well, he's gone.
    Mr. Kolb. Why are forests here. And I don't want to be 
misunderstood on this.
    Nature does not need us. Nature is just a series of 
processes that's been doing its thing for a long time. Whether 
forests are here or not, nature doesn't care. And as climates 
have fluctuated, so have our forests. We, however, need nature. 
It provides for us what we need. And this is where this gets--
this is where my comments are on. If we have a landscape 
designated to grow forests for us, if we let nature do its 
thing and nature decides no more forests, that's going to be 
really hard on us. And that is the whole point of trying to 
manage nature, to help us while maintaining the integrity of 
the processes that are out there.
    Mr. DeFazio. OK.
    Mr. Lorensen. And if I may. Again, I apologize for 
Representative Inslee also not being here. He did ask the 
question of do we advocate something or not, and I guess I want 
to be clear. I didn't say yes or no. It's not my role to 
advocate, and I'm a state employee. My job is provide 
policymakers decision information and help support their 
decisionmaking processes. So that's my answer, and I guess it's 
not a yes-or-no question, but he asked it that way.
    Mr. DeFazio. Well, I think the answer, and going back to 
what Dr. Kolb said, it depends. It depends on the objective 
and/or the classification of that particular tract of land.
    Mr. Lorensen. But I also think other beliefs that came out 
with Representative Inslee was the notion of man and forest, 
and it's fair to say that man was here prior to European input 
and there was management of forests well before we got here 
through fire and other means. It's also fair to say due to fire 
suppress we now have forests and woodlands where they weren't 
before. And so it works both ways. And we need to be cautious 
about both those roles. We can either create forests or we can 
manage and modify forests.
    Mr. DeFazio. No, I mean and that's a point. I mean we're 
not into--I mean that's why, you know, we adopted legislation 
to move forward on fuel reduction, because we realized we 
created the problem. I mean you can see photos of settlement in 
1870 and there's a house and there's some big ponderosas around 
and you look now and you can't see the house. And that's 
because of the repression of fire, and it isn't what the 
preexisting regime was with natural prairie fire and other 
things.
    Or just one other quick thing, because a lot of people like 
to focus on diameter, which is a really poor measure of what 
you should take or not take in a lot of cases, and it's a great 
example. And I just want to put it out here because I like to 
educate as we go along and I learn as we go along.
    I was visiting a guy who's done a really great job with his 
property over in eastern Oregon. And he's, you know, thinned it 
out pretty nicely, moving back toward what, you know, I would 
see in the 1870 picture with the ponderosa. Right next door is 
Federal Forest Service. It's been repressing fire. And here's 
this big old Doug fir that's now 90 years old, growing right up 
into the crown of the ponderosa on the Federal forest land, but 
it's over 20 inches in diameter.
    The screens say, well, you shouldn't take--the fir 
shouldn't be there, but also if you have an indiscriminate 
screen, you'd say, well, you can't take it out, it's over 20 
inches in diameter. Well, the question is: Do you want to save 
the big old ponderosa if there is a fire or do you want to lose 
both of them?
    And, you know, so I mean there are no easy answers to this. 
And that's ultimately why we ask scientists, you put all your 
stuff out there. I'm just not as heads-up about this whole 
publishing of the article. I mean it's like I read stuff I 
disagree with all the time. I mean it's like--you know, I mean 
if I read stuff I only agreed with, I'd be, you know, on Fox or 
something.
    So, you know, it's just--you know, I'm not offended by it, 
so I invite you all to continue to challenge this because we 
definitely don't know everything we need to know.
    Thank you.
    Mr. Walden. I look forward to the day you're on Fox, Peter.
    You know, before I go to Dr./Congressman Baird, I just want 
to say--and I look forward to working with you. We've worked on 
a lot of these issues together and we sometimes start from 
sightly different viewpoints and try to find common ground, and 
I think we did that with the Healthy Forests Restoration Act. 
And I think--and I'm hopeful we can do that here, because again 
I'm hearing some of the same things Brian and I have talked 
about, come to terms with and hopefully with language we, all 
of us, can, because I want to rely--yeah, if we can get Doug to 
write the right words.
    Because I still believe, just as you say, these decisions 
have to be made on the--sort of plot by plot or forest by 
forest or plant regime or whatever your terminology is by plant 
regime. And we've--we've learned, as I said in my opening 
statement to some snickers, actually learned from these 
hearings. We have drafted amendments to the original law that 
say we want to be prescriptive about leaving habitat trees 
behind. We want a dedicated funding source for the research. We 
have adopted some of Dr. Franklin's recommendations on how we 
phrase independent third-party peer review. I think that's 
probably not the exact right wording, but we've tried to refine 
the peer review piece and tried--in fact, one of the issues, 
and Jay's gone now, but in his and Tom's bill talks about, you 
know, trying to predetermine what to do if a fire were to go 
through a region.
    We in the, as you know, in the Healthy Forests Restoration 
Act created the community wildfire planning process as bringing 
together very disparate individuals and groups to try and say 
what do we want in our forest-surrounded communities.
    The Resource Advisory Councils have done that, brought 
together people that sometimes in some communities have been at 
war forever to say, you know, we all love these forests, how do 
we--how do we come together and say what's best for management.
    We're also modifying our bill to take advantage of that 
wildfire community planning process to say let's do look out 
and say if a fire were to go up the Applegate or over into a 
watershed, here is a community, what we think should happen in 
a post-fire recovery process. Start that planning process now 
so that we can have some guidance so that if we need to act, so 
we don't run over, you know, seedlings two years after, let's 
do what's right for the forests, for watersheds.
    Anyway, I'll stop.
    Brian.
    Mr. Baird. We're going to save for another time, you and I 
have a chat about Wilcoxon rank sum test itself and----
    Mr. Donato. I would love to.
    Mr. Baird.--the importance of the median.
    I will--I will assert that the median speaks to one of the 
many possible cells and therefore can be misleading. I think 
that's pretty clear.
    But let me ask you. Something that I think is interesting 
is emerging out of this. Rightly or wrongly, intentionally or 
unintentionally, largely based solely on the title of your 
article and then what the press made of it subsequently, this 
study is becoming as if it were the total body of literature 
about post-fire logging. And people show up at townhalls with 
how could you dare put forward this bill when science has 
proven this. And we have buttons about scientific integrity. 
Scientific integrity is a lot more complex than that.
    The question from me would be, Mr. Donato, and then I want 
to ask a separate one of everybody. Do you think it would be an 
accurate or an inaccurate use of your study, given its 
limitations and its strengths, to suggest that your study alone 
should guide this particular piece of legislation or should be 
used as evidence that we should or should not, in and of 
itself, that we should or should not engage in post-fire 
logging and reforestation?
    Mr. Donato. No, I don't think that this study is a 
wholesale threat to this bill. And I think that it provides 
some important information, but it does not provide a lot of 
other important information.
    I guess I'm going to leave it at that.
    Mr. Baird. Would you say that it concludes that all post-
fire logging would hinder regeneration of an increased fire 
risk.
    Mr. Donato. You said--you asked me if it was all post-fire 
logging?
    Mr. Baird. Mm-hmm.
    Mr. Donato. Definitely no.
    Mr. Baird. Thank you.
    Let me ask everybody. We'll go through one by one.
    Mr. Inslee, one of the problems I had with my good friend--
Jay and I differ. One of the problems I had with his 
characterization was he said that our legislation would take 
science out of the process. What we're really trying to do is 
put science into the process. Right now the process is a 
litigious process, not a scientific process. And because of 
that litigation, we are wasting millions of dollars of the 
taxpayers' monies not with hardly any environmental benefit and 
at significant economic cost.
    As you may know, our legislation proposes the establishment 
of preapproved management plans, and the gist of that is based 
actually on some concepts from our reading of the scientific 
literature that says, look, given that we know that woody 
material decays rapidly after a fire and therefore if you're 
going to do anything, you ought to do it quickly, given that we 
know that other plant material can grow quickly and thereby 
suppress forest regeneration and therefore further you ought to 
do something quickly, can we not, analogous to what my good 
friend Peter was saying, use our existing knowledge in advance 
to identify plant association groups, soil types, types of 
fire, and in context with that general information and the 
intentional use of the land, or the allocation of the land, 
come up with reasonable plans where we use the best science to 
make decisions about both economic and environmental interests 
so that we can make these more expeditiously for both the 
benefit of the environment and the economy.
    And I'm going to ask you. Do you think we have both the 
knowledge to do that, Dr. Hobbs?
    Mr. Hobbs. Yes. As a matter of fact, I think we do in 
many--in many cases. But I'd also like to add another dimension 
to that, and that is not only should we be prepared for these 
contingencies, but I think we also simultaneously need to have 
research plans in place so that when we have a catastrophic 
wildfire or some other type of natural disturbance, we are able 
to move quickly to implement the types of experimentation that 
is necessary to address these crucial questions.
    Mr. Baird. I appreciate that.
    Mr. Hobbs. So I think you need--I think you need both of 
these.
    Mr. Baird. It's actually in the legislation, and I think 
more than any other Federal statute pertaining to forest 
management that I know of, it provides for it as part of the 
process of post-fire response and also it contains a research 
element for funding.
    Mr. DeFazio. Would you yield for a second.
    Mr. Baird. I would be happy to.
    Mr. DeFazio. Again, this--you know, we write laws, and this 
is again one of the areas where I have a concern. When you look 
at catastrophic event research projects, it says the secretary 
concerned may. May does not mean that Gale Norton will develop 
these things. She may if she so wishes. And given the aversion 
of this administration to science, she probably wouldn't.
    So I'm suggesting there are ways in which we need to 
negotiate parts of this bill and say ``shall.''
    Mr. Baird. But I think----
    Mr. Walden. Can I interrupt just a second, since I actually 
have this little gavel here.
    This is about whether or not they do projects.
    Mr. DeFazio. Right. And he is suggesting we should have and 
he's saying that's exactly what we're doing. We should have 
projects ready to move forward out of the can.
    Mr. Walden. Right. Right. But what we didn't want to do is 
mandate that every single time they had to do a project.
    Mr. Baird. That's why we put ``may'' in there.
    Mr. Walden. Yeah, because if you've got fire--oh, sorry. Go 
ahead.
    Mr. DeFazio. Well, but--well, then you need to say that--if 
I could then, gentleman, yield it.
    I just think given what he's saying and what other 
scientists have said, I think ``may,'' given the prejudices of 
this administration, is going to lead to one thing, and 
``may,'' given the prejudices of the last administration, would 
have led to endless study and no action.
    So, you know, it's like we--I believe we need to be more 
specific, and I'd be happy to work with the two of you on that.
    Mr. Baird. I appreciate that. That's a good point. Thank 
you.
    Return to the question at hand. Dr. Peterson.
    Mr. Peterson. Thank you. I have a couple of comments I'd 
like to say about that.
    First of all, the Federal agencies often do write fire 
management plans in anticipation of things that may occur at 
different portions of the landscape. So many of the national 
forests have those. Many of the National Park Service 
properties have those. They are always being looked at again 
and revised and so forth. So I think to the extent that some of 
the things you've mentioned could be further incorporated, that 
would be a terrific idea.
    Regarding the body of knowledge that can be used for making 
scientific decision, there's always some uncertainty. And 
that----
    Mr. Baird. There always will be.
    Mr. Peterson. And it always will be, and that's a judgment 
call of policymakers and management as to how they want to deal 
with that uncertainty and how risky they are and so forth.
    There's a huge body of literature on the effects of logging 
individually on forest ecosystems going back to the 1960s. 
There's hundreds and hundreds of papers on them.
    There's a huge body of scientific literature on the effects 
of fire individually on different forest ecosystem components 
going back to the 1930s. There's a much smaller body of 
literature specifically on post-fire tree harvest. There was a 
literature review done in 2001 by Dr. Jim McGeever, who 
currently works with Oregon State University, and they found 21 
studies that had been done on that topic. As far as I know, 
since then there's been two more, so that's 23. Mr. Donato's is 
study number 24.
    There will be another study published later this year by 
Dr. McGeever that will provide results--at least the study was 
set up rather similar to what Mr. Donato's study is. The 
difference--and this is something that hasn't been mentioned 
yet today, I don't think--is that he is taking a long-term view 
of the effects on post-fire logging slash----
    Mr. Baird. He being the study you're referring to, not the 
Donato study.
    Mr. Peterson. Correct. This is Dr. McGeever's study. They 
used a simulation technique to project forward into time. And 
that hasn't been mentioned here today. That, you know, I think 
it's really important to get that initial result after the 
management action.
    And because of the constraints of funding, and a lot of the 
institutions we're with, we typically have short-term, small-
scale studies. That's all we can forward. That's all we have 
personnel for, whatever.
    But the thing that's going to make the biggest difference 
in terms of reducing uncertainty in the science in this issue 
is long-term research and monitoring. Track this through for at 
least a couple of decades.
    Mr. Baird. Mr. Donato, any comments.
    Mr. Donato. Can we just repeat everything that Dr. Peterson 
said for my--for my bit.
    Mr. Baird. Dr. Kolb.
    Mr. DeFazio. Is he your thesis advisor or what.
    Mr. Kolb. I agree with a lot of what Dr. Hobbs commented, 
and just as an aside, the research that I presented will be 
submitted for publication. We've been very careful because of 
the volatile nature of this type of research. We want to have 
all our T's crossed and I's dotted. And, basically, I begged 
and borrowed and conducted this research with $15,000. So when 
I read that Mr. Donato had $300,000, I turned quite green with 
envy.
    And this--the research that we need, I agree with Dr. 
Peterson on additional components.
    Another thing that has always been thrown out here is 
logging does this, logging does that. We need to recognize that 
logging is also very varied and there are many, many different 
types of logging. So it's unfair to categorize logging per se.
    And this--all of this whole process of what we need to know 
and can we do things preemptively and prescriptively relates 
back to my lone dissension, I guess, about the question about 
NEPA. And you must understand half of my job is as a scientist; 
the other half is providing that information to practitioners. 
And basically I give them options and consequences; they make 
the decisions.
    And what I see with my Federal colleagues is that the 
questions that NEPA poses are very relevant and needed. The 
process that it takes doesn't work because it takes so long. 
And I would say imagine you come down with an illness and you 
go to your doctor and your doctor says, well, let's do this 
analysis, and a month later you say, well, we ran out of 
funding, we'll have to wait till next year, and finally three 
years later your family gets the news of what to do. In the 
meantime you're dead.
    This is kind of the feeling of NEPA, is that it doesn't 
have the ability to react very quickly. And that was the basis 
of my response to Dr. Inslee on that.
    Mr. Baird. I would just add, I don't see any evidence 
necessarily that delay is always beneficial to the environment.
    Dr. Lorensen.
    Mr. Lorensen. Well, I appreciate being elevated that way.
    Mr. Walden. Yes, I was going to say it's actually 
Congressman Inslee, Dr. Baird. We'll call you Mr. Lorensen.
    Mr. Lorensen. Thank you.
    Mr. Baird. I'm not sure it's an elevation.
    Mr. Lorensen. We often, for those of----
    Mr. Baird. Either Congress or doctor.
    Mr. Lorensen. I would have to agree with maybe both. But 
certainly for those of us in the lower ranks, Ph.D. has some 
other meaning than Ph.D.
    Mr. Baird. Hey there. Give back the balance of my time.
    Mr. Lorensen. I do agree with my boss on my far left there, 
that I think a research plan does need to be available and 
created ahead of time. There's clearly legitimate debate about 
how studies should be conducted, and you don't want to have 
that debate after the event. But we do also argue that it needs 
to be done in the context, given limited resources, of active 
adaptive management, which is going to do something different 
than strict research may do.
    And, again, back to the systematic evidence review concept, 
one advantage of doing that, it does allow us to gather the 
available science and really make a decision about how do we 
move forward from where the current status quo and the current 
research is and also allows us to say we made an incremental 
change in terms of the knowledge, and it may be time to do 
another SCR. And so it's a different process, but I think it's 
worth looking at. And I encourage your exploration of that.
    Mr. Baird. Thank you.
    Mr. Walden. Dr./Congressman Baird, thank you. And I want to 
thank our panel of witnesses. You all have been most helpful 
and insightful. And, Mr. Donato, I don't want you to go away 
from here thinking this is like the worst experience of your 
life, even though it might have been. I really appreciate your 
willingness to come here voluntarily, your willingness to 
answer very--yeah, we didn't have to subpoena you--and your 
willingness to answer some very difficult questions and follow-
up with Mr.--with Congressman Baird.
    And part of the reason I thought it made sense, and I think 
I could speak probably for Congressman Udall, although I'll 
not, to have this hearing was so that you could address some of 
these issues. I mean we get these things that say calls needed 
now, oppose Walden logging bill, new science study shows bill 
is flawed. And then we have the one on, you know, how where it 
says scandal over academic freedom and suppression and, you 
know, we're eliminating funding. And here we've all said no, 
that's not what this is about.
    And so it really helps us to have you talk about what your 
study shows, how you conduct your research, what 
misunderstandings, if there were some, are there and clear up 
the record.
    And so good luck in your future studies. You have 
accomplished something that I dare say the other 237,000 
studiers haven't done: You've achieved great prominence and 
press coverage for a study that is a page long, I think, or 
two, so--
    Thank you all. We will--thank you for being here.
    We will call up our next panel of witnesses. I'll read you 
a little about each one as they make their way up here.
    Rich Drehobl, retired BLM Field Manager from Medford, 
Oregon. He has 33 years of experience as a land manager with 
the Bureau of Land Management, including the past 18 years as a 
field manager for the Ashland Resource Area. During his 33 
years as a practitioner of applied science with the BLM, he has 
gained on-the-ground experience with all the facets of wildland 
fires, including suppression, hazardous fuels reduction, post-
fire stabilization and rehabilitation, and salvage logging. He 
graduated from the University of Arizona in 1972 with majors in 
Forestry, Range Ecology and Natural Resource Planning.
    Dr. Hal Salwasser, Dean of the College of Forestry, Oregon 
State University. Prior to joining OSU's faculty in July of 
2000, Dr. Salwasser was Director of the U.S. Forest Service 
Pacific Southwest Research Station in California, regional 
forester for the northern region of the Forest Service in 
Montana, Boone and Crockett Professor of Wildlife Conservation 
at the University of Montana, Director of the New Perspectives/
Ecosystem Management for the U.S. Forest Service in Washington, 
D.C. He holds a Ph.D. in wildland resource science from the 
University of California, Berkeley. In addition to serving as 
Dean of the College of Forestry at Oregon State University, Dr. 
Salwasser of Oregon's Forest Research Laboratory at the 
University and Fellow of Society of American Foresters.
    Dr. Jerry Franklin, who has been--both these gentlemen have 
been before our committee before and we welcome you back. Dr. 
Franklin is a Professor of the College of Forest Resources at 
the University of Washington. Dr. Franklin, who must have 
started at age seven, has 52 years of experience in forestry, 
including fire fighting, practicing silviculture and managing 
forest properties. The majority of his career has been in 
conducting research in silviculture, forest ecology, forest 
ecosystem science and disturbance ecology. He's published on 
these topics and also teaches them primarily at the University 
of Washington and Oregon State University. His experience is 
primarily in the Pacific Northwest, but Dr. Franklin has also 
spent time in other forest regions in the United States, 
including the Sierras, Alaska and the eastern United States.
    Dr. Dave Perry, Professor Emeritus of OSU. Much of Dr. 
Perry's research since the mid-1970s has focused on factors 
influencing the recovery of beneficial soil organisms following 
clear cutting, with particular reference to biological legacies 
such as big dead wood and sprouting shrubs/trees. In Montana 
and southwest Oregon his studies included degraded clearcuts 
such as those in which reforestation attempts had failed. In 
all cases research included comparisons with stands that have 
been established by fire at some point in the past. Dr. Perry 
also spent time on the ground with the U.S. Forest Service 
personnel observing burn patterns following the 1987 fires in 
southwest Oregon.
    And, finally, Dr. Thomas Atzet, Atzet Ecological Consulting 
of Merlin, Oregon. Dr. Atzet worked as Area Ecologist for the 
Rogue River, Siskiyou and Umpqua National Forests from 1974 to 
2004. A major objective of his work was to define successional 
pathways and their modifications by disturbances, such as fire, 
by plant association. He helped define natural fire regimes for 
southwest Oregon and has participated in developing post-fire 
Environmental Impact Statements for the Silver fire of 1987 and 
the Biscuit Fire of 2002. He has a B.S. in Forest--I'll 
rephrase that. He has a Bachelor of Science degree in Forest 
Science from--I have a B.S. in journalism, which is kind of a 
double--from Humboldt State University and a M.S. in 
Physiological Ecology and a Ph.D. in Forest Ecology from Oregon 
State University.
    Gentlemen, we really appreciate your all being here and 
your help with our hearing today.
    If you would please stand, I'll administer the oath and 
then we can begin. If you'll raise your right hand.
    [Witnesses sworn.]
    Mr. Walden. Let the record show they all agreed to the 
affirmative. Please be seated.
    Dr. Atzet, for your statement please we certainly welcome. 
Thank you for being here, sir. And you're up first.
    Do we need to change out a little bit. You don't want to 
give Mr. Drehobl's. We're doing Dr. Atzet. That's what I'm 
told.
    Mr. Atzet. I could do yours.
    Mr. Drehobl. I appreciate that.
    Mr. Walden. And as this is setting up, I hope our friends 
who are here today to observe this, first of all, I want to 
thank you for the way you all have conducted yourselves in a 
topic that has at times produced some smoke and fire and heat, 
shouting. Thank you for the way you've conducted yourselves.
    And, second, I hope you can appreciate the caliber of 
witnesses that we have this wonderful opportunity to hear from. 
Tremendous background. It really helps in the process, and 
we're thankful for them being here.
    Mr. Atzet. Good afternoon.
    Mr. Walden. Is that microphone on.
    Again, for those of you, if your mike--if your light in 
front of your microphone is out, that means it is on. And so if 
it's lit, it is off.
    Mr. Atzet. Is this working?
    Mr. Walden. That is. Thank you.

                  STATEMENT OF THOMAS ATZET, 
                  ATZET ECOLOGICAL CONSULTING

    Mr. Atzet. Good afternoon. My name is Tom Atzet, and I'm 
delighted to say that I no longer have any affiliation 
whatsoever other than my family. And I appreciate everyone 
being here because I believe everyone wants to seek excellence 
in science.
    Back at the turn of the century when Representative Bob 
Smith asked for a historic accounting of old growth, I likened 
the Klamath Mountains to a library where the species were the 
books and the processes created the shelves or the niches. We 
have many books representing millions of years of nature's 
wisdom in this area, and my objective today is to provide the 
background about the creation of this unique library.
    And that's just showing you that I've put in a few plots in 
my lifetime, 8,000 and a hundred--1,500 permanent plots.
    Now, I've spent my career pretty much as a public servant, 
bringing sound and unbiased science to our decisionmakers.
    Mr. Walden. You know, you really are going to have to be 
close to the mike. Maybe we could hand him that hand-held mike. 
That would be----
    Mr. Atzet. That would help.
    Yeah, I really need to see what's going on up there.
    I spent my career as a public servant, bringing sound 
science and unbiased science to the decisionmaker. Fraud 
science leads to poor policy and poor decision. It's just a 
matter of garbage in, garbage out.
    I strongly feel my role has been and is to provide only the 
science and steer clear of policy and decisionmaking. Science 
is and was, still is the life blood of what I do.
    First a bit about a current diversity. Geological diversity 
brought about by plate movement, volcanism and erosion is the 
foundation for our ecosystems here in the Siskiyous.
    Go ahead.
    Vegetationally, I've described 15 plant zones. Go ahead. 
Thirty plant associations and a hundred--whoops, go back. 
Thirty plant associations--30 plant groups and 130 plant 
associations. Plant associations are the basic unit for 
predicting successional pathways and reaction to disturbances 
such as fire.
    Go ahead.
    To fully appreciate how our library was created, here's a 
bit of background on the Klamaths. The Klamath Mountains first 
appeared near Mexico City as an island arch and gradually 
rotated their way into the present position. So it's not like 
what stays in Las Vegas remains there.
    And so at this current position you could see that the 
Pacific Coast high pressure cell is what gives us our fire 
weather and it dominates a lot of the summer climate. And we 
were far enough south to not be ravaged by the Ice Ages and 
have our library eliminated. So we came through the Ice Ages 
with our library intact. But this ecosystem developed over 
300,000 years ago--300 million. I'm sorry.
    When I helped create the late successional reserves for the 
Northwest Forest Plan, I considered the Cascades as a barrier 
between the eastern and western Oregon ecosystems. But the 
Columbia Gorge--go back. One more. OK. Go on.
    OK. The Columbia Gorge and the Klamath River breach that 
barrier, and that's the only place in the Cascades that the 
barrier is breached.
    The processes that I was considering here were migratorial 
and dispersal processes. And the Klamath River allowed the 
breach of that barrier in order to have east/west mixing of the 
species that we have in southwestern Oregon. So each area is 
now considered just a bastion of diversity.
    So--go on. Now, imagine the Northwest as a gigantic H and 
the Klamath as a cross bar and the Cascades and the coast 
ranges as legs. So for over 60 million years the species have 
been going in four directions, up and down these legs, and the 
Klamath is like Grand Central Station. It processes what comes 
there and acts as a source and a sink for our genetic library. 
So it's a very special place in the--in the Pacific Northwest.
    Go on. Go on. That was my subliminal slide.
    OK. Local gradients also add to the diversity. We have 
marine climates from the coast grading into the continental, 
and we have high elevation grading into low elevation that 
complicate the matter. Just another way of adding diversity.
    And let me leave you with two thoughts. One is that 
evolution keeps what works and discards failure. OK. And the 
processes--go on--that are necessary for evolution are 
basically three: Superfecundity, stress-related mortality, and 
the ability to transfer that knowledge from one generation to 
the next through DNA. All of these organisms and processes 
contribute to the library and our diversity and therefore the 
resilience.
    Second and last is the concept of saving the tails. Suppose 
you used the strategy for hiring people where you continually 
pick from the center of a normal distribution. What would that 
do? It would guarantee you basically a uniformity and a 
mediocrity of your work force. So you really need to save the 
tails of the fire regime. High-severity and low-severity fire 
are essential to maintain the diversity in our fire regimes. 
We've tried to cutoff those tails over the years and dismiss 
them as catastrophic. I got to tell you, I hate the word 
catastrophic. Accepting the tails as part of the natural 
process will insure us the diversity we need to maintain the 
resilience and health of an ecosystem, in other words, a fully 
stocked library.
    Thank you.
    [The prepared statement of Mr. Atzet follows:]

           Statement of Thomas Atzet, Ecological Consultant, 
                            Medford, Oregon

    Good afternoon. I am Tom Atzet and I am delighted to admit that I 
no longer have any particular affiliation other than family. I was 
however, the area ecologist for the Rogue River, Siskiyou and Umpqua 
National Forests for almost thirty years. Both my advance degrees were 
completed here in the Klamath Mountains. You all have access to my 
specific background, so I will go on.
    It is an honor to be here among colleagues that have dedicated 
their careers to studying and understanding ecosystem and the processes 
that maintain them. I have great respect for all of you. I also 
appreciate the time and effort my government has taken to help assure 
and maintain excellence in science.
    I spent 36 years as a public servant, bringing sound, and 
unblemished science to the decision makers. They expected nothing less 
to care for our public ecosystems. Science was, and is, the ``life-
blood'' of what I do.
    Today my objective is to review some of the major processes for 
promoting our renowned ecological richness (biodiversity) of the 
Klamath Province. I believe this background helps provide context for 
planning and applying research in southwestern Oregon. It is similar to 
taking a psychological profile before attempting to treat a patient.
    Diversity of process creates structural and compositional 
diversity, the essential element of resilience and sustainability. 
Although average climatic conditions are often used to describe 
ecosystems, such as average annual temperature or average annual 
precipitation, it is the extremes that more often determine survival, 
growth and reproductive success. I will highlight process and emphasize 
why it is necessary to ``save the tails'', to maintain diversity.
    We tend to vilify extremes (for example, extensive fires) as 
``catastrophic'' and on the other hand, accept those of less acreage as 
part of the ``norm'' in the normal distribution. That strategy cuts off 
the tails, the extremes. If we used that strategy in hiring, we would 
be assuring ourselves of uniformity and mediocrity. The stresses of 
acute change continually hone organismic process of reproduction, 
survival and growth. This overarching process, called evolution, 
discards failure, keeps what works, and passes the learning on to the 
succeeding generations.
    To provide a detailed profile of the history of the Klamath would 
take a major treatise. Instead, I have provided an outline of the major 
factors involved and some detail for selected factors.

Outline of major factors affecting diversity in the Klamath Geologic 
        Province
1.  Geology and associated compositional and structural diversity
     a.  Triassic (300,000,000 years old) through recent alluvium.
          i.  Volcanic island arch intrusion and erosion produced 
        shallow sea sediments and resistant volcanic peaks.
     b.  Plates hosting ancient ecosystems slowly rotated northwest 
from 20 degrees south latitudes ( Mexico City)
     c.  Volcanics and sediments metamorphosed (folded, faulted and re-
crystallized) pressured by the Gorda Plate part of the Pacific Plate
     d.  Nevadian Orogeny inserted granitic and dioritic peaks
     e.  Sea floor (Josephine Ophiolite) scraped off onto the 
continental terrain
     f.  Continued metamorphosis and erosion through the Ice Ages
2.  ``Library'' of genetic material for evolving and migrating flora & 
fauna
     a.  Old conifer species and continued recombination (Triassic)
          i.  A sink for tropical and arctic sources during plant 
        migrations
              1.  Climate change the driver
                 a.  Recombination of the Tertiary floras
                 b.  Invasion of chaparral flora during the Xerothermic 
            Period
                 c.  Influence of the ``Little Ice Age'' on species 
            regeneration and migration processes.
          ii.  Klamaths were a genetic source for emerging surrounding 
        terrain
              1.  Building Cascade ranges received species from the 
            Klamaths
              2.  Emerging California & Oregon Coast ranges were 
            populated by the Klamath species migrations
     a.  Angiosperms evolved 60 million years ago (Cretaceous)
          i.  Added new reproductive processes
3.  Present Global position affects diversity of climate and rates of 
change
     a.  Continental ice spared southwestern Oregon plant communities.
     b.  Scattered alpine cirques and glaciers provided northeast 
facing coves
     c.  Within the transition zone between Temperate and Mediterranean
     d.  Pacific Coast High Pressure area promotes dry summer fire 
weather
3.  Pacific marine influx grades into inland continental climates
4.  Transverse orientation (rather than north-south) of the Klamaths
     a.  Blocks cyclonic storms stabilizing adjacent systems to the 
north and south
     b.  Links Coast Ranges and Sierras forming an ``H'' pattern
           i.  Allows for continued migration and genetic mixing
           ii.  Maintains the sink-source character of the Klamath 
        Province
5.  Elevation grades from sea level to above timberline
     a.  Provides temperature and precipitation gradients and niche 
breadth
6.  A variety of disturbance agents and regimes increase diversity
     a.  Fire, the primary agent, provides an acute rate of change
     b.  Insects and diseases, usually secondary provide chronic stress 
and change

The ``H'' configuration
    From a satellite view only the major rivers, valleys and mountain 
ranges stand out. The Cascade-Sierra chain and the California-Oregon 
Coast ranges appear as north-south parallel tracks, with the Cascades 
appearing as occasional white-capped volcanic peaks. The Klamath 
Geologic Province stands out as a crosstie joining the tracks, like the 
crosstie of a gigantic capital ``H.' The Klamath and Columbia Rivers 
completely breach the Cascade barrier. They appear as deep, winding 
gorges allowing water, air, spores, seeds, fish and other animals 
lowland passage through the Cascade mountain barrier. The Klamath River 
effectively joins east with west, sagebrush, juniper and aspen with 
Sitka spruce, madrone, Douglas-fir and shore pine.
    In the Klamath Province, the backbone or ``crosstie'' of the 
Siskiyou Range provides a high elevation east-west corridor and a sink 
for genetic material uninterrupted by the glacial advances. The 
Siskiyous have been an ``intersection'' for migration and dispersal of 
fauna and flora for at least the last 60 million years. Genetic 
material from the Oregon and California Coast Ranges, the Sierras and 
Cascades, the Klamath River corridor and southern lowland chaparral 
species, migrate in, recombine and disperse. Wittaker and Axelrod both 
alluded to the Klamath's ``central significance'' on the west coast.

Transitional Latitude
    Southwest Oregon, transitional from Temperate to Mediterranean 
ecosystems, is habitat for 29 conifers including endemics such as 
Brewer spruce, Baker's cypress and Port-Orford-cedar. It is the 
latitudinal extreme for coast redwood, silver fir and Alaska yellow 
cedar. It has approximately ten fold more sensitive species than 
typical Temperate forests to the north.

Geologic Diversity
    Geology ranges from the ultramafic ophiolites of the Josephine 
Peridotite Mass to the scattered granite plutons of the Nevadan Orogeny 
that poked through existing metamorphosed volcanics and metamorphosed 
sediments of Triassic and Jurassic age, including the limestone at 
Oregon Caves. Continual deformation of the terrain, by forces 
associated with the Pacific Plate, has resulted in steep, complex 
geomorphology and chaotic drainage patterns.
    Elevation ranges from sea level to just over 7,000 feet at Mt. 
Ashland, the highest peak in the Siskiyou Range. Pacific fog often 
reaches inland valleys even during the early summer, supporting Port-
Orford-cedar, particularly in protected drainages, such as Grayback 
creek.

Recent Climate Change
    Recently the Xerothermic (8000 to 4000 years before present) and 
the Little Ice Age (1400 to 1850) have modified local vegetation. On 
south slopes, new migrants from southern California (ceanothus and 
manzanita species for example) were frequently burned. To this day 
south slopes have shallow soils and xeric vegetation. Looking north 
from any Siskiyou lookout provides a view of sparse vegetation and 
occasionally grassy balds. The north aspects on the other hand support 
older and denser forests.
    Since the average forest on Federal land in southwest Oregon is 
less than 300 years old, most stands were generated during the Little 
Ice Age, when selective and competitive stresses were likely different. 
Survival may have favored species that tolerated higher frequency, 
intensity and duration of frost. Today as processes, particularly fire, 
create mortality and opportunities for regeneration, a new generation 
of genetic material will be selected under different selection 
criteria. Fire adapted, fire resistant, or species that avoid fire may 
be increasingly favored. Suppressing selection, by dampening mortality, 
regeneration and disturbance extremes may result in lowering resilience 
and diversity in the long run.

[GRAPHIC] [TIFF OMITTED] T6461.001


    Lightning has always been a dependable ignition source. Humans have 
become increasingly active. Native Americans, for example effectively 
used fire to manage ecosystems for game, crops and water. Natives were 
much more than an incidental ignition source. Forests were repeatedly 
and consistently burned and thinned creating vegetation mosaics and 
plant communities. Natives also stimulated root and berry crops, 
planted crops, burned to maintain habitat for game, and cultured 
materials for tools, ceremonies and lodging. Shrub cover was low, and 
herb and grass vegetation was constantly recycled. Ranchers and miners 
burned to replace forest cover, control forest pests, and for fun on a 
Saturday night.
    Today records indicate, in southwest Oregon, about 60 percent of 
the 200 to 300 yearly fires are human caused. On the Siskiyou national 
forest (included in the Oregon Department of Forestry Database) the 
proportions are about the same (60 percent human caused), but the 
average number per year is about fifty. The Oregon Department of 
Forestry suppresses 70 percent of their fires before they reach a tenth 
of an acre. Eighty-eight percent are less than one acre. Since 1920, 
approximately 15,000 fires have been suppressed.
The Future
    Decades ago Leopold, Weaver, Biswell, Kilgore Arno, Agee, Mutch, 
Martin, Atzet, Skinner, Pyne, all predicted the consequences of fire 
suppression:
    <bullet>  an increase in total forest biomass
    <bullet>  an increase in the percentage of high severity fire
    <bullet>  an increase in the number of total acres burned/time
    <bullet>  an increase in insect activity
    <bullet>  an increase in the occurrences of diseases
    <bullet>  an increase in extent and abundance of exotic species
    <bullet>  a decrease in vigor of older stands
    <bullet>  lowering of crown ratios, increasing inter-tree 
competition
    <bullet>  increasing risk to late seral landscapes and early seral 
pines
    <bullet>  increase in hardwood carbohydrate reserves (hardwoods on 
steroids)
    <bullet>  decreasing conifer abundance and extent
    <bullet>  change in competitive relationships
    Our attempt to suppress process (fire in this case) and force 
stability on ecosystems has resulted in unwanted consequences. Change 
creates stress, but stress creates diversity. Dampening the extremes, 
cutting off the ``tails'', in the short run, may eliminate what we 
consider ``catastrophic'' events, but in the long run may magnify 
unwanted consequences.
                                 ______
                                 
    Mr. Walden. Thank you, Doctor. We appreciate your comments. 
I just have one really brief question. When you were talking 
about the Klamath River and the Columbia, was that the Missoula 
flood? Is that what you were saying, when it breached.
    Mr. Atzet. Well, the Missoula flood did breach the area, 
but the--both those rivers allow migratory processes back and 
forth between the east side and the west side.
    Mr. Walden. The corridors.
    Mr. Atzet. And that's why we have Aspen in the western part 
of the Klamath geological provence.
    Mr. Walden. OK. Thank you. We'll now turn to the Dean of 
the College of Forestry from Oregon State University, Dr. Hal 
Salwasser.
    Doctor, thank you for being with us once again. We look 
forward to your comments, sir.

 STATEMENT OF HAL SALWASSER, DEAN, COLLEGE OF FORESTRY, OREGON 
                        STATE UNIVERSITY

    Mr. Salwasser. Thank you, Chairman Walden, Members of the 
Committee.
    I'm Hal Salwasser, the Dean of the College of Forestry at 
Oregon State University. I have submitted written testimony 
with two co-authors, and I want to tell you why I've done that.
    I had a conversation, oh, a month or so ago with a member 
of Representative DeFazio's staff, and the conversation got 
around to the need for some more specific detail on the kind of 
research that would be done after fires in the bill. And I told 
Dave Drayer, the staff fellow, that I'd get ahold of Jerry 
Franklin and toss some ideas around. And we started an e-mail 
conversation about what maybe we'd like to see considered, not 
necessarily tell you what you all have to put in the bill, but 
some things you might like to see considered.
    And my colleague, Professor Norm Johnson, entered into the 
conversation, and we were cranking along on this thing until 
about the 6th of January and we got distracted. We got 
distracted by some other things, and it kind of rested for a 
while. And then I got a call from Doug Crandall here saying 
we're thinking about holding an oversight hearing. And Norm 
said, you know, we really need to dust off that e-mail traffic 
and see if we can find some common ground on the kinds of 
things that research needs to focus on post-fires.
    And so we did that. And we found it to be a very productive 
conversation. And our written testimony reflects the 
conversation that we had over the past several months.
    We also did something else. We've had some less than 
pleasant experiences at the university lately with people 
reading things that we wrote and drawing inferences from it 
that we didn't think we were trying to say. And so we thought 
we'd send our draft testimony out for extensive review, and we 
sent it to a very wide network of people, everybody in the 
college actually and a fair sampling of people outside the 
college. And we processed something like 25, maybe 30 comments 
back and folded those into our final version of our testimony. 
So we presented peer review testimony for you here today, 
Chairman.
    There's just a few things that I'd like to highlight from 
the testimony. And given Dan Donato's very correct statement 
about the paucity of peer-reviewed scientific studies on post-
fire logging, we feel it's very important that any legislation 
that's going to provide policy direction regarding post-
disturbance management activities, that it would call for and 
fund both short and long-term research as well as long-term 
monitoring of the ecosystem responses and effects of any 
management activities.
    We also think that post-fire experimental studies should 
take a look at the consequences of different kinds of 
management activities on ecological protected social and 
economic objectives if those are appropriate. These studies 
should be conducted at scales that are sufficient to assess and 
contrast how the plants respond, soil fungi, inspects, small 
mammals, song birds, aquatic ecosystem responses, and 
especially important that's popped up lately is we need a 
better handle on how to identified in a feasible manner trees 
that are allowed to die so that we can know which trees are 
likely to survive and which trees are likely not to.
    We also think that reasonable combinations of post-event 
strategies should be included in the research, taking care to 
insure that assessments of the effects of logging and the 
effects of reforestation are handled independently and not 
confounded.
    It's very appropriate that a stable and permanent source of 
funding be created to support post-event research, outreach and 
monitoring. One of the concerns that the scientific community 
has had about proposed post-fire studies is that the funding 
runs out and they stop doing the studies. The Silver Fire is a 
classic example where they ran out of money to do monitoring in 
the mid-1990s, and it would have been wonderful to have had 
that data for a longer time.
    And then finally I can't be up here without encouraging you 
to call for agency and university collaborations, teams of 
scientists, managers working together to integrate the research 
and the outreach with the post-fire management strategies.
    And I'll just give you one last suggestion, that a really 
good topic for these teams of managers and scientists to start 
working on right now is what would a preapproved management 
strategy look like, how would it be done, how much detail, and 
what kind of public input process, how would public input be 
handled in developing a preapproved management strategy.
    I'll conclude my testimony with those comments.
    [The prepared statement of Mr. Salwasser follows:]

 Statement of Hal Salwasser, Dean, College of Forestry, and Director, 
 Oregon Forest Research Laboratory, Oregon State University; Jerry F. 
    Franklin, Professor, College of Forest Resources, University of 
  Washington; and K. Norman Johnson, Professor, College of Forestry, 
                        Oregon State University

    Recent scientific reports on the potential and actual effects of 
various management actions following large fires have generated 
enormous interest in the scientific community, the media, and the 
public on such topics as post-fire logging, fuel treatments, and 
reforestation. While the reports to date are informative and useful, 
they also reveal how little peer-reviewed science has been focused on 
forest recovery after fires with various management interventions. 
Extensive recent scientific studies have been made on the natural 
responses of forests to major disturbance events, results of which have 
not yet been fully assimilated by resource managers and agencies. 
Systematic scientific studies of the impacts of various management 
interventions following disturbances are not as rich, although forest 
managers have decades of practical knowledge on effects of post-fire 
management actions on production forests. We need to use that knowledge 
and build on the body of relevant ecological and management science to 
improve our capabilities for more reliable forecasting of treatment 
approaches and effects.
    We believe that any legislation that provides policy direction 
regarding post-disturbance management activities should contain 
provisions to mandate and fund short- and long-term research, as well 
as long-term monitoring of ecological, fire, and other management 
responses to forest recovery projects--essential elements of any 
credible adaptive management strategy.
    Before proceeding, we want to reiterate from previous testimony on 
H.R. 4200 by Salwasser and Franklin that management objectives for the 
area in question are the primary consideration in any decision 
regarding post-fire logging, reforestation, or any other activities. 
Much of the ongoing controversy over post-fire logging and active 
reforestation results from inadequate attention to management 
objectives. The relevant scientific and technical knowledge to inform 
post-disturbance management decisions depends upon clarity regarding 
management goals for the forest property in question. Hence, 
``recovery'' and related activities must be defined in terms of the 
management goals for a post-event landscape. Those goals, together with 
information on the forest type (or plant association group), post-event 
conditions in disturbed areas, and future climate trends will largely 
determine what actions, if any, are appropriate. If management plan 
direction is not clear for appropriate actions following large 
disturbance events, plan revisions should provide such clarity. Major 
disturbances should not be the basis for de facto changes in land 
allocations or management objectives.
    With a clear view of the management objectives, science can play a 
vital role in helping managers sort out the type and appropriate levels 
of activities to achieve those objectives. Retrospective and 
experimental research on post-event landscapes can also help managers, 
policy makers, and the public better understand when and how actions 
can help move that landscape toward these goals. Toward that end, we 
make the following suggestions:
    1. Management plans should make clear the primary goals for 
different areas and provide general guidance for appropriate post-event 
interventions in those areas, giving due consideration to plant 
association groups and disturbance event effects on soils, plants, 
animals, and aquatic ecosystems.
    2. Scientifically credible experiments should be undertaken to 
provide quantitative information on the consequences of different post-
fire management activities on ecological, protective, social, and 
economic objectives. Experimental studies should be replicated and 
include random assignment of treatments and controls. Treatments should 
be conducted at scales sufficient to assess and contrast plant (tree, 
shrub, and herb), fungal, insect, small mammal, songbird, and aquatic 
ecosystem responses. In addition, focused research is needed on 
survival of event-damaged trees to provide credible and practical 
indicators for predicting whether damaged trees will live or die.
    3. Reasonable combinations of post-event strategies should be 
included, with care to insure that assessments of the effects of 
logging and of reforestation are independent and not confounded. 
Strategies could include: management to assist post-event forest 
recovery without post-event logging; forest recovery actions with 
varying levels of post-event logging and biomass treatments to reduce 
impacts of subsequent disturbances; and randomly assigned control areas 
that are untreated, i.e., no logging or actions to reduce biomass or 
influence forest recovery. This research should have strategic 
representation of major plant association groups and fires associated 
with different historic fire regimes, i.e., low, mixed, and high 
severity and extent.
    4. An additional scientific need is synthesis of existing knowledge 
and additional research on the ecological roles and functions of large 
disturbed areas in regional landscapes, including their role in 
maintenance of regional biodiversity, and short- and long-term natural 
forest ecosystem responses following major disturbance events.
    5. Because forests are highly dynamic ecosystems, post-event 
management must be adaptive, i.e., responding to feedbacks from 
monitoring and research. Thus, post-event research and monitoring 
should be directly integrated into post-event management strategies.
    6. Management agencies need to be encouraged and funded to collect 
and maintain better management records.--On large fires, such as the 
Biscuit, record keeping tends to be quite uneven--much of it is not 
useful because of its variable quality and the lack of a central 
depository available to researchers.----Good, spatially explicit 
records of pre- and post-fire management would strengthen retrospective 
research and supplement experimental studies, which because of budget 
and management realities will be limited.
    7. A permanent and stable funding source should be created to 
support post-event research, outreach and monitoring. Long-term 
research and monitoring may require data collection for several decades 
after the event to fully understand forest responses to management 
actions, thus the need for dedicated, stable funding. With dedicated 
funding plans for long-term research and monitoring become credible.
    8. Linked with establishment of a funding source, authority should 
be provided to develop and conduct the research and outreach program 
outlined here, including rapid implementation of post-event 
experiments, in conformity with management plan direction.
    9. University and agency collaborations should be strongly 
encouraged in post-fire research, outreach education and monitoring as 
such collaborative programs have been highly successful. Consideration 
should be given to establishment of interdisciplinary centers of 
excellence, based on teams of university and federal agency scientists 
working closely with forest resource managers.
    10. As a final point, development and administration of the 
research and outreach education program outlined here needs to be 
transparent to stakeholders and incorporate regular review from a 
broadly representative scientific community, perhaps facilitated by the 
National Academy of Sciences or some other organization with impeccable 
scientific credentials.
    We believe that the approach to post-event research and outreach 
described above will produce the science needed to better inform policy 
makers and the public about the rationale for, and effects of, post-
disturbance-event actions and their relation to previously adopted 
management objectives.
                                 ______
                                 
    [An additional statement submitted for the record by Hal 
Salwasser follows:]

                              2 March 2006

    To assist with responses to questions raised during the Medford 
hearing, we have provided additional information on our consultation 
process throughout the research project.
    We have communicated primarily with the Joint Fire Sciences Program 
concerning our progress through this research. We believed this was 
consistent with the lines of communication for other Joint Fire 
Sciences Program projects. However, we have also communicated with Tom 
Sensenig, Project Inspector. We have attached a chronology of our 
contacts and consultation with him. We were never led to believe that 
these contacts were insufficient or that we should be communicating 
with anyone else within BLM.
    Aside from interactions with Tom Sensenig, we only received 
requests for information from BLM once. That was a phone call from 
Terry Johnson in late November, 2004, asking Douglas Robinson if the 
project was on schedule with its budget expenditures for that year. She 
said we could confirm with a phone call or email that we were on 
schedule. Robinson sent an email confirming that we were right on 
schedule. Thus, we had no reason to believe we needed to communicate 
with anyone else at BLM. We felt our communication with the Joint Fire 
Sciences Program and with the Project Inspector, Tom Sensenig met our 
responsibilities for consultation. Although Tom Sensenig, the Project 
Inspector, left BLM for the Forest Service in fall, 2004, we were not 
notified of a new Inspector. Therefore, we continued to communicate 
with Tom Sensenig as Project Inspector. Had we known, we would have 
been happy to share our communications and updates of our progress more 
broadly within BLM. No clearly defined procedures for consultation were 
provided to us.
    All the investigators were invited to the national meeting of the 
Joint Fire Sciences Program held in San Diego, California, in early 
November 2005. Tom Sensenig chose not to attend that meeting. Dan 
Donato, Joe Fontaine, and Boone Kauffman attended the meeting. Donato 
presented during an oral presentation the same results that were later 
accepted for publication by Science. Since Tom Sensenig did not attend 
the national meeting, Dan Donato and Joe Fontaine offered to show 
Sensenig the talk and the results. Sensenig told them he would be in 
Corvallis in Dec so they met with him and showed him the same 
powerpoint presentation that was presented in San Diego. They told 
Sensenig they were publishing those results and Sensenig expressed no 
concerns to them about it. The content of all those presentations 
contained the same results that were later published in Science.
    Finally, we sought input from Sensenig throughout the project. We 
provide dates below of the times we consulted with him.
Chronology of Interactions with Dr. Thomas Sensenig
    The following chronology summarizes the interactions with Dr. 
Thomas Sensenig, the original project inspector for our Joint Fire 
Science Program grant.
2002
    Fall 2002 Project Inception Dr. Boone Kauffman visits SW Oregon, 
meets with Dr. Tom Sensenig, discusses finding sites to construct a 
fire chronosequence. Sensenig and Kauffman tour Quartz fire.
2003
August
    27 August. Dr. Douglas Robinson and Joe Fontaine drive to Central 
Point to meet Sensenig at BLM District Office. Discuss management needs 
and regulatory climate in morning, tour Quartz fire in afternoon. 
Sensenig provides Robinson and Fontaine with resource area maps and 
telephone directory of Medford BLM employees. Sensenig also provides 
general directions to several fires mentioned in JFSP project proposal.
    [Dan Donato begins graduate program in September]
2004
    [Fontaine begins graduate program in January]
February
    Fontaine and Sensenig exchange emails about BLM personnel with GIS 
expertise.
March
    March 8-12. Fontaine and Donato attend fire conference in Medford.
    Donato meets Sensenig for first time.
    Donato, Fontaine, Sensenig speak briefly on two occasions about 
project logistics.
    Late March. Donato and Fontaine meet with Sensenig in Central Point 
to discuss locating field sites. Sensenig provides newspaper articles, 
aerial photos, and additional contact information for BLM personnel 
familiar with past salvage logging sales.
April
    Donato and Fontaine both hold graduate committee meetings where 
they present project proposals to their graduate committees in 
Corvallis. Sensenig is later emailed these proposals. Sensenig does not 
provide comments or feedback.
May-August
    Sensenig contacts Robinson in early August inquiring about the 
status of the project. Robinson directs Sensenig to talk to Donato and 
Fontaine who were most familiar with project field sites and status of 
data collection. Donato arranges a time with Sensenig for a field tour.
September (first week)
    Sensenig, Donato, Fontaine, and Adam Pfleeger (field technician) 
spend day together touring BLM portion of project study area (Galice 
fire, BLM portion of Biscuit).
    Sensenig asks questions, discusses regulatory issues he faces in 
his job, and gives positive feedback on project status, but no specific 
scientific feedback (design, ecological considerations, etc) is 
offered.
October/November
    Sensenig moves from BLM to USFS.
2005
April
    Fontaine presents revised research proposal to graduate committee. 
Sensenig is emailed a copy of the document. Sensenig does not provide 
comment or feedback.
Early June
    Donato emails (June 6th) and speaks with Sensenig about access to 
salvage logging units.
    Sensenig emails (June 10th) Lee Fox, head Law Enforcement Officer 
of Siskiyou National Forest, alerting him to our presence in and around 
salvage logging units.
July
    Donato and Sensenig speak again about permits and gaining access to 
units with active salvage logging (July 5-14). Sensenig sends several 
emails to other SNF personnel in an attempt to aid us. Donato and 
Fontaine's project proposals are attached to one of these emails. 
Fontaine leaves 4-5 voice mails that go unreturned regarding access to 
salvage units.
August
    Sensenig helps with logistics in permitting process. Sensenig again 
sends around project proposals to demonstrate validity of scientific 
work.
    Sensenig is emailed a progress report intended for the Siskiyou NF 
on August 15.
September
    Sensenig is emailed the annual project report (and included in the 
circulation of drafts) written for our funding agency, the Joint Fire 
Sciences Program. Sensenig does not provide comments or feedback.
    Sensenig speaks with Donato and emails Donato and Fontaine about 
his need for maps of our study plots.
    A map of the study area is sent to Sensenig on 9/23. He responded 
on 9/26 thanking us for our quick response. Fontaine emailed Sensenig 
and asked him to stay in touch, especially if he was coming to 
Corvallis. Sensenig is notified several times about Donato's upcoming 
presentation at the Joint Fire Science Program meeting:
    From Fontaine to Sensenig on 9/23 ``Dan and I are both eager to 
represent our project and provide meaningful research results to the 
USFS and BLM in SW Oregon. Currently, we are gathering the last of the 
data for this year and beginning to analyze data for our presentation 
at the JFS meeting in early November. ``
    From Sensenig to Fontaine & Donato 9/26 ``I'll be in corvallis next 
month so maybe we could get together to look over your data. I'll be in 
touch.''
    From Fontaine to Sensenig 9/28 ``Hi Tom,
    When are you planning on being in Corvallis? Dan and I would really 
like to get together and want to make sure that we're both around. 
Also, other than working on our permit renewal, what else can we 
provide to help you represent our project for the review of Biscuit 
research?
    We are preparing a talk for JFS in early November. We will email 
the power point presentation to you.
    looking forward to seeing you, Joe
    ``No response was received to Fontaine's 9/28 email.
November
    Donato presents results of postfire logging at annual Joint Fire 
Sciences Program meeting. Results are also presented at weekly 
departmental seminar in Forest Science.
December
    Sensenig was again emailed an annual update and summary of study 
goals for 2006 on 12/2/2005 by Fontaine (CC'd to Donato and several 
others).
    Sensenig visits Corvallis in December and meets with Donato and 
Fontaine. Donato and Fontaine show Sensenig presentation that was given 
at JFSP meeting. This presentation contains the data and analyses 
presented in Donato et al. 2006. Sensenig accepts results, comments on 
how unfortunate Fiddler timber sale was in terms of its intensity. 
Fontaine verbally summarizes progress on wildlife portion of the 
project, focusing mainly on small mammal results. Donato and Fontaine 
tell Sensenig that they are submitting a manuscript that contains the 
presented results. Sensenig has since indicated he did not understand 
the paper's status at that point. It was not our intent to 
miscommunicate and Sensenig did, after expressing mild interest, ask 
for a copy once the paper was in print. Last, Fontaine inquires about 
collaboration on future JFSP grants investigating woody debris 
dynamics. Sensenig responds positively. We are confident that our 
current collaborative effort with BLM to clarify future expectations 
for consultation will help avoid further misunderstandings.
                                 ______
                                 
    Mr. Walden. All right. Thank you, Dr. Salwasser. We 
appreciate the work that your college does and help us 
understand these issues better, and we appreciate the 
recommendations of your peer-reviewed testimony.
    We'll turn now to Dr. Franklin, I believe. Jerry, you were 
up next. Thank you. We appreciate each time you've testified 
before us and the conversations we've all had with you, and we 
welcome your comments today.

   STATEMENT OF JERRY FRANKLIN, PROFESSOR, COLLEGE OF FOREST 
              RESOURCES, UNIVERSITY OF WASHINGTON

    Mr. Franklin. Thank you for the opportunity. I really 
appreciate it. And I do very much appreciate the kinds of 
responses that you've made to earlier testimony, mine and 
others, with regards to the bill. Mostly what I'm just going to 
do is supplement Hal Salwasser's statement.
    I'm delighted to see the emphasis on management objectives. 
I think that's absolutely critical, because I think management 
objectives for the areas, whatever areas they are, in question 
should probably be the primary consideration in any decisions 
about what you do post-disturbance with regards to logging, 
reforestation, or any other activity.
    The relevant science and technical knowledge to inform 
post-disturbance management decisions really depends on clarity 
in those management goals for that forest property, even to the 
point that, you know, our notion of what recovery is is going 
to be different just depending upon what that particular 
management allocation is directed toward.
    Again, you know, I think--I just want to emphasize that the 
appropriate activities and relative knowledge set's going to 
vary, and there's a really good way of seeing the contrasts, 
for example, between areas where timber management is the 
primary objective as opposed to where perhaps retention of 
ecological values. And the distinction, as was suggested I 
think by Representative DeFazio, of distinguishing--no, I guess 
it was Inslee--but distinguishing between various types of 
activities like salvage and reforestation is really critical.
    For example, if you are in an area where timber production 
is a primary objective, aggressive salvage and reforestation 
with establishment of plantations of commercially important 
tree species is going to be appropriate. Where in fact you have 
goals related to ecological objectives, timber production is 
not a significant element of it and very likely salvage is not 
going to be appropriate. Reforestation, however, may make some 
contributions to the desired process.
    I also want to point out, it's in our testimony, that there 
is a great deal of peer-reviewed ecological knowledge about 
large disturbances, which pretty much has not been effectively 
assimilated by agencies, by most resource management personnel. 
You know, a lot of the--there have been a lot of studies done 
in the last several decades of large disturbances by 
ecologists, the Yellowstone fires, the hurricanes, Mount St. 
Helen's, even some experimental research. And it shows, you 
know, a number of very significant things about how natural 
disturbances undergo recovery.
    There is an additional issue that's emerged from those 
studies, and that has to do with the role that such areas can 
play in the ecology of a region such as ours. And these may in 
fact play very important roles as biological hot spots, as hot 
spots of biological diversity within a region. So we really 
need to look at that knowledge, synthesize it, analyze it and 
see what it has to tell us about our management activities.
    With regards to the research that you're going to help us 
get funded, hopefully long-term research and monitoring, for 
heaven's sake pay attention to the issue of data management, 
credible data management activities. And I'm not going to name 
names, but I can tell you there are some resource management 
agencies that suffer from the same failings as the F.B.I. They 
do not have credible data management systems, meaning systems 
where the data are documented, are properly stored, are made 
generally available. So that has to be a part of the job.
    And I got to tell you, scientists don't like to spend money 
on that. But it's absolutely critical or you are not going to 
get the value that you're looking for from these.
    My final comment that I want to make is, you know, there's 
been all of this attention paid to salvage. And certainly we 
need to pay attention to what we do to recover these large 
disturbed areas. But I'm concerned that all of this focus on 
disturbed areas, such as big burns, is diverting us from what I 
really think is perhaps a more important task, at least equal 
in importance to it, and that is to get on with the treatment 
of green forests that are at risk of uncharacteristic stand 
replacement fires. And, you know, I love big old trees. I love 
them. And there are in eastern Oregon hundreds of thousands of 
acres of forests and millions of irreplaceable big old pine 
trees out there that are at risk of loss. We need to focus on 
moving forward much more rapidly with the treatment of those so 
that we aren't doing as we have been doing, picking up the 
burned pieces after the barn's burned down.
    So I'd really, really encourage you to do everything you 
can to move aggressively so that in fact we retain the green 
forests and we aren't arguing about what we should do after 
they're burned down.
    To point out to you on the Deschutes National Forest, they 
have lost 18 out of 24 areas for Northern Spotted Owls, nesting 
areas where the--spotted owl habitat area. And we really don't 
want to see that happen all along the eastern side of the 
Cascades, so--
    And research and monitoring on that process is as important 
as it is on the salvage.
    Thanks.
    [The prepared statement of Mr. Franklin follows:]

Statement of Jerry F. Franklin, Professor, College of Forest Resources, 
             University of Washington, Seattle, Washington

    I thank the Subcommittee for this opportunity to testify regarding 
scientific knowledge relevant to appropriate management activities 
following a major forest disturbance. This testimony supplements a 
general statement that Drs. Hal Salwasser and K. Norman Johnson of 
Oregon State University and I prepared on the importance of increasing 
long-term research and monitoring programs focused post-disturbance 
management activities. I do reiterate from that statement the critical 
need for credible data management (e.g., documentation, archiving, and 
public access) as part of these activities.
    At the outset I view it as fundamental that the management 
objectives for a disturbed area under consideration are an essential 
consideration in identifying and applying science relevant to post-
disturbance activities. Management objectives are probably the most 
important factor in determining appropriate post-disturbance 
activities, assuming that we do not want disturbances to automatically 
result in de facto changes in management objectives. If management 
objectives for the area are focused on timber production, than one 
knowledge set based on experience and scientific study will be 
relevant. On the other hand, if management objectives for the area are 
directed primarily to sustaining biological diversity and important 
ecological processes, such as watershed protection, than a different 
knowledge set will be relevant. Of course, there will be overlap in 
these knowledge sets but the emphasis is certainly going to be very 
different.
    I personally believe that much of the controversy that has arisen 
over post-fire logging and other activities relates to stakeholders 
viewing the appropriateness of an activity through the prism of their 
own experience and values without adequately considering the defined 
management objectives for the area under consideration.
    There is a very large body of ecological science relevant to 
management of areas following large disturbances, much of which has not 
yet been fully assimilated by resource management agencies, policy 
makers, and the public. The sources include recent studies of such 
diverse major disturbances as the Mount St. Helens eruptions (Dale et 
al. 2005), the 1988 Yellowstone Fires (Christensen et al. 1989), and 
Hurricanes Hugo and Andrew (Walker et al. 1991; Pimm et al. 1994) as 
well as designed disturbances, such as the artificial hurricane 
experiments created at Harvard Forest in Massachusetts (Foster et al. 
1997).
    Rapid natural recovery is commonly observed in these studies, 
particularly in terms of ecological functions. Such recovery does not 
always equate with rapid re-establishment of a dense forest of 
commercially important tree species, however! Results of current 
studies also reiterate findings from much earlier research on the many 
ways in which human activities--many of them well intended--can 
interfere with natural recovery processes. The results provided by 
Donato et al. (2006), for example, should not have surprised anyone. 
The negative impacts of post-fire logging on natural regeneration have 
been reported in many past studies, including one conducted on the 
Tillamook Burn by the guru of Douglas-fir management, Leo A. Isaac 
(Isaac and Meagher 1938).
    Biological legacies are a key factor contributing to rapid 
ecological recovery (Franklin et al. 2000). The concept of biological 
legacies emerged from research at Mount St. Helens but it is applicable 
to essentially all disturbance types. Biological legacies consist of 
living organisms, organic matter, and organically-created patterns that 
persist from the pre-disturbance ecosystem and strongly influence the 
development of the post-disturbance ecosystem. Living legacies are 
extremely diverse in form and often abundant, typically ranging from 
spores and seeds to large trees and sexually mature animals. Legacies 
of organic matter are also abundant since trees and other plants are 
killed but very little organic matter is actually consumed or removed 
in natural disturbances, including intense wildfires. Legacies of 
organic matter are most apparent in the concentrated forms of standing 
dead trees (snags) and downed boles (logs), material often referred to 
as coarse wood.
    Snags, logs, and other coarse wood are biological legacies of 
extraordinary significance to ecological recovery, second only to 
surviving trees. The literature on the ecological role of coarse wood 
is immense; Harmon et al. (2004) and Maser et al. (1988) provide 
excellent entry points into this literature. The functions of such 
material are many. Logs and snags provide critical habitat for probably 
1/2 to 2/3 of forest animal life (mammals, birds, amphibians, reptiles 
and invertebrates). Coarse wood is a long-term source of energy and 
nutrients but, unlike other organic matter, coarse wood is also a site 
for nitrogen fixation. Coarse wood has significant direct physical 
influences on geomorphic and hydrologic processes, such as erosion, 
sediment deposition, and the physical structure of stream and river 
ecosystems. Residual wood structures significantly modify the 
microclimatic regime of the disturbed site, which is important in 
lifeboating diversity and in facilitating the establishment of natural 
tree reproduction.
    Logs, snags and other wood persist and progressively play these and 
other roles for many decades and even centuries, particularly in the 
case of larger and more decay-resistant wood and in the case of aquatic 
ecosystems. Furthermore, where a stand-replacement disturbance has 
occurred, the resulting pulse of large wood in the form of snags and 
logs is all of the coarse wood that the recovering ecosystem is going 
to get for the next 60 to 80 years or more--i.e., until the new forest 
is large enough to begin generating large snags and logs on its own 
(Spies 1988). In part, this is the basis for my comment in earlier 
testimony that, from an ecological perspective, it is better to harvest 
living trees from an intact forest than to remove dead trees from an 
intensely burned site.
    Ecological science also provides substantial insight into 
landscape-level issues that need to be considered in any type of post-
disturbance management activity, such as ecological impacts of logging 
(e.g., Lindenmayer and Franklin 2002). All parts of a landscape are not 
created equal. The special importance of riparian habitats in a forest 
landscape exemplifies this principle. As another example, post-fire 
logging programs that are selectively focused on portions of the 
landscape with high residual wood volumes can have a disproportionately 
high impact on overall ecological conditions within the disturbed 
landscape, even though the activity directly impacts only a small 
percentage of the total area. The potential is there to effectively 
``high grade'' a large disturbed landscape by logging the majority of 
the areas with abundant large legacies.
    Research on natural forest disturbances has also shown that post-
disturbance landscapes are important sites for many biota and important 
ecological processes, such as nitrogen fixation. Because such areas 
have a rich array of structural legacies and are free of dominance by 
tree canopies, very high levels of biological diversity are often 
present in the form of animal, plant and fungal species as well as 
diverse plant life forms. Forest guru Leo A. Isaac noted such qualities 
based on his observations in the Tillamook Burn (Isaac 1963). Such 
naturally-disturbed early-successional habitats are very different from 
clearcuts in structure, composition, and duration.
    The naturally recovering portions of the Mount St. Helens blast 
zone provide graphic evidence that such areas can be regional hotspots 
of biological diversity, as exemplified by the extraordinary species 
diversity and population levels of amphibians, birds, small mammals, 
and meso-predators found in this landscape (Dale et al. 2005). Such 
richness of organisms and processes is not to be found within the 
reforested portions of the Mount St. Helens region although these dense 
young forests are producing a lot of wood. This contrast makes explicit 
the importance of management objectives for a disturbed area.
    Resource managers do have much knowledge and experience with post-
disturbance landscapes but there has been relatively little systematic 
research on impacts of post-fire logging. Moreover, some of the science 
described as relevant has limitations. We cannot assume that research 
focused on solving regeneration problems following timber harvesting in 
southwestern Oregon are directly applicable to conditions or to 
management objectives on naturally disturbed areas in the Biscuit Burn. 
As I hope we have all learned--clearcuts are not just like wildfires! 
To which I would add, what is good for timber production may not be 
good for many other forest values. Hence, the importance of management 
goals for affected properties.
    In conclusion, we certainly do need more credible scientific 
research as well as systematic monitoring to increase the breadth and 
depth of the knowledge available to guide management. I would emphasize 
that the research and monitoring need to be sustained--long-term--
efforts and, further, that these efforts will be largely wasted without 
appropriate investments in data management.
    Finally, I want to express a concern that all of this attention on 
salvage and reforestation has diverted us from what I view as a more 
important task, which is to get on with treatment of green forests at 
risk of uncharacteristic stand-replacement fires. In eastern Oregon 
there are hundreds of thousands of acres of forest and millions of 
irreplaceable old-growth trees at risk of loss. We need to focus on 
these green forests so that they don't end up as part of policy debate 
over salvage!

Citations
Christensen, N. L. et al. 1989. Interpreting the Yellowstone Fires of 
        1988. BioScience 39:678-685.
Dale, Virginia H., Frederick J. Swanson, and Charles M. Crisafulli. 
        2005. Ecological responses to the 1980 eruptions of Mount St. 
        Helens. 342 pp. Springer-Verlag: New York.
Donato, D. C., et al. 2006. Post-wildfire logging hinders regeneration 
        and increases fire risk. Science.
Foster, D. R., et al. 1997. Forest response to disturbance and 
        anthropogenic stress. BioScience 47: 437-445.
Franklin, J. F., et al. 2000. Threads of continuity: ecosystem 
        disturbance, recovery, and the theory of biological legacies. 
        Conservation Biology in Practice 1:9-16.
Harmon, Mark H., et al. 2004. Ecology of coarse woody debris in 
        temperate ecosystems. Advances in Ecological Research 34:59-
        234.
Isaac, Leo A. 1963. Fire--a tool not a blanket rule in Douglas-fir 
        ecology. In: Proceedings of Second Annual Tall Timbers Fire 
        Ecology Conference.
Isaac, Leo A., and George S. Meagher. 1938. Natural reproduction on the 
        Tillamook Burn four years after the fire. Pacific Northwest 
        Research Station: Portland, OR.
Lindenmayer, David B., and Jerry F. Franklin. 2002. Conserving forest 
        biodiversity. A comprehensive multiscaled approach. 351 p. 
        Island Press: Washington, DC.
Maser, Chris, Robert F. Tarrant, James M. Trappe, and Jerry F. 
        Franklin. 1988. From the forest to the sea: a story of fallen 
        trees. USDA Forest Service General Technical Report PNW-GTR-
        229, 153 pp.
Pimm, S. L., et al. 1994. Hurricane Andrew. BioScience 44:224-229.
Spies, Thomas A., and Steven P. Cline. 1988. Coarse woody debris in 
        forests and plantations of coastal Oregon. Pages 5-24 in: 
        Maser, Chris, et al. (editors), From the forest to the sea: a 
        story of fallen trees. USDA Forest Service PNW-GTR-229.
Walker, L. R., et al. (editors) 1991. Ecosystem, plant, and animal 
        response to hurricanes in the Caribbean . BioTropica 23(4):313-
        521.
                                 ______
                                 
   Ecological Science Relevant to Management Policies for Fire-Prone 
                  Forests of the Western United States
           society for conservation biology scientific panel 
                    on fire in western u.s. forests

  Authors: Reed F. Noss \1\ (editor), Jerry F. Franklin \2\, William 
        Baker \3\, Tania Schoennagel \4\, and Peter B. Moyle \5\
---------------------------------------------------------------------------

    \1\ Dept. of Biology, University of Central Florida, Orlando, FL 
32816
    \2\ College of Forest Resources, University of Washington, Seattle, 
WA 98195
    \3\ Ecology Program and Dept. of Geography, University of Wyoming, 
Laramie, WY 82071
    \4\ Dept. of Geography, University of Colorado, Boulder, CO 80309
    \5\ Dept of Wildlife, Fish, and Conservation Biology, University of 
California, Davis, CA 95616
---------------------------------------------------------------------------

           Society for Conservation Biology, Washington, D.C.

                           February 24, 2006

                           EXECUTIVE SUMMARY

    Fire is a primary natural disturbance in most forests of western 
North America and has shaped their plant and animal communities for 
millions of years. Native species and fundamental ecological processes 
are dependent on conditions created by fire. However, many western 
forests have experienced shifts in wildfire regimes and forest 
structure following a century or more of resource use and management, 
with some past and present management activities lacking a scientific 
basis. Changes in wildfire and fuel management policies are needed to 
address social and environmental problems that have arisen as a result 
of these activities.
    Incorporation of current scientific knowledge into revised policies 
and practices is essential to insure that the productivity, biological 
diversity, and ecological values of western forests are sustained. As 
an example, implementation of the Healthy Forests Restoration Act 
(HFRA) of 2003 will benefit from adaptive application of the 
dramatically expanding base of scientific knowledge. Our review 
addresses the ecological science relevant to developing and 
implementing forest restoration and fuel management policies, including 
activities conducted before, during, and after forest wildfires. An 
essential principle of ecological variability within and among forests 
underlies all of our findings.
    In this summary and in the background report we use the term 
``characteristic'' in referring to the dominant natural disturbance 
regime of a forest type or site. For example, some types of dry forests 
are described as being historically or naturally ``characterized by a 
frequent, low-severity fire regime'' while some coastal and subalpine 
forests are ``characterized by an infrequent, high-severity fire 
regime.'' These are generalized characterizations of the regimes that 
these types experience and are not necessarily exclusive. For example, 
forests characterized by high-severity fire regimes may also experience 
low-severity events and vice versa. The term ``uncharacteristic'' 
refers to disturbances, forest structure, or fuel loads of a scale or 
type outside the historic range of variability based on site-specific 
vegetation reconstructions using tree rings, fire scars, pollen, 
charcoal, or early historical records.

                        Fire in Western Forests

    Wildfire is inevitable and ecologically important in forests 
throughout much of the western United States, given the fuels, ignition 
sources, and variable climatic conditions. Nevertheless, characteristic 
fire regimes--especially the extent, frequency, and severity of the 
wildfires--are immensely variable. For example, fires historically 
recurred in western forests at intervals ranging from as frequently as 
a decade or less in some dry ponderosa pine forests to 250 to 800 years 
or more in forests at high elevations and along the Pacific Coast. 
Fires provide important services such as recycling nutrients, 
regulating the density and composition of young trees, and creating and 
shaping wildlife habitat at the stand level. At larger spatial scales 
wildfire influences landscape patterns and affects water and sediment 
delivery in watersheds. Many native plant and animal species are 
adapted to postfire habitats and suffer population declines with fire 
exclusion.
    Characteristic fire regimes differ markedly among forest types and 
regions--as well as within major forest types--and these differences 
need to be considered in fire and fuel management policies to assure 
that these policies are effective and sustain ecological values. 
Managers, stakeholders, and policy makers are challenged by the 
complexity created by this variability, which defies a simple, one-
size-fits-all prescription. Fortunately, plant association groups 
(PAGs) provide a surrogate classification of this diversity in forest 
wildfire regimes that is effective and scientifically credible, since 
plant associations have predictable relationships to characteristic 
fuels and fire regimes.

                   Forest Management Before Wildfire

    How could forests be managed prior to the inevitable wildfires they 
will experience, so as to insure that fires will play their 
characteristic roles in maintaining the composition, structure, and 
function of the forest ecosystem when they do occur? Appropriate 
management will vary greatly with the type of forest and its dominant 
fire regime. Determining the appropriate management and restoration 
goals requires that the effects of past land uses first be identified 
so that those effects can be specifically remedied. Then appropriate 
ecologically based restoration and management policies can be 
developed. Protected areas require particular management approaches 
that may differ from practices appropriate in managed forests. Each of 
these topics is addressed in turn below.

Variable Effects of Fire Exclusion, Logging, Livestock Grazing, and 
        Plantations
    The effects of fire exclusion, as well as other activities that 
affect fire regimes (e.g., logging, livestock grazing, plantations) on 
forest structure are not necessarily easy to identify or demonstrate 
scientifically; they also vary significantly among forest types and 
regions. In some forest types change has been dramatic since European 
settlement due, for example, to fire exclusion, logging, grazing, or 
tree planting (singly or in combination), and restoration is clearly 
needed. In other forest types major changes are not apparent and 
restoration is not needed. In many cases it has been inappropriately 
assumed that forests in general or all forests dominated by a 
particular tree species have been altered in the same way. In fact, 
these effects are known to vary, depending upon the forest type and 
whether fire was characteristically high, mixed, or low severity, each 
of which is discussed below.

Key Findings:
    <bullet>  Fire exclusion and other human activities have led to 
significant deviations from historical variability in some forests but 
not in others. Restoration treatments are warranted, sometimes 
urgently, in those cases where such activities have led to significant 
alterations in ecosystem structure, function, or composition, but 
cannot be justified ecologically in cases where such changes have not 
occurred. The following sections discuss this for forests with 
different fire regimes.
    <bullet>  Land uses and fire exclusion do not universally increase 
fuel loads or fire risk. Such activities may alter fuels in divergent 
or complex ways that lead to a need for decreases in particular fuels 
and increases in other fuels, if restoration to the historical range of 
variability is the goal. For example, fire exclusion can increase tree 
regeneration and ladder fuels in some cases and decrease tree 
regeneration and ladder fuels in other cases.

Forests Characterized by High-Severity Fires
    Forests characterized by high-severity fires are found in several 
disparate locations: subalpine forests at higher elevations throughout 
the West (e.g., lodgepole pine and Engelmann spruce-subalpine fir); the 
moist and highly productive forests in marine-influenced regions of the 
Pacific Northwest; and certain semi-arid woodlands, including some 
dominated by pinyon-juniper and by oak-pine-chaparral. High-severity 
fires, which are usually infrequent, kill most or all of the trees in 
large portions of the burn, although such fires typically create a 
landscape mosaic that also includes some areas of unburned forest and 
of low- to moderate-severity burn. Forests subject to high-severity 
fires typically support high densities of trees and other woody plants 
and, consequently, large fuel loadings. When these dense fuels dry out 
and an ignition source is present, the resulting fires can spread 
rapidly and quickly become difficult or impossible to suppress. Many 
large, high-severity fires are probably associated with either 
infrequent, severe droughts or short-term synoptic weather patterns or 
both.

Key Findings:
    <bullet>  Fire exclusion has had little to no effect on fuels or 
forest structure in forests characterized by high-severity fire 
regimes--a fact that is especially relevant to fire policy. High-
severity fires are relatively infrequent--coming at intervals of one to 
many centuries--while the period of active fire exclusion in these 
remote forests has been less than a century. Land uses, including 
logging, plantations, and grazing, may have extensively modified the 
structure of these forests in some areas, but evidence suggests that 
fire regimes have not been fundamentally modified.
    <bullet>  Because fuel structures or tree densities are usually 
well within the historic range of variability, ``restorative'' 
treatments are ecologically inappropriate in forests characterized by 
stand-replacement fire. Modifying stand densities and fuels to levels 
that would reduce the potential for stand-replacement fire would render 
these forests incapable of fulfilling their characteristic ecological 
roles, including provision of high densities of standing dead trees 
(snags) and other critical elements of fish and wildlife habitat that 
are created by fire. Restoration could address other needs, such as 
restoring native understory plant diversity, where land use is known to 
have caused changes.

Forests Characterized by Mixed-Severity Fires
    Fire is quite variable in severity and frequency in many mid-
elevation and some low-elevation forests of moderate to high 
productivity across variable topography in the interior west and some 
coastal regions, such as the Klamath-Siskiyou region. In these forests 
both low- and high-severity fires may occur, with the former often more 
frequent than the latter. Topographically complex western mountain 
landscapes may be especially prone to mixed-severity fire, because 
drier south-facing slopes with lower fuel loads can burn at low 
severity when adjacent, moister north-facing slopes that support higher 
tree densities experience high-severity fire. The inherent variability 
of mixed-severity fire regimes precludes easy detection and analysis of 
the effects of fire exclusion. Exclusion of fire may have allowed tree 
densities to increase in some areas but post-fire tree density is 
naturally high in patches killed by high-severity fire.

Key Finding:
    <bullet>  Scientific understanding of mixed-severity forest 
landscapes is limited, making it difficult to provide ecologically 
appropriate guidelines for restorative treatments. These are very often 
very complex landscape mosaics; hence, it is necessary to plan and 
conduct activities at larger spatial scales. In mixed-severity forest 
landscapes where sufficient ecological and fire-history information is 
available, a combination of thinning and prescribed fire may be useful 
in restoration. However, only portions of these landscapes will warrant 
treatment from an ecological perspective that recognizes the spatially 
complex patterns. More scientific research is needed to understand the 
dynamics of mixed-severity forest landscapes.

Forests Characterized by Low-Severity Fires
    The consequences of many human activities--including fire 
exclusion, logging, tree planting, and livestock grazing--are most 
serious in forest types that historically were characterized primarily 
by low-severity fires. Low-severity fire regimes were typical of many 
(but not all) pine and dry mixed-conifer forests, which occurred on 
warm, dry sites prior to European settlement. These fires historically 
burned fine fuels (e.g., grasses and litter on the forest floor) at 
regular intervals. These surface fires killed few large fire-resistant 
trees but killed many smaller trees of all species, helping to maintain 
open-canopied stands of large, old trees. Human activities since 
European settlement have dramatically modified the fuel structure in 
these forests. Logging of large fire-resistant trees has eliminated key 
ecological elements of these forests, including the large trees, snags, 
and logs essential to many ecological functions, such as provision of 
fish and wildlife habitat. Logging also has promoted higher stand 
densities in many dry forests by stimulating dense natural 
regeneration, even when it was not followed by aggressive replanting.

Key Findings:
    <bullet>  Restoration of dry ponderosa pine and dry mixed-conifer 
forests--where low-severity fires were historically most common--is 
appropriate and desirable ecologically on many sites. Mechanical 
thinning of small stems and prescribed fire are effective techniques 
for restoring stand densities to levels that existed prior to fire 
exclusion, livestock grazing, logging, and plantation establishment.
    <bullet>  Retention of large and/or old live trees, large snags, 
and large down logs in restoration treatments, such as thinning, is 
critical to restoring and maintaining ecological function. Also, other 
key components of these ecosystems, such as native understory plants, 
must be restored or protected for full restoration of natural 
conditions, including the potential for characteristic fire behavior.

Priorities and Principles of Ecologically-Based Forest Restoration
    Forest restoration varies along a continuum from restoring 
structure (e.g., reducing densities of small trees and increasing the 
density of large trees) to restoring the processes (e.g., low-severity 
fire, competition between grasses and tree seedlings) that create and 
maintain that structure. The continuum also represents a gradient from 
symptoms (e.g., uncharacteristically high tree densities) to causes 
(e.g., exclusion of fire). A well-established principle in land health, 
as in human health, is that treating symptoms may be necessary in the 
short term, but that ultimately causes must be identified and treated 
to restore health.
    Appropriate models for restoration will vary with current forest 
conditions, management objectives, and plant association groups, among 
other factors. An essential early step in a management program is to 
identify the Desired Future Condition (DFC) to which treatments are 
directed. DFCs are often based on conditions that are considered to be 
within the historical range of variability (HRV). Precisely achieving 
some past condition is not a reasonable goal, but conditions broadly 
representative of the historic range of variability can often be 
approximated through restorative activities. Restoration of processes 
(e.g., low-severity fire) may allow the re-structured forest to 
eventually equilibrate with contemporary environmental conditions. The 
level of threat to particular natural values--such as critical wildlife 
habitat, watershed and aquatic values, and existing populations of 
veteran old trees--should be considered in setting priorities for 
restoration treatments.
    Areas in the wildland-urban interface (WUI) may require fuel 
reduction and fire management policies that are inconsistent with HRV 
or with maintaining the biodiversity of those sites, even though 
carefully tailored treatments can maintain some aspects of 
biodiversity. Growth-management policies could minimize adverse 
ecological impacts from the WUI.
    We provide two case studies--the Klamath Reservation Forest and 
Rocky Mountain ponderosa pine--Douglas-fir forests--in the background 
report to illustrate the wide variety of ecological conditions and 
ecologically appropriate management and restoration practices in 
western forests.

Key Findings:
    <bullet>  From an ecological perspective priorities for restoration 
need to be determined on the basis of ecological considerations and 
urgency outside of the wildland-urban interface (WUI). High-priority 
cases are likely to include areas where significant ecological values 
are at risk of undesirable stand-replacement fire. Many of these are 
outside of the WUI.
    <bullet>  On lands where ecological objectives dominate, the 
desired goal will often be a forest ecosystem with its fire regime, 
fuels, tree population structure, and other living organisms restored 
to within the historic range of variability. Ideally, the conditions 
created must be consistent with the characteristic fire regime of the 
site--i.e., sustainable in the context of the probable fire regime. 
Deviation from historic conditions sometimes may be necessary, however, 
to accommodate an altered biota or environment, or to accommodate 
appropriate social objectives. In such cases the highest conservation 
values are likely to be obtained by minimizing deviations from the 
historic range of variability.
    <bullet>  Broader conception and implementation of restoration 
objectives, beyond fuel and fire mitigation, are necessary to achieve 
comprehensive, scientifically based approaches to ecological 
restoration of western forests. An example is the restoration of 
understory plant communities.
    <bullet>  Restoration plans must recognize and systematically 
incorporate fire management needed to maintain the restored forest. 
Forests are dynamic; therefore, any restoration program has to provide 
for sustained fire management in order to maintain the desired 
condition. A common-sense goal consistent with ecological science is to 
achieve restored forests that are low maintenance, such as can be 
achieved through managed natural fire, and, where this is not possible, 
to use prescribed fire that seeks to mimic as closely as possible the 
characteristic fire regime.
    <bullet>  Large trees of fire-resistant species and large snags and 
logs have high ecological importance and should be retained in 
restoration projects with ecological goals. Where present, large and 
old live trees are the most fire-resistant component of western forests 
and are essentially irreplaceable. Snags and logs on the forest floor 
are key wildlife features that are deficient in many western forests 
due to logging.
    <bullet>  There are risks associated with restorative treatment of 
stands and landscapes including: (1) Uncertainties associated with 
basing treatments on inadequate knowledge; and (2) Risks associated 
with not taking restorative actions, including the potential loss of 
significant ecological values. An example of the latter is potential 
loss of spotted owl habitat to stand-replacement fire, which is 
uncharacteristic in some landscapes, such as on the lands that 
previously constituted the Klamath Indian Reservation in the Eastside 
Cascades. Again, we emphasize the need to recognize variability, as 
portions of landscapes that are generally characterized as falling 
within a low-severity fire regime did experience high-severity fire, at 
least on occasion.
    <bullet>  Adaptive management, including properly designed 
monitoring activities, needs to be a part of all major restoration 
programs. Many proposed research and monitoring activities associated 
with restoration programs have lacked both sufficient and sustained 
funding. Creation of a dedicated funding mechanism to support these 
activities is imperative for proposals to provide critical feedback to 
managers and, secondarily, to have credibility with stakeholders.
    <bullet>  Credible, third-party scientific reviews are critical 
when major controversies arise as to the scientific merits of proposed 
activities. Regular processes or mechanisms for the initiation and 
nature of these scientific reviews need to be established along with 
appropriate funding mechanisms.

Protected Areas Are Essential for Managing Fire for Ecological 
        Diversity
    Not all conservation needs can be met in managed forests. Reserves 
of various kinds are a fundamental conservation tool whether they are 
congressionally recognized (e.g., national parks and wilderness), land 
allocations (e.g., Late Successional Reserves), or de facto reserves 
(e.g., roadless areas). They provide essential enclaves for species and 
serve as control or reference sites for lands managed for commodities. 
The question of how reserves in fire-prone landscapes should be managed 
cannot be addressed by application of a simplistic ``one-size-fits-
all'' philosophy, but must be guided by consideration of the vegetation 
structure and composition of the area in question and its 
characteristic fire regime.

Key Findings:
    <bullet>  Reserves may be required for species closely associated 
with late- or early-successional forests in fire-prone landscapes for a 
variety of reasons. For example, unreserved forests are often 
fragmented by periodic logging or consist only of stands of trees too 
small or too open to meet the needs of late-successional species, such 
as spotted owls. Species typical of natural post-fire habitats (e.g., 
many woodpeckers), which contain abundant standing dead trees, require 
substantial areas reserved from post-fire logging.
    <bullet>  The reserve concept does provide for appropriate kinds of 
management and ecologically compatible human use. Restoring a natural 
fire regime is most compatible with the reserve concept, but in cases 
where fully restoring a natural fire regime is not feasible, 
ecologically appropriate management will likely be needed to restore 
and maintain biodiversity and the conditions for which reserves were 
set aside. Some types of management, such as prescribed burning, and 
some uses, such as ecological research and monitoring, are often 
essential to the persistence of populations, habitat features, and key 
ecological processes within reserves. The general goal would be to 
restore the reserve landscape to a condition within the historical 
range of variability (where restoration is necessary) and then to 
maintain it in that state with minimal human intervention, or allow it 
to equilibrate with contemporary natural conditions.

                 Management Activities During Wildfire

    Fire management policies provide direction regarding responses to 
wildfire, including such basic issues as whether or not to suppress 
wildfires. A generalized policy regarding fire suppression is 
inappropriate as evidenced by the negative ecological (and other) 
impacts of a universal fire-suppression policy during the 20th century. 
Decisions regarding appropriate response to fire need to consider many 
ecological and social factors, beginning with the nature of the forest 
type and societal goals.

Key Findings:
    <bullet>  From an ecological perspective, allowing fires to serve 
their natural role may be most beneficial ecologically. Certainly, fire 
must be managed when close to human settlements and infrastructure and 
in some cases where economic resource values are high. Away from these 
areas--such as in many wilderness areas, national parks, and large 
areas of contiguous public lands--there is opportunity to increase the 
use of wildland fire, thus benefiting the range of species that require 
a diversity of natural fire regimes.
    <bullet>  Fire suppression may be beneficial to ecological values 
in some forest landscapes, particularly where special values are at 
risk. For example, fire suppression may be appropriate where rare or 
unique ecological values (including imperiled species habitat) could be 
lost, where uncharacteristic fuel accumulations have created the 
potential for a fire that is outside the historic range of variability, 
or where infrequent high-severity fires are characteristic but where 
such fires are not currently viewed as ecologically desirable (e.g., 
old-growth forests in Pacific Northwest).

                    Forest Management After Wildfire

    Forest landscapes that have been affected by a major natural 
disturbance--such as a severe wildfire or windstorm event--are commonly 
viewed as devastated and biologically impoverished. Such perspectives 
are usually far from ecological reality. Overall species diversity 
measured as number of species--at least of higher plants and 
vertebrates--is often highest following a natural stand-replacement 
disturbance and before re-development of closed-canopy forest. 
Important reasons for this include an abundance of biological legacies, 
such as living organisms and dead tree structures, the migration and 
establishment of additional organisms adapted to the disturbed, early-
successional environment, and temporary release of other plants on the 
site from dominance by trees.
    Currently, natural, early-successional forest habitat--naturally 
disturbed areas with a full array of legacies (i.e., not subject to 
post-fire logging) and experiencing natural recovery processes (i.e., 
not seeded or planted)--are among the scarcest habitat condition in 
some regions, such as the Pacific Northwest.

Key Findings:
    <bullet>  Research by both ecologists and foresters provides 
evidence that areas affected by large-scale natural disturbances often 
recover naturally. Post-burn landscapes have substantial capacity for 
natural recovery. Reestablishment of closed forest following stand-
replacement fire characteristically occurs at widely varying rates, 
providing temporary, but ecologically important and now rare early-
successional habitat for a variety of native species and key ecological 
processes.
    <bullet>  Post-fire logging does not contribute to ecological 
recovery; rather it negatively impacts recovery processes, with the 
intensity of such impacts depending upon the nature of the logging 
activity. Post-fire logging in naturally-disturbed forest landscapes 
generally has no direct ecological benefits and many potential negative 
impacts from an ecological standpoint. Trees that survive the fire for 
even a short period of time are critical as seed sources and as habitat 
that will sustain many elements of biodiversity both above and below 
ground. The dead wood, including large snags and logs, is second only 
to live trees in overall ecological importance. Removal of these 
structural legacies--living and dead--is inconsistent with our 
scientific understanding of natural disturbance regimes and short- and 
long-term recovery processes.
    <bullet>  Post-fire logging destroys much of whatever natural tree 
regeneration is occurring on a burned site. This is a fundamental 
concern since these tree seedlings are derived from local seed sources, 
which are most likely the best adapted to the site. Furthermore, 
environmental variables, such as moisture and temperature conditions, 
are major selective factors in determining which natural tree seedlings 
survive, which favors genotypes more tolerant of environmental stresses 
than are nursery- or greenhouse-grown seedlings.
    <bullet>  Evidence from empirical studies is that post-fire logging 
typically generates significant short- to mid-term increases in fine 
and medium fuels. In some cases this may result in increased reburn 
potential rather than a decreased reburn potential, as is often 
claimed. In any case, from an ecological perspective large wood is of 
demonstrated importance in ecological recovery; removing this wood in 
an attempt to influence the behavior of a potential reburn event has 
little scientific support.
    <bullet>  In forests subjected to severe fire and post-fire 
logging, streams and other aquatic ecosystems will take longer to 
return to historic conditions or may switch to a different (and often 
less desirable) state altogether. Following a severe fire the biggest 
impacts on aquatic ecosystems are often increased sedimentation caused 
by runoff from roads. High sediment loads from roads may continue for 
years, greatly increasing the time for recovery.
    <bullet>  Post-fire seeding of non-native plants generally damages 
natural ecological values, such as reducing the recovery of native 
plant cover and biodiversity, including tree regeneration. Non-native 
plants typically compete with native species, reducing both native 
plant diversity and cover. Reductions in natural tree regeneration as a 
result of seeding of non-native plants have also been reported in 
numerous studies.
    <bullet>  Post-fire seeding of non-native plants is often 
ineffective at reducing soil erosion. Aerial seeding of grasses 
(primarily non-native) is common on federal lands following moderate- 
to high-severity fire to reduce postfire erosion. The effectiveness of 
seeding in reducing erosion is mixed. Grass seeding generally does not 
mitigate erosion during the first winter following fire, when seeded 
grasses are not yet well established. Seeding may slow erosion during 
the second year following fire but is rarely effective during intense 
storms.
    <bullet>  There is no scientific or operational linkage between 
reforestation and post-fire logging; potential ecological impacts of 
reforestation are varied and may be either positive or negative 
depending upon the specifics of activity, site conditions, and 
management objectives. On the other hand, ecological impacts of post-
fire logging appear to be consistently negative. Salvage and 
reforestation are often presented as though they are interdependent 
activities, which they are not from either a scientific or operational 
perspective. From a scientific perspective, policy and practice should 
consider each activity separately. As noted above, post-fire logging is 
a consistently negative practice from the standpoint of ecological 
recovery. Natural tree regeneration is ecologically most appropriate, 
but intentional reforestation could also be designed to provide 
significant ecological benefits in some cases.
    <bullet>  Accelerated reestablishment of extensive closed forest 
conditions after fire is usually not an appropriate objective on sites 
managed with a major ecological focus. Wildfires have been viewed 
historically as events that destroy valuable standing forest and create 
undesirable expanses of deforested (i.e., unproductive) landscape. Re-
establishment of fully stocked stands of commercially important tree 
species on burned sites has been a fundamental forest management 
objective on most private and public forestlands; hence the historic 
commitment to intensive reforestation. However, timber production is no 
longer the primary objective on many federal lands, where the focus on 
provision of biodiversity and ecosystem services equals or exceeds wood 
production objectives. The ecological importance of biological legacies 
and of uncommon, structurally complex early-successional stands argues 
against actions to achieve rapid and complete reforestation except 
where the primary goal is wood production. In addition, it is also 
inappropriate to re-establish fully stocked stands on sites 
characterized by low-severity fire--the same sites where managers are 
trying to restore fuel loadings to their historical range of 
variability.
    <bullet>  Where timber production, other societal management goals, 
or special ecological needs are the focus, planting or seeding some 
native trees and other plants using local seed sources may be 
appropriate. Ecological assessments of the post-burn area and 
considerations of management objectives should be used to determine 
appropriate activity. Special ecological circumstances might include a 
need to restore an uncommon plant species or habitat for a threatened 
or endangered species. Innovative practices, such as low or variable 
density planting, will likely be more appropriate ecologically than 
traditional practices that involve dense tree plantations of one or a 
few commercial species. Dense uniform conifer plantations are always 
inappropriate on sites characterized by low-severity fire unless the 
intent is intensive management of such sites for wood production.

          More Ecological Science is Needed in Fire Management

    Despite the complexity of fire ecology in western forests and 
uncertainty over the effects of particular management actions, the 
scientific basis for rational decision-making about fire has improved 
dramatically in recent years. Some of this improvement is evident in 
law and policy. For example, there is explicit attention to old-growth 
and characteristic forest structure in the Healthy Forests Restoration 
Act (HFRA) of 2003:
        ``In carrying out a covered project, the Secretary shall fully 
        maintain, or contribute toward the restoration of, the 
        structure and composition of old growth stands according to the 
        pre-fire suppression old growth conditions characteristic of 
        the forest type, taking into account the contribution of the 
        stand to landscape fire adaptation and watershed health, and 
        retaining the large trees contributing to old growth 
        structure.''
    Nevertheless, current approaches to implementation of HFRA may be 
flawed; while attempts are being made to incorporate the variability of 
fire regimes and vegetation dynamics among forest types, there is heavy 
reliance on expert opinion and unvalidated, over-specified models. 
Critical review of the scientific basis for HFRA, FRCC (Fire Regime 
Condition Classes), and LANDFIRE from a credible independent source, 
such as the National Academy of Sciences, is needed.
    More generally, principles of ecological science and the detailed 
existing knowledge of individual forest ecosystems need to be 
incorporated more systematically into the development of forest fire 
and fuel policies. A current example is the need to incorporate 
ecological principles into proposed legislation dealing with post-fire 
(salvage) logging and reforestation.
    One barrier to better use of ecological science is that scientists 
involved in developing fire policies and practices have tended to be 
specialists in fire and fuel management, not ecologists, conservation 
biologists, or other broadly trained scientists. It is not surprising, 
then, that current forest law and policy, such as HFRA, does not 
adequately incorporate ecological science in its implementation and 
tends to promote a narrow definition of restoration that focuses almost 
exclusively on fuels.
    True ecological restoration requires the maintenance of ecological 
processes, native species composition, and forest structure at both 
stand and landscape scales. Because ecological variability is great, 
few universal principles exist for integrating insights from ecology 
and conservation biology into fire management and conservation 
policies. Nevertheless, one principle that does seem to hold is that as 
forests are managed or restored, they should not only support the 
desired fire regime but also viable populations of native species in 
functional networks of habitat.
                                 ______
                                 
    Mr. Walden. Thank you, Dr. Franklin.
    Dr. Perry, thank you. Welcome for being here. We look 
forward to your testimony. Have at it, sir.

   STATEMENT OF DAVE PERRY, PROFESSOR EMERITUS, OREGON STATE 
                           UNIVERSITY

    Mr. Perry. Thank you, Chairman Walden.
    Mr. Walden. Make sure your mike's on. And if you could bend 
it over your way, then everybody can hear a little better. 
Thank you, sir.
    Mr. Perry. Light means on now.
    Mr. Walden. Light means off. Don't ask me. I don't get it.
    Mr. Perry. Where am I?
    Mr. Walden. Medford. And this appears to be an old growth 
table we're around.
    Mr. Perry. Chairman Walden, Members of the Committee, 
Members of the Staff, thank you for the opportunity to testify.
    I want to talk today about being conservative and being 
careful about tiptoeing along the edges of cliffs, which if we 
go over we're going to compromise our objectives. I don't care 
whether timber management or biodiversity or what.
    If you go up elevation from Cave Junction, Oregon and you--
around the vicinity of Oregon Caves National Monument and you 
look south into California, you'll see what in Hawaii they call 
a puka, a hole, a lot of holes in the forest. And those holes 
in the forest are clearcuts that were put in in the '60s and 
were planted three, four times each, and it's difficult to find 
a living stick on. This is a problem at high elevations and 
other areas of the West as well.
    I spent a lot of my research career myself and my students 
trying to understand what goes on there. Why is it that you can 
cut what was a productive, healthy forest, established by fire, 
and all of the sudden you can't get trees to grow back.
    Now, I want to stress these are different situations than 
Steve Hobbs talked about with the forest study. But they may 
have some similarities as well.
    Well, to make a long story short, we concluded that a big 
part of the problem was the removal of the shelter, of big old 
trees. It's an old, old silvicultural technique called shelter 
wood, which is very important on these kinds of harsh sites and 
which wasn't done up there. And the second thing was 
herbiciding the sprouting hardwoods and shrubs.
    We spent a great deal of time and research and intensive 
study figuring out what went on in the soils in these areas. 
These shrubs will protect soils. They protect streams. They 
maintain organisms that are important for conifers. They 
cleanse the soil of organisms that are detrimental to conifers. 
They also compete for resources. These services don't come 
free. And the balance between their benefits and their costs 
are multidimensional and not generalizable, depending on a 
number of factors.
    Adjacent to each one of these clearcuts was a forest that 
was established by wildfire. And the retrospective studies that 
have been done for the last ten years around western Oregon and 
southwestern Oregon, and Tom Sensenig, whose name came up 
earlier, did a number of these in southwestern Oregon, all show 
the same, pretty much the same thing. These forests recover by 
themselves very well.
    Now, we're at a different point in history now. Maybe the 
situation is different, and we can't assume that that will 
happen again. But neither can we assume that we have to get in 
there and help them. And, if fact, the evidence is that if we 
do the wrong thing on the wrong place--in the wrong place, we 
can tip these systems into something that we wish we hadn't, 
and it's going to compromise all our objectives.
    The second cliff to stay away from, and this one was going 
to be impossible to, but maybe we can help it, is the threat of 
wildfire. And we hear a lot of talk about the threat of snags 
and wildfires. And actually it turns out the studies that are 
being done on the Biscuit show that the fire laid down when it 
came to the unsalvaged areas of the Little Silver.
    I have some hypotheses about that. I think--I think the 
standing dead timber disrupts the air flow into the fire, just 
like closing down the damper on your stove. That's a hypothesis 
to be tested.
    But let me go back to the old Silver complex. I was out on 
the ground with Forest Service people shortly after that. And 
Yogi Berra's name came up a little earlier, and I'll invoke him 
again. You can learn a lot from looking. And I'll tell you in 
my career I've learned a lot from looking.
    We came upon an example of something that just absolutely 
blew me away. It was a plantation which had been the site of a 
brush control study. And like virtually all plantations in the 
fire area--the plantations, by the way, are the most fire 
susceptible thing we put out there. Like virtually all 
plantations in the study area, the trees outside of--or the 
trees where the brush had been controlled were totally 
consumed. The trees where the brush was not controlled were 
green and healthy, and they didn't look like they had been 
touched by the fire. I couldn't believe what I was seeing.
    And then I got to looking around and I got to talking to 
people, and I discovered that this was--some of the plant 
species we have out there are fire resistant. This is something 
foresters 100 years ago knew and somewhere along the line got 
forgotten. But those things are out there doing stuff for us.
    And I think our job here is to find balance. We need to 
find the balance. And that's where research can really 
contribute to helping us find the balance between extracting 
and between preserving and long-term health of these systems.
    I think science has traditional things to contribute in 
terms of research. I think we also have to be taking a hard 
look at risk analysis, how much do we risk when we start 
modifying the biodiversity of these systems. And I can tell you 
we do risk something. And this needs to be looked at.
    And, finally, I'll close by saying that another role for 
science that I would like to see is the formation of rapid 
response collaborations between scientists and managers on 
individual fires, so we bring the expertise of both groups 
together. And this is a lot easier said than done, but I think 
that would be an important way to begin to make intelligent 
decisions on what we do out here.
    Thank you very much.
    [The prepared statement of Mr. Perry follows:]

Statement of David A. Perry, Professor (emeritus) of Ecosystem Studies 
 and Ecosystem Management, Department of Forest Science, Oregon State 
                               University

    Chairman Walden, members of the Committee, staff members, thank you 
for the opportunity to testify.
    My name is Dave Perry. I'm a Professor (emeritus) of Ecosystem 
Studies and Ecosystem Management in the Department of Forest Science, 
Oregon State University. I currently live in the Illinois River Valley 
near Selma, Oregon.
    I'll begin with a comment on the study by Donato and colleagues. In 
my opinion, it is a fine piece of work. That it has stirred up such a 
controversy calls to mind a plaque that forest service scientist, Jim 
Lotan, had on his office wall. The plaque had a single stirrup on it, 
and beneath the stirrup the inscription--He who tells the truth better 
have one foot in the stirrup''.
    Since the critics of Donato's work chose not to follow accepted 
scientific procedure and air their objections in the open literature, I 
can only guess what they are. I imagine a major criticism is that the 
study focused on short-term responses and did not account for long-term 
dynamics (something Donato et al acknowledged). This is a valid 
criticism, and it can be applied to virtually every study we have on 
forest ecology and forest management. Studies that span as much as two 
decades are rare, whereas the dynamics of these forests play out over 
many decades and centuries. The few long-term studies we have teach us 
that what you see today is not necessarily what you get tomorrow, which 
means that most of what we know must be considered provisional. If I 
could summarize 35 years of ecological research in a single phrase, it 
would be that nature loves to throw curveballs.
    The Sessions Report stressed the environmental benefits of active 
post-fire management, particularly with regard to reducing fire risk 
from standing snags and ameliorating the impact of brush on conifer 
seedlings. I want to discuss some of the environmental benefits of 
leaving fire-killed trees and the so-called brush species, both of 
which represent critically important biological legacies. I will 
briefly discuss three aspects: habitat, conifer regeneration, and 
susceptibility to future fires. I will conclude with comments on 
science's role in helping society find a proper balance between levels 
of utilization and maintenance of ecosystem health.
    Habitat. It's beyond the scope of my testimony (not to mention my 
expertise) to go into all the habitat implications of post-fire 
management, suffice it to say that big dead wood and noncommercial 
plant species are critically important habitat for a number of animal 
species. For example, a comparison of bird communities in salvaged and 
unsalvaged areas in Alberta found that ``resident species, canopy and 
cavity nesters, and insectivores were the least likely to be detected 
in salvaged areas'' (Morrisette et al 2002). In their review of the 
scientific literature, McIver and Starr (2001) found that
        ``Most cavity-nesters showed consistent patterns of decrease 
        after (post-fire) logging, including the mountain bluebird and 
        the black-backed, hairy, and three-toed woodpeckers; abundance 
        of the Lewis' woodpecker increased after logging...In general, 
        postfire logging enhances habitat for some wildlife species and 
        diminishes it for others''.
    At least one bird, the black-backed woodpecker (more common in the 
northern Rockies and the eastern Cascades than in the Klamath region), 
is critically dependent on fire killed trees. Montana has listed the 
black-backed as a species of high concern.
    Mast produced by oaks and tanoaks is an important food resource for 
many animals, as are madrone berries.
    Prominent hydrologists and fisheries biologists have raised 
concerns about the impacts of post-fire management on streams (Karr et 
al. 2004).
    Aids to conifer regeneration. In some cases standing trees (living 
or dead) and early successional hardwood trees and shrubs help rather 
than hinder conifer regeneration. I'll illustrate that with a story 
from my own research in SW Oregon. My students and I were trying to 
understand the factors underlying the inability to reforest high 
elevation clearcuts, which is a widespread problem in the portions of 
the west. One of our prime study sites was a degraded clearcut at high 
elevation not far from Oregon Caves National Monument. Like a number of 
other clearcuts in similar environments, this one had been cut in the 
early ``60's and despite several planting attempts had virtually no 
living conifer seedlings. Adjacent to this clearcut was a fully stocked 
80 year old conifer stand that was obviously established by fire. The 
fire would have occurred long before roads were put into that area, so 
the site presumably received no post-fire management of any kind. Yet 
it was a thriving forest, in sharp contrast to the neighboring 
unreforested clearcut. It seems nature knew something we didn't. 
Perhaps the climate had changed, but I doubt that's the explanation. To 
make a long story short, we concluded that it was the biological 
legacies represented by fire-killed snags and early successional 
sprouting shrubs that enabled trees to successfully reestablish on the 
burn (Perry et al. 1989). Standing boles, living or dead, provide what 
is essentially a greenhouse effect that reflects radiant heat loss back 
to the surface and thereby ameliorates temperature extremes (which is 
the basis for the old silvicultural technique called shelterwood). At 
high elevations in the west, where the window of establishment for a 
tree seedling may be very short, the extension of the growing season 
that results from a sheltering overstory--living or dead--can be a 
critical factor enabling seedlings to establish and survive.
    A number of studies have demonstrated the beneficial role of 
sprouting shrubs and hardwood trees. They protect soils and therefore 
streams, stabilize soil organisms that are important to conifer 
survival, induce conifer seedlings to form roots faster, and cleanse 
the soil of organisms harmful to conifers. Research following a recent 
wildfire on the San Dimas Experimental Forest, funded by the National 
Commission on the Science of Sustainable Forestry (NCSSF), used modern 
molecular techniques to study recovery of the soil biota (Egerton-
Warburton et al. 2005). Speaking of ectomycorrhizal fungi (EM), which 
form a critically important symbiosis with trees, the researchers 
concluded that
    The root zone of re-sprouting plants and possibly senescing roots, 
along with soil spore banks are--important sources of EM inoculum. 
Halting activities that impede the recovery of the EM, such as salvage 
logging, stump removal, site clearing or ripping, should be considered 
because these activities remove sources of inoculum. In addition, any 
mechanical disruption of the soils will limit plant access to resources 
transferred by common mycorrhizal networks.
    Planting conifers promptly (within one year) also stabilizes soils 
(if the seedlings survive). However, even if planted at high densities, 
seedlings will influence less than 10% of a site during their first few 
years. The more widespread cover provided by the naturally recovering 
vegetation is necessary for protecting soils and streams (seeded 
grasses can stabilize soil physical properties, but not the 
ectomycorrhizal fungi required by conifers). The San Dimas researchers 
went on to conclude that
        ``Adequate mycorrhizal inoculum exists within the soils of 
        natural communities for post-fire plant regeneration. 
        Plantation forests, however, contain lower fungal abundance and 
        species diversity, with the result that plant regeneration may 
        be slower due to limited mycorrhizal benefits (e.g., 
        aggregation, resource uptake)''.
    Fire Susceptibility. It's well known that fine fuels rather than 
standing dead boles carry fire, however snags can send up flaming 
brands and contribute to spotting. But the story is turning out to be 
more complex. Analysis by Thompson and Spies (2006) shows that areas 
salvaged and planted following the Silver Fire tended to burn with 
higher severity than comparable areas that burned in Silver but were 
not salvaged and planted. Initial results indicate a sudden change in 
weather was not a factor in the difference.
    Though not studied, standing dead timber seems likely to disrupt 
patterns of air movement that influence the behavior of subsequent 
fires. In later years, unsalvaged timber would become a source of soil 
organic matter and large down wood, both of which hold large amounts of 
water that would also influence the flammability of stands. To date, I 
am not aware of any models that take these factors into account. Our 
understanding of the full range of effects of unsalvaged timber on 
subsequent fires is poor.
    Studies and observations both show that certain hardwood species 
retard the spread of fire and protect intermixed conifers (something 
foresters of 100 years ago knew and used). In one natural experiment, 
the Longwood fire (part of the Silver complex) burned through a 
plantation that was the site of a brush control study. All conifers in 
the area where the brush had been removed were killed. All conifers 
intermixed with the brush were alive, and appeared to be completely 
unaffected by the fire. This example calls to mind Aldo Leopold's first 
rule of intelligent tinkering, to keep all the pieces. It also cautions 
about premature judgments and the need to incorporate risk into our 
decisions. Measurements of the effects of brush on conifer growth would 
have reached quite different conclusions depending on whether they were 
made before or after the fire.
    Finding balance. The weight of scientific knowledge cautions 
against significant modification of ecosystems recovering from severe 
disturbance. Vital systems could easily be disrupted and ecosystem 
health jeopardized. This is not to say, however, that all post-fire 
management is inappropriate. The ``brush'', for example, performs 
important ecological functions but it also competes for resources. 
There is no reason that competition can't be managed on a spot basis 
while preserving the overall functioning of the noncommercial plants. 
Similarly, I believe some economic value can be captured in salvage 
without compromising the ecological values of fire-killed trees, 
however that is a hypothesis to be tested. There is precedent. 
Following the Silver fire, the USFS worked salvaged 50% and left 50%. 
Salvage was done with helicopters to minimize site impacts.
    As recognized in the Walden Bill, science has a crucial role to 
play in helping policy makers find balance. We cannot maintain healthy 
and productive ecosystems unless we know how they work, and there is 
still much to be learned. Other testimony goes into research needs in 
some detail and I will be brief. Two general types of research will be 
needed: (a) rapid response to study natural patterns of recovery, and 
(b) manipulative experiments.
    In a recent issue of the Proceedings of the National Academy of 
Science, Robert Holt wrote,
        ``Ecologists increasingly recognize that the structure of 
        natural communities reflects the interplay of processes acting 
        over a wide range of temporal and spatial scales that are well 
        beyond the scope of manipulative experiments''.
    The ability to respond quickly with post-disturbance research aimed 
at understanding the processes of natural recovery (in other words 
letting nature teach us) is critically important. The National Fire 
Program and the NCSSF have funded such research on several recent 
wildfires (NCSSF is sponsoring a symposium in Denver in April to review 
some of the findings). It is important that continued funding be made 
available for such studies.
    Manipulative experiments still have an important role to play. 
Finding balance involves exploring options that can only be achieved by 
manipulation, such as different levels of salvage or brush control.
    Finally, it would be highly desirable for scientists and managers 
to form rapid-response collaborations, which would develop options for 
management response to each large disturbance on public lands,. Each 
group has a critical role to play: managers know their objectives and 
their ground better than scientists do; scientists bring knowledge of 
relevant, cutting edge science (e.g., landscape ecology, modern 
disturbance ecology, ecosystem management, risk analysis). Following 
the model established by the Northwest Plan, the objective should be to 
produce a set of options for policy makers to choose from, not a single 
approach. Unlike the Northwest Plan, these options would have to be 
developed within a short time-frame. A general strategy will be 
necessary to guide the tactical approaches to individual situations. 
Lindenmayer et al (2004) made that point clearly:
    Large-scale salvage harvesting is often commenced when resource 
managers are in ``crisis'' mode following wildfires. Major decisions 
are made rapidly, often with long-lasting ecological consequences. A 
better approach would be to formulate salvage harvesting policies 
before major disturbances occur again. Such policies should make 
provision for the exemption of large areas from salvaging such as 
national parks, nature reserves, and watersheds closed to human access 
to maximize water quality. Furthermore, wherever salvage harvesting 
continues, carefully formulated prescriptions are needed to guide the 
timing and intensity of such operations. This is essential to both 
maintain the regenerative potential of recovering stands (15) and 
ensure the retention of biological legacies such as dead trees, live 
trees, logs, and islands of undisturbed or partially disturbed 
vegetation.
    Similarly, Karr et al (2004) offered 10 recommendations for 
minimizing impacts on streams by post-fire management.
    The formation of rapid response collaboration teams is more easily 
said than done, and the general framework will require planning. I 
suggest that a first step would be to bring together a blue-ribbon 
panel of scientists and managers to work out a strategy for forming 
such teams and to develop general guidelines for protecting the 
resource base along the lines of those published by Lindenmayer et al 
(2004) and Karr et al (2004).
    In conclusion, I would like to thank the committee members and 
staffers for the opportunity to testify.
Literature cited.
Holt, R. 2006. Making a virtue out of a necessity: Hurricanes and the 
        resilience of community organization PNAS 103 2005-2006.
Karr, James R., Jonathan J. Rhodes, G. Wayne Minshall, F. Richard 
        Hauer, Robert L. Beschta, Christopher A. Frissell, and David A. 
        Perry. 2004. The Effects of Postfire Salvage Logging on Aquatic 
        Ecosystems in the American West. BioScience 54, 1029-1033.
Lindenmayer, DB, D.R. Foster, J.F. Franklin, M.L. Hunter, R.F. Noss, 
        F.A. Schmiegelow and D. Perry 2004. Salvage Harvesting Policies 
        after Natural Disturbance. Science 303, 1303
Morissette, J.L., T.P. Cobb, R.M. Brigham, and P.C. James . 2002. The 
        response of boreal forest songbird communities to fire and 
        post-fire harvesting Can. J. For. Res. 32(12): 2169-2183
McIver, James D. and Lynn Starr. 2001. A Literature Review on the 
        Environmental Effects of Postfire Logging. WJAF 16, 159-168
Perry, DA, MP Amaranthus, JG Borchers, S. Borchers, and R. Brainerd. 
        1989. Bootstrapping in Ecosystems. BioScience 39, 230-237
Thompson, J. and T. Spies. 2006. Presentation at fire workshop in Gold 
        Beach, Oregon, February 8th, 2006.
                                 ______
                                 
    Mr. Walden. Thank you, Dr. Perry. We appreciate this. It's 
most helpful.
    Mr. Drehobl, you're our wrap-up witness. Thank you for 
being here today. We look forward to hearing your testimony as 
well.
    Please go ahead, sir.

                  STATEMENT OF RICH DREHOBL, 
                   RETIRED BLM FIELD MANAGER

    Mr. Drehobl. Thank you for inviting me, I think.
    I'm sorry that Yogi left because I was looking forward to a 
lively debate over how forests evolved and how you could regrow 
forests. And I think it's unfair that Mr. Inslee started this 
news media blitz and he walked out in the middle of the 
testimony. I wish he were here.
    I retired from the BLM just the first of this year. I've 
been a manager--well, I was a resource specialist, planner for 
the Bureau for seven years and a manager for 26, the last 18 
here in south--Southern Oregon, the Ashland Resource Area.
    I received a number of awards while I was here in Oregon, 
and I'm going to tell you about these not to brag, but rather 
to let you know that I--I don't have the credentials of Dave 
Perry and Jerry Franklin and Hal Salwasser, but I've been a 
practitioner of applied science for those 26 years. I received 
award from the Public Lands Foundation, which is a group of 
retired BLM employees, headquartered in Washington, D.C., from 
directors on down to resource specialists. So the award was 
very special to me. It was for outstanding public land 
professionalism of the year--public--outstanding public land 
manager of the year, for developing the agency's, BLM's first 
new forestry project while working under extreme, heavy and 
diverse public opinion, and for bringing industry and 
environmental groups together on contentious issues. And I see 
a lot of folks on both sides of this issue in the audience here 
today.
    I also received an award from Oregon/Washington State 
office of BLM, also recognized me for being on the leading edge 
of implementation of all facets of the Northwest Forest Plan 
through innovated approaches to ecosystem based management on a 
landscape scale and in a collaborative manner.
    Dr. Dave Perry was very instrumental in helping me do this 
paradigm shift, a very important paradigm shift on how we 
manage the public lands/forests, as was Dr. Franklin, although 
I didn't have direct interaction with Dr. Franklin. I attended 
many of his presentations and read his work. So these folks had 
an influence on me. I appreciated good science. I implemented 
good science, even under adverse conditions. A couple of my 
former bosses are sitting in the audience, and they can attest 
to the fact that it was no picnic at that time.
    Dave Perry said in his 1994 book, titled Forest Ecosystems, 
in the preface he was talking about the need to explain the 
complexities and the intricacies of ecosystem functioning in 
his book to--college students are going to have one course in 
ecosystem. And he further said that it has to be a reservoir of 
science, not only for students, but for practicing land 
managers, for scientists, and increasingly for public land 
policy folks, as yourselves, and for the private citizen who 
has a very vested interest in how our public lands are managed.
    So that one's gonna--yeah, you can just click them all up 
there at one time. Thank you.
    As a manager and a practitioner of applied science, I was 
responsible for implementing science-based projects on an 
ongoing basis. And we reviewed these--this science on every 
project that we did, nearly every project. We reviewed--we made 
a determination of its applicability. And I can tell you, after 
26 years of doing this--actually 33 years--there is a lot of 
science out there purported to be science, which upon a closer 
look is nothing more than an advocacy statement. And we call 
that junk science.
    I had criteria for separating out sound science from the 
junk science, and it's pretty simple and you apply the 
following test. And if I could read it, I'd read it to you, if 
I could see. So maybe--I don't know if everybody in here can 
see that far. Does the report provide any new information? Is 
there any information that is previously unknown that may 
influence my decision as a manager? Are the conclusions 
supported by the data? Is there sufficient data to cover the 
area of inference? Are the conclusions independent and agenda 
free? Is it intended to influence a point of view? Are there 
relevant and important factors that were not disclosed that 
would change the conclusion?
    After the 2001 Quartz Fire I had asked Dr. Sensenig, who 
was a forest ecologist on my staff at the time, because we were 
trying to do a salvage and we had a lot of--a lot of discussion 
going on, even some within my interdisciplinary team, my own 
scientists, on not knowing what to do. Dr. Sensenig came back 
and said there's not a lot of information available on post-
fire in southwestern Oregon, and a lot of the work that was 
done was on industrial land, so it wasn't really applicable to 
how we were managing on the public lands. So I asked for and I 
wholeheartedly supported the research project that's the 
subject here today.
    And I've been following the news media blitz with all this 
controversy that's going on and BLM being accused by one media 
person that I really respect, which is Russell Sadler, and I 
worked with Russell when he was living in Ashland. I'm really 
disappointed that he has made this dance without finding out 
the facts. But I couldn't--in light of all this frenzy, I could 
no longer sit in retirement. I came out of retirement, and for 
hopefully maybe one last time, but maybe never say never. But 
the notion in the media that the BLM is stifling academic 
freedom is absolutely false.
    Academic freedom does not apply to intentionally misleading 
or publishing disingenuous or politically motivated science 
that's funded by taxpayers. That is not sound science. And I 
can understand the temptation of scientists to maybe want to 
sway the data a little bit to influence a decision for or 
against. But that's not ethical. If you're a scientist, you got 
to be a scientist. Otherwise, you're an advocate.
    So let's look at the test. Does the report provide any new 
information? Is there any information that is previously 
unknown that may influence the decision?
    And I'm going to have to get--does that microphone work up 
here, do you think? If I may, I'm going to stand up here 
because I can't see that far. OK. That's good. It must be my 
aged eyes.
    In the report seedlings and debris were measured two years 
after the fire of '04 and once after the felling of the trees 
in the salvage logging of '05. This is insignificant in terms 
of effects of salvage.
    Seedling mortality is expected to occur in any operation. 
This could have been a green timber sale. It could have been a 
salvage sale. It doesn't matter. If you have seedlings present 
and you're doing any kind of salvage and you take that into 
account, or any kind of logging, you take that into account 
prior to dropping the trees. There's no new science there. We 
know you're going to disturb seedlings.
    There's lots of information on expected seedling mortality 
and seedling damage during harvesting. Nursery seedling orders 
reflect the fact that we're going to need more seedlings. If 
they're present, we're going to damage them.
    Go ahead on that please. OK. Next line.
    So, again, there's no new information.
    Another test. Are the conclusions supported by the data? Is 
there sufficient data to cover the area of inference?
    Post-fire natural regeneration varies greatly in Southern 
Oregon, and that's why I had asked Doug if I could go after 
these renowned ecologists because that was--there was no 
mention in his report, anything about the site. What was the 
elevation? What was the aspect? What was the plant association? 
What was the precipitation and what was the available soil 
moisture? The natural soil moisture is probably a critical 
factor in this dry climate on seedling survival. He could have 
1,500 seedlings per acre as he said in the report, and maybe 71 
percent of them were damaged in the harvesting. So what? 
Twenty-nine percent is more than adequate probably for that 
particular--the carrying capacity of that particular site. And 
also what kind of seedlings were they? I don't know that.
    There's no mention either in the report of a land use 
allocation for this area. There's four possibilities in the 
Biscuit Fire. It could have been Kalmiopsis Wilderness, which 
it was not. It could have been the Brewer's First Natural area, 
which it was not. It could have been a late seral reserve, 
which it was not. Or it could have been the matrix lands, which 
by the Northwest Forest Plan are for timber production. That's 
where it was at.
    So it's only--by law, the agencies should have aggressively 
pursued stabilization and rehabilitation, whether they were 
going to log or not. The agencies, in their defense, are kind 
of--have two hands tied behind them, they're shackled and they 
got a blindfold over one eye, because they're short on staff 
and, quite frankly, the paper monkey-wrenching and the judicial 
obstructionism that is occurring is very, very effective, and 
it was not possible to get that out.
    Had the--had the salvage occurred when it should have, been 
aggressively pursued, there wouldn't have been any seedlings 
destroyed. There would have been the seed bed prepared and you 
would have had probably more seedlings than you got in this 
case.
    So to typify salvage from data that is infinitesimal 
relative to the area of inference is improper and a gross 
misuse of the data.
    One back, please. That's OK. I can tell you.
    The Biscuit Fire was 500,000 acres. It was 700 square 
miles. That's a large area to make--to draw these inferences 
from one--from one study.
    Are the conclusions independent and agenda free? Is it 
intended to influence a point of view?
    In the paper submitted to Science, the journal Science, the 
authors stated that their intentions were to inform the 
dialogue on pending House Bill 4200. This statement was 
incriminating, and they requested that Science--to Science that 
it be removed.
    The Hatch Act.
    Recipients shall not use any part of the Government's funds 
for any activity or the publication or distribution of the 
literature that in any way tends to promote public support or 
opposition to any legislative proposal on which Congressional 
action is not complete. However, the use of Federal funds to 
mislead the dialogue on pending legislation is precisely what 
the Hatch Act was enacted to prevent.
    These are the wordings. And I put these on slides because I 
want you to read them for yourself. Legislation currently--this 
was submitted January 5th, the original publication.
    Legislation currently pending in U.S. Congress, H.R. 4200, 
would expedite post-fire logging projects, citing reforestation 
and fuel reduction among its goals. To help inform the 
dialogue--or more correctly to help sway the dialogue perhaps--
to help inform the dialogue, we present data from a study of 
early conifer regeneration and fuel loads following the 2002 
Biscuit Fire, Oregon, U.S.A., and with and without post-fire 
logging. Natural conifer regeneration was abundant with high 
severity fire.
    Post-fire logging reduced median regeneration density by 71 
percent and significantly increased downed woody fuel loads and 
thus short-term fire risk. Post-fire logging can be 
counterproductive to stated goals of ecosystem restoration.
    The underlying words now on January 20th were changed, and 
you can see that that was dropped out and the addition to, 
reduction of fuels as necessary for effective mitigation. They 
failed to mention that mitigation of fuels was programmed. It 
was already planned. But there's no mention of that.
    Mr. Walden. Mr. Drehobl, if I could get you to kind of 
wrap. We've got about ten minutes and----
    Mr. Drehobl. I'm going to pick on everybody, so I should 
have more time. I'm not just going to pick on Mr. Donato.
    Mr. Walden. Well, we've got to wrap the whole hearing up in 
about 15 minutes and so----
    Mr. Drehobl. Go ahead then. Go ahead.
    There's specifically requirements. This has been discussed 
already, about the specific requirements. Mr. Donato said he 
didn't know they were there.
    Let's keep going. I do want to pick on some other people.
    OK. No, let's keep going.
    Conclusions were out of context. I talked about that 
already. If salvage had been done when it should have been, you 
wouldn't have destroyed any seedlings. Probably have more.
    Of course wood debris was another thing. That was already 
prescribed. They failed to mention that. They just criticized 
the fact that they're going to be removing it.
    So in wrapping up, management perspective. From a--from a 
person that applied science, tried to apply it, did not provide 
any new or useful information, compromised the trust between 
the agencies and the university and the public, compromised a 
potentially worthwhile study, got it detailed and somehow 
politicized it, cost the taxpayers $308,000, made no 
contribution whatsoever to science, damaged the image of 
university researchers, and intentionally misled the dialogue 
of post-fire management in pending legislation.
    It's obvious a violation of the Hatch Act.
    If I could have a few more minutes, I would like to pick on 
you folks. All right.
    Mr. Walden. You wouldn't be the first. Or the last.
    Mr. Drehobl. Yeah.
    I was doing pretty well until this morning's Mail Tribune 
article came out, and my anxiety rose. And I'm glad we had the 
hearing this afternoon. Otherwise, I'd have some medical 
emergency because if I didn't get it off my chest.
    In the Mail Tribune this morning Yogi was quoted as saying 
he wants to publicly burn the fingers of an administration he 
believes tries to prevent scientists from speaking out if it's 
contrary to administrative policy. Further, he states it needs 
to have the whistle blown on it.
    Well, hey, hey, hey, bring it on. I'm ready. It should be 
investigated. I welcome an investigation to get the truth out 
of this.
    Mr. DeFazio is quoted as saying, to pull the funding was 
simply stupid. And he's referring to the Director of BLM, 
Kathleen Clarke.
    Further, Mr. DeFazio said that there's nothing wrong with 
policymakers having a wide range of facts. I agree 100 percent, 
Congressman. But please don't select in what facts you gather. 
Get all the facts and look at them before you call it stupid.
    I also agree with the Representative Inslee, Yogi. This 
does need to have the whistle blown.
    So as a taxpayer, an official originally responsible for 
this study initiating, I'd like to go on record as requesting 
an investigation, that to house something so unethical and 
illegal could not only have occurred, but is authorized to 
continue.
    This paper contained absolutely no new information, and 
what it did report was taken so far out of context it is 
meaningless. There is no useful information for a manager 
whatsoever.
    Although what these authors managed to pull off is obvious, 
and every level, including the media and Russell Sadler, Oregon 
State University, the Bureau of Land Management, and the 
journal Science, had access to the truth, none could find it 
within their system to face the truth. Apparently, all had 
their reasons. I don't know what those would be. But I would 
like to know and I'd like the public to know the truth.
    Mr. Walden. All right.
    Mr. Drehobl. So I'm saying let the scientific researchers 
practice honest, unbiased, nonpartisan forest science and let 
the politicians practice honest political science. That may 
have been an oxymoron. I don't know.
    Thank you.
    [The prepared statement of Mr. Drehobl follows:]

 Statement of Richard John Drehobl, Retired Bureau of Land Management 
        Manager of 33 years, Representing Self, Medford, Oregon

    My name is Richard Drehobl and I recently retired as a field 
manager for the Bureau of Land Management. Over my 32-year career I 
managed hundreds of thousands of acres involving nearly every social 
and ecological issue conceivable. I graduated from the University of 
Arizona in 1972 with majors in Forestry, Range Ecology, and Natural 
Resource Planning. My career covered the. Public Domain lands of 
California to the O&C lands of Oregon, both as a resource specialist 
and manager in both states. Over the last 18 years I have been the Area 
Manager of the Ashland Resource Area the most complex single 
organizational unit in the Bureau of Land Management. I received the 
Department of the Interior's second highest reward, the Superior 
Service Award for ``outstanding contributions to the natural resource 
programs in the Bureau of Land Management. I also received an award 
from the Public Lands Foundation as ``Outstanding Public Land 
Professional'' for ``developing the Agency's first `new forestry' 
project while working under extremely heavy and diverse public 
opinion''--and for bringing ``industry, environmental groups together 
on contentious issues.'' The Oregon/Washington BLM State Office also 
recognized me for being on the leading edge in implementing all facets 
of the Northwest Forest Plan through innovative approaches to ecosystem 
based management on a landscape scale and in a collaborative manner.
    Although I had some rough times, I owe my success to my 
perseverance and insistence and pursuit of quality and honest work. 
Upon retirement I thought that I could finally put my career behind me 
and move on to the things that I enjoy doing that weren't possible 
while working. . However one of the issues before us tonight is quite 
serious, serious enough to bring me out of retirement at least one more 
time.
    As a manager, I was responsible for implementing science based 
projects on an on-going basis. Nearly every project involved a science 
review, evaluation and a determination of its applicability. And I can 
tell you that there are a lot of papers out there that purport to be 
science that upon closer look are nothing more than advocacy 
statements. Mangers have a name for these papers, we call it junk 
science. I had a stack of junk science paper this deep. My criteria for 
separating out sound science from junk science is simple and the 
following list provides the tests;
    1.  Does the report provide any new information? Is there any 
information that is previously unknown that may influence my decision.
    2.  Are the conclusions supported by the data? Is there sufficient 
data to cover the area of inference?
    3.  Are the conclusions independent and agenda free? Is it intended 
to influence a point of view?
    4.  Are there relevant and important factors that were not 
disclosed that would change the conclusion?
    First of all I would like to make it clear that I'm not here to 
talk about the pro or cons of salvage logging, that's why the renowned 
scientist are here, frankly I don't care. What I do care about is what 
happened to what was otherwise a good study under my watch, one that I 
wholeheartedly supported, but was commandeered to promote a political 
agenda.
    I'm referring to the Science paper ``Post-Wildfire Logging Hinders 
Regeneration and Increases Fire Risk D. C. Donato, J. B. Fontaine, J. 
L. Campbell, W. D. Robinson, J. B. Kauffman, B. E. Law ``
    In 2002, after the Quartz fire in southern Oregon, I requested a 
review of the options relative to post fire management of the Quartz 
fire, because little information was available on southern Oregon post 
fire management, and to address the controversy over post fire 
management. I requested and supported the study proposals presented to 
the joint Fire Science Program by Doctors Boone Kauffman, Tom Sensenig 
and Douglas Robinson in 2003. Because I was the BLM manager at the 
time, I had, and still have, a vested interest in this project. I've 
been following the media fury which they have made a global issue
    I could no longer sit back and watch the frenzy of misinformation 
continue. The notion that censorship or suppression of academic freedom 
is what is going on is absolutely false. Academic freedom does not 
apply to intentionally misleading or publishing disingenuous or 
politically motivated science funded by the taxpayers. I can understand 
the temptation for scientist to over state there data to further 
something that they do or don't support. However I believe this is 
unethical, especially when federal money is involved.
    Lets talk facts:
    I believe that this research started out as a sound study having 
the potential to make important contributions to our knowledge relative 
to post-fire management. However, at some point it became derailed for 
political purposes. The authors made an ``end run'' to Science avoiding 
all of the required PSW, BLM and OSU protocols that would have revealed 
their objective. The authors intentionally prepared, submitted and 
published this Science without informing the agency or Dr. Sensenig the 
co-Principle investigator and Project Inspector responsible for 
overseeing the implantation of the agreement.
    They portray this as miscommunication. I believe that 
characterizing ``no communication'' as ``miscommunication'' is wrong. 
The agreement clearly states:
          ``Recipients must obtain prior Government approval for any 
        public information releases concerning this award, which refers 
        to the Department of Interior or any employee''
          ``The specific text, layout, photographs, etc. of the 
        proposed release must be submitted with the request for 
        approval''
    The agreement further states:
    Government Requirement.
          ``Provide timely review and comments on the document produced 
        by this study and work in partnership on the project''.
    The test:

Does the report provide any new information? Is there any information 
        that is previously unknown that may influence my decision?
    There is no new or useful information in this study. Seedlings and 
debris were measured before and after felling of trees at one point in 
time. Seedling mortality is expected to occur in any operation. There 
is lots of information on expected seedling mortality and seedling 
damage during harvesting. Nursery seedling orders reflect unanticipated 
lose of seedlings during logging. Seedling loses as a result of logging 
occurs regardless of what type of operation is being conducted. It 
could have been a green tree project or even a thinning had seedlings 
been in the under story. The authors misleadingly portrayed this as 
being unique to salvage.

Are the conclusions independent and agenda free? Is it intended to 
        influence a point of view?
    In the paper submitted to science on November 21, 2002, the authors 
stated that their intention was to ``inform the dialogue on pending 
House Bill 4200, apparently realizing that this statement was 
incriminating, they requested that it be removed. Because this report 
contains no new information, and the results are reported out of 
context it is essentially useless to science, thus there is no other 
possible purpose than to influence legislation. The use of Federal 
funds to ``mislead the dialogue'' on pending legislation is precisely 
what the Hatch Act was enacted to prevent. By the authors simply 
stating that this paper had no political purpose, does not make it 
true. All circumstantial and physical evidence indicate otherwise. 
Their actions clearly speak for themselves. The agreement clearly 
states

Opposition to any Legislation
    Recipients shall not use any part of the Government's funds for any 
activity or the publication or distribution of the literature that in 
any way tends to promote public support or opposition to any 
legislative proposal on which Congressional action is not complete.

Are the conclusions supported by the data? Is there sufficient data to 
        cover the area of inference?
    The data were collected on limited number of sites using 75m 
transects 1/2 meters wide. The diversity of the southern Oregon 
landscapes which varies greatly by slope, elevation, precipitation, 
plant association, tree species, and stand structure. To typify salvage 
from data that is infinitesimal, relative to the area of inference is 
improper and a gross misuse of the data. The Biscuit fire alone covered 
over 700,00 square miles and some 700,000 acres.

Are there relevant and important factors that were not disclosed that 
        would change the conclusion?
    There were many important factors that were not disclosed in the 
report: 1. had the salvage operation been conducted immediately and not 
delayed because of the required administrative processes, seedling 
recruitment would have occurred post disturbance and seedling numbers 
would have remained unaffected. 2. seedling recruitment is likely to 
continue over time and thus the disturbed areas will possibly have more 
seedlings than the undisturbed areas in subsequent years. 3. The number 
of residual seedlings surviving after logging is, in many cases above 
adequate levels, and represent tree densities observed in old-growth 
stands.
    The report concluded that salvage logging increased fire hazard. Of 
course logging creates debris. This is also to be expected and is not 
new information. What we were not told is that where necessary, fuel 
reduction treatments were planed. In addition course wood was 
prescribed to be retained on site by the contractor during the 
operation to enhance long-term site productivity. To report that a fire 
hazard was created was to use the data out of context and intentionally 
misleading.
    Although what these authors managed to pull-off is obvious, and 
every level including the media, OSU, BLM, and Science had access to 
the truth, none could find it within their system to face the truth. 
Apparently they had their reasons. However, the truth is what compels 
me to be here today.
    When I first read the paper I could not believe what I was reading. 
This work is an insult to me. The paper contained absolutely no new 
information and what it did report was taken so far out of context it 
is meaningless. There is no useful information for a manager in this 
paper, none. It's obvious this paper was about influencing pending 
House bill 4200, pure and simple. This is unethical, in violation of 
the BLM agreement and is precisely what the Hatch Act was intended too 
prevent.
    I've been asked why the so-called ``Session'' report is any less 
unethical. Although I am not going to speak to that report, and really 
don't care what it says, however there are at least three distinctive 
differences. The ``Session'' report; did not involve Federal money, was 
not research and did not have the expectations of independence, clearly 
reveled the objectives of the paper up front and clearly defined the 
purpose of the report.
    In my 33-year career, I have not observed anything as unethical as 
this.
A management perspective on the Donato et al. paper,
    1.  Cost over $300,000.00 dollars of taxpayer money.
    2.  Did not provide any new or useful information.
    3.  Intentionally mislead the dialogue on post fir management and 
pending legislation
    4.  Made no contribution to science.
    5.  Compromised a potentially worthwhile study.
    6.  Damaged the image of university researchers.
    7.  Compromised the trust between the agencies, the University and 
the public.
    8.  Blatant violation of the Hatch Act.
    I would like to go on record as requesting an investigation as to 
how something so unethical and illegal could, not only have occurred, 
but is authorized to continue.
Exhibit 1. Dr, Sensenig's response to questions
    As co-PI, these are my questions and concerns, concerning the 
publication Donato et al.
    The research projects being conducted by OSU graduate students Mr. 
Dan Donato and Mr. Joe Fontaine are part of a cooperative effort 
between the USFS, BLM and OSU and are being funded by the Interagency 
Joint Fire Science program. However, the many anomalies in the process 
leading up to and the publishing of preliminary information raise 
questions as to the objectives of OSU and other authors. It should be 
noted that the types of data collected on the plots was more 
comprehensive that reported. It included information on shrub and forbs 
height and cover, live and dead biomass, root mass etc., yet only the 
information on regeneration and fuel hazard were selectivity presented. 
The title derived from regeneration and fire hazard is misleading. Why 
was pending House bill 4200, referenced in the report but later 
withdrawn? Note: requirement -Stipulation N, page 10.
    Also, why did all six authors withhold the fact that this 
publication was being prepared for, and submitted to Science for 
publication from the Bureau of Land Management (administrator of the 
project), U.S. Forest Service (co-operators), and violate required PSW 
research publication requirements.? Could it be that had any of the 
processes been conducted it is clear that the publication would not 
have gone forward in its present form. Why was publication so urgent, 
given the simplicity of the data used?
    In addition, the data did not support the conclusions displayed in 
the title. For example, damage to seedlings from logging is expected 
regardless if the trees are felled dead or alive. If protecting 
seedlings was the objective then perhaps a different plan may have been 
utilized. To imply that salvage is uniquely responsible was 
disingenuous. The report overlooks the fact that had the salvage 
operations been conducted immediately and not delayed, seedling 
recruitment would have occurred post disturbance and seedling numbers 
would have remained unaffected. Also, to report that residual debris 
from harvesting elevated the fuel hazard when it was clearly understood 
that subsequent fuel reductions treatments where planed was, at 
minimum, deceiving. In addition, coarse wood was prescribed and 
required to be retained by the logger. Therefore, I believe that this 
paper unfairly served to feed one side of the ongoing political debate 
over salvaging logging
    Shortcomings like these are usually identified during the Journal 
peer review process, however, as indicated by many OSU and other 
distinguished scientists, in this case, the peer review process failed 
to identify these shortcomings.
    The way in which this publication was prepared, used the data, 
reviewed, released, and the misleading conclusions, give the 
appearance, and raise the possibility that it was intended to influence 
public policy on this contentious issue
Exhibit 2. Dan Donato's first reveling of their publication
    ``Donato, Dan'' <Dan.Donato@oregonstate.edu>
    01/04/2006 07:17 PM Tom-
    Here's that paper. Do read it with an open mind. It is a simple 
presentation of numbers, with a few implication statements relative to 
some of our common post-fire management goals. There is no good-or-bad, 
for-or-against verbiage in there. But people will run with it anyway. 
Best, D
    Dan Donato, Department of Forest Science, Oregon State University
    321 Richardson Hall, Corvallis, OR 97331
    ph: 541.231.7273 fax: 541.737.1393
Exhibit 3.
    The publication was kept secret and not revealed to the project 
inspector until January, 4th 2006. The paper was submitted to Science 
November 21st, 2005 Memo sent to the authors by Dr. Sensenig, a 
Principle Investigator and the Project Inspector upon seeing the 
publication for the first time on January 9, 2006.
    Dan and others:
        ``I feel compelled to briefly respond to your recent report. 
        Dan, as you know, this project was conceived by Boone Kauffman 
        and I during the development of the Quartz fire salvage plan, 
        because of the uncertainty and lack of creditable science on 
        several issues. Doug Robinson added the wildlife part later. 
        After considerable work, our proposal was funded and I received 
        the funding when I was the ecologist for the BLM, which I 
        transferred to OSU. Also, as you know, I spent a great deal of 
        time defending the credibility of these OSU studies this past 
        summer during your troubles, when It was perceived by some to 
        possibly have an underlying agenda. I am a principle 
        investigator on these studies, yet I was not provided even a 
        draft report. The timing and handling of the events that led to 
        this situation gives the perception of a political stunt. That 
        fact that preliminary data was intentionally used for political 
        proposes seriously undermines my and your scientific 
        credibility regardless of the quality of the science. Being 
        tasked with explaining and responding to this puts me in a very 
        precarious situation, which I don't particularly appreciate.
    I don't think that I'm the one that needs to be reminded to keep an 
open mind. As I have explained on several occasions, I am not for or 
against salvage logging or anything else for that matter. Every action 
has consequences (effects) and good and bad are human imposed values. 
Effects are only good or bad when evaluated against the objectives. 
Good science, explains the observation in context, including size, 
scope, limitations and variability. That being said, the title of this 
report is misleading and feeds one side of the debate without 
sufficient information to understand the limitation of the 
observations. Your title makes assertions from the numbers, it does not 
constitute facts. Title ``Post-Wildfire Logging Hinders Regeneration'' 
does it? Maybe. For example, the remaining trees may well be sufficient 
to constitute a fully occupied stand? What about timing, had the 
salvage operation been conducted immediately and not delayed because of 
the required administrative processes, seedling recruitment would have 
occurred post disturbance and seedling numbers would have remained 
unaffected, yet it was salvaged logged. Will seedlings continue to 
recruit into the stand over time creating ecological complexity or even 
result in more seedlings? on and on.
    Title ``Post-Wildfire Logging Increases Fire Risk,''--does it? 
Maybe. The data showed an increase in fuel one/two years following the 
operation and before fuel treatment. This does not equate to fire risk. 
Fire risk is much more complex. It involves landscape scale analysis of 
current conditions, fuel continuity, vegetation structure and 
probability if ignition. Etc. Also, what about longer-term conditions 
when fine fuels decompose? etc. This assertion is quite the leap from 
the data.
    Despite my harsh criticism of how this has been handled, I still 
feel your work is good and will prove valuable in future management. We 
just need to be more careful and not read more from the numbers than 
just good science.''
    Thomas Sensenig
    Southwest Oregon Zone Ecologist
    Rogue River-Siskiyou, Umpqua National Forests
    333 West 8th Street
    Medford, Oregon 97501
    (541) 858-2319
    Fax (541) 858-2330
Exhibit 4 Dr. Sensenig response to the contracting officer over OSU 
        reference to miscommunication.
To: Contracting Officer, Steve Shapiro
From: Tom Sensenig, Principle Investigator, and Project Inspector
Subject: Communication Regarding Donato et al. Publication
Date: 02-10-2006
Identification of Authors:

    Dan Donato and Joe Fontaine: Our study plan included an objective 
for supporting several student degrees including PhD and Masters 
program. Dan Donato and Joe Fontaine are the graduate students selected 
per study plan. Dan is a Masters student in the Department of Forest 
Science and Joe is a PhD. student in Department of Fish and Wildlife.
    Douglas Robinson and Boone Kauffman were original OSU co-principle 
investigators along with myself. Boone now works for the Forest 
Service, Institute for Pacific Island Forestry in Hawaii. Douglas 
Robinson works in OSU's Department of Fisheries and Wildlife.
    Bev Law: Although not part of the original study, it's my 
understanding that Boone recruited Dr. Law to join the project upon his 
leaving OSU to work for the Forest Service.
    John Campbell: I have no knowledge of John Camble's participation 
or role in this project. He was not identified in the study plan, any 
of the agreements nor had the other PIs or students mentioned that 
others were involved. I did not authorize his involvement and I don't 
know if he received any of the BLM's funds. His contribution, if any, 
is unknown.
Science publication background and/or lack of background
    The publication Post-Wildfire Logging Hinders Regeneration and 
Increases Fire Risk by D. C. Donato, J. B. Fontaine, J. L. Campbell, W. 
D. Robinson, J. B. Kauffman, and B. E. Law was submitted by these 
authors to the Journal of Science on November 21, 2005. Because 
information on the preparation and draft reviews among the authors has 
not been divulged it is not known when the process of development for 
this publication actually began. Typically several months or more is 
common. Therefore, preparation of this publication presumably began in 
October or before.
    The Rogue River-Siskiyou and Umpqua National Forests conduct their 
annual business and science conference in Gold Beach, Oregon during the 
second week of February. I was informed in late November that the 
science portion of the 2006 conference was going to focus on the 
research currently being conducted on the Biscuit fire, and that the 
Joint Fire Science project, on which I'm a principle investigator and 
project inspector, is in the program. Science coordinator Robyn 
Darbyshire, had requested that both Dan Donato and Joe Fontaine 
prepared presentations for this conference. I called Dan Donato in 
early December to schedule a meeting where we could prepare for this 
conference. I said that I would like to discuss their progress and go 
over any presentational material in preparation for the February 
conference. I scheduled a meeting for Thursday, December 15, 2005, in 
Corvallis Oregon. Despite having already prepared and submitted their 
paper to Science Dan did not offer any information regarding the other 
authors' involvement or the fact that they had submitted a paper for 
publication.
    As scheduled, I met with Joe Fontaine and Dan Donato on December 
15, 2005 in Corvallis Oregon to prepare for this conference. Contrary 
to what the OSU letter indicated, I scheduled this meeting, not them, 
and it had nothing to do with their publication. Both Dan and Joe 
showed me some PowerPoint slides that they had prepared. Joe discussed 
the wildlife aspects of the projects, mostly on deer mice. Although the 
study is comprehensive and involves many types of data, Dan only 
prepared slides on seedling counts and fine and coarse wood transects. 
He did not discuss any other aspects of the study. Curious about this, 
I asked about the other parts of the study. He indicated that he did 
not have time to look at these data yet, and that regeneration and fuel 
hazard are the two factors on which pending House Bill 4200 is based. 
Because, I was not familiar with House Bill 4200 at that time, I asked 
him to explain what he was talking about. Because these projects were 
not complete, was preliminary and because they had kept their 
publication from me; I had no reason to suspect any wrongdoing at his 
time. In closing, I asked them to send me any information. I did not 
receive any information until January 4th when Dan e-mailed their paper 
to my office.
    Had I not scheduled this meeting, there would not have been any 
communication between any of the authors with me prior to publication. 
None of the authors had, at any time, contacted me, nor was I provided 
any of the draft or final documents. It was only a matter of 
happenstance for Joe and Dan to have had this meeting prior to the 
release of their paper. To imply that at this meeting I, in any way, 
condoned, approved, or authorized their publication, which I had no 
knowledge of, is wrong. In fact, to the contrary, for it was this very 
meeting that made me instantly realize, when I first read their 
headlines on January 9th, 2006, what these authors had done.
    On the afternoon of January 4, 2006, although I was on leave that 
week, I was in my office taking care of business. I received a call 
from the Rogue River-Siskiyou Forest officer Robert Shull and Illinois 
Valley District ranger Bam Bode. They asked me if I knew anything about 
a news release on the Biscuit fire salvage creating a fire hazard. I 
had no idea what they were talking about. I explained that our project 
is still underway and that there is still another year of data 
collection, so it's not our Joint Fire Science project. However, when 
they said that the author was Donato et al., I immediately became 
suspect and called Dan in Corvallis, and explained that I was asked 
about a ``Salvage'' publication news release with his name on it, and 
that I need to know what was going on. He explained that he and others 
had published a paper on salvage in Science. I asked who else was 
involved and then ask him to send a copy of the paper to me 
immediately. My computer received the following message from Dan Donato 
at 7:17 pm January 4, 1006. The timeline speaks for itself.
                                 ______
                                 
    Mr. Walden. All right. Thank you, I think.
    I also want the record to show I think you had the longest 
time to testify of anybody. So we didn't cut anybody off today. 
I appreciate you also had to wait the longest to give your 
testimony.
    So let me move right into questions. We're each going to 
get about five minutes, no more than that, and literally I have 
to be out of here no later than 4:35.
    And I want to go to Dr. Franklin, because you talked about 
the old growth ponderosa pines in eastern Oregon, which I'm 
probably more familiar with in terms of where I've grown up, in 
the Dalles and Hood River and out in that country over the 
years. And I was out in the Ochoco National Forest, and there 
had been a fire up in a wilderness area in part and outside of 
a wilderness area in part. And the Forest Service had tried to 
do some salvage logging, if you will, in the piece outside. And 
then across the basin and up the other side there was an old 
growth forest they were managing for old growth characteristics 
with all the usual things you've identified in eastern Oregon 
of the understory that's grown up.
    And that opportunity to do precisely what you said needs to 
be done, to thin out the small diameter that's growing up as 
ladder fuels and competing for moisture and everything else, 
was the plan they had in place, to remove that stuff so that we 
can preserve the big old beautiful ponderosa pines.
    That got challenged, appealed and litigated. In the 
meantime, the bugs came out of the forest where the fire had 
occurred--this is what the Forest Service tells me, their 
scientists--came down across the valley, up the other side, 
into this area that they had set aside to do thinning to 
strengthen these old growth pine, and guess what was attacked. 
The old growth ponderosa pine. And they're now dying.
    Somewhere in here we're not able to accomplish, even if we 
have the money, what you have told us we need to. What else do 
we need to do?
    Mr. Franklin. Well--wow. In one minute.
    Mr. Walden. Actually, I have another question, so 30 
seconds will work. No, I'm kidding.
    You know, I want to say you have told us repeatedly and 
thankfully you've come before our Committee and said you guys 
got to do this stuff, we got to manage better. And I'm just--I 
guess I'm not asking you that specific example to tell me what 
your prescription is. But I hope you--I think we share our 
frustration here.
    Mr. Franklin. Yes. So I think, you know, we do see a 
consensus coming together in these fire-prone--
uncharacteristically fire-prone--landscapes. And we need to fan 
the fire, the development of that consensus, so that we can 
move forward.
    I learned a lot about those areas working with Norm Johnson 
and his wife Deborah on that Klamath Restoration Plan. And I 
hope you have a chance to--to visit with us about it.
    Mr. Walden. I'd enjoy doing that.
    Dr. Salwasser, you can't come here and not comment 
something about what happened in your school of forestry. If 
you had to do it over again, what would you do differently?
    You've heard criticisms raised today about specific 
questions. I've raised them based on information I've only 
received in the last two days. Does any of that affect your 
view now? What would you do differently? What should we do? Do 
you feel that your school of forestry was somehow attacked by 
having the BLM--tell us what--how you folks reacted when it 
came to the BLM's decision to hold funding, which even Brian 
Baird and I wrote a letter and said, wait a minute, let's not 
get into academic freedom here.
    But what about this issue of following protocols. Mr. 
Donato said he was unclear that those protocols were even 
there. Can you shed some light on that.
    Mr. Salwasser. Yeah. First, we took the letter from BLM 
quite seriously about their points about not being in 
compliance with a couple of the stipulations with the contract. 
And our legal office people immediately started talking with 
the authors of the article and--to find out just exactly what 
went on. And in their judgment this was not an issue of 
science, so we weren't even involved, but the legal people 
were. In their judgment, it was very much as Dan Donato said. 
There was a misunderstanding of what the expectation was for 
consultation.
    They--it was also clear that Science had not followed 
through on the request of the authors to remove the language 
from the draft of the article that said something about H.R. 
4200, and Science had not done that. And Science wrote a letter 
back saying it was our fault, not the authors' fault.
    And so we put that information together and sent it back up 
to the BLM contracting people. This is contract officer to 
contract officer and legal people, and they were sufficiently 
satisfied that they put the funding back on line.
    Mr. Walden. Did you feel or do your researchers feel like 
academic research was being suppressed as a result of that 
communication.
    Mr. Salwasser. Not at all. It wasn't a matter of the 
research. It was a matter of performance on the contract, on 
the specifics on the contract and----
    Mr. Walden. Because it's been characterized that way.
    Mr. Salwasser. I know, but that's an unfair 
characterization. The BLM's points had nothing to do with the 
substance of the science. It had to do with following the 
contract language. And once that was resolved, they were back 
on line. And our objective was to--was to find out what 
actually occurred and then--and I think everybody understands a 
little bit better. In fact, the project--the investigator for 
BLM, a new person has been down on campus, and we're working 
out the details about making sure we all understand what's 
expected.
    Mr. Walden. All right. Thank you, Doctor.
    And, again, to all our panelists, from my perspective, 
thank you for your testimony.
    Peter.
    Mr. DeFazio. Thank you, Mr. Chairman.
    And in response to that, Dr. Salwasser, and to Mr. Drehobl, 
I guess perhaps rather than being my usual blunt self, I should 
have said it was a precipitous decision made hastily which had 
to later be reversed which was stupid. And that was--so, you 
know, in any case, I mean, you know, but that's really not 
relevant here. And I understand there's some varied opinions.
    Let me--I want to get back to the bill because the two of 
you were there, in a hearing there, and there's unresolved 
issues, as you can understand, here. And a key element of the 
bill, and you both referenced this, is--and you in 
particularly, Dr. Salwasser--preapproved management practices. 
I'm going to give you a list of things, and you tell me which 
of these things would be disqualified in a generic sense from 
being a preapproved management practice for post-catastrophic 
event recovery. OK. Here's the list.
    Clearcut, reforest monoculture; clearcut, reforest diverse; 
remove small medium trees, leave large trees, reforest; remove 
small trees, medium trees, leave large trees, natural 
regeneration; selective logging at different levels of 
retention, reforest; no logging, restock; no logging, no 
restocking.
    Now, what of those would be rejected out of hand? What of 
those would never be acceptable as a prior approved management 
practice?
    Mr. Salwasser. Well, actually, I've been trying to think 
about what these preapproved management practices might be 
because I've not seen what one looks like yet. So my answer to 
your question is: All of the above would be rejected, because 
to me a preapproved management strategy would have to deal with 
the kind of--the management direction for the place, the forest 
plan association group, how intense the fire was, and what kind 
of conditions were left on the site in the forest. And only 
after I would know some of those kind of things would I have a 
clue, you know.
    So to me the preapproved practices might be something more 
like a dichotomous key, you know, what forest type you in, 
what's the land management direction, what actually happened on 
the site. And then it would say--and then it would fall out.
    Mr. DeFazio. And I agree with everything you're saying. So 
it needs to be specific to the forest classification, forest 
type, the event that occurred.
    Mr. Salwasser. Right.
    Mr. DeFazio. And so how could we have like gone through a 
public review, set up a bunch of generic practices, and then 
say, OK, now the secretary has total discretion to apply 
anything on that list to this fire. How does that get to be 
site specific.
    I personally believe that, you know, we maybe want to do 
something in the short term, but in the long term we're going 
to have to go back and amend forest plans and anticipate these 
things at the forest level where you have a much more, you 
know, and better idea of all those things, and you can say what 
might be appropriate on which parts of the forest.
    Dr. Franklin, can you help me with this, because when I 
read this we're going to publish this list, they're going to be 
peer reviewed, which is going to be obviously generic because 
we are not going to say on the Siskiyou, you know, on a south 
facing slope in an area that hasn't been previously harvested, 
here's a preapproved management practice. If that's going to be 
what they're going to develop for all the forests in the United 
States of America, this is going to be one hell of a big, long 
list and it's going to take a long time.
    So my question becomes what--you know, and then the 
secretary has total discretion to apply, which again I am 
disturbed by because as I said previously the Clinton 
administration would probably say let's do nothing; this 
administration would say, hey, let's use number one, which is 
what I listed, which is, well, we're going to go in and clear 
cut and reforest in a monoculture.
    Dr. Franklin, can you help me with this.
    Mr. Franklin. Well, I--you know, the response to the 
question the way you put it to me, it's the same as Hal's. You 
know, there isn't anything on that list that you could 
preapprove for an undefined situation.
    Now, I can----
    Mr. DeFazio. So then how do you get from having a 
preapproved list to secretarial discretion and applying 
something.
    Mr. Franklin. Let me suggest a way, all though I think that 
Norm Johnson, who is my mentor in forest policies, persuaded me 
the best way to do it, exactly what you're talking about, make 
the disturbance-based response a part of the forest plan for 
each of the land allocations.
    OK. Now, if I want to do legislation and preapproved 
practices, then you're going to have to at an absolute minimum 
talk about the management allocation. For example, if we're 
talking about a land allocation which is predominantly timber 
production, you might as a matter of policy say salvage and 
reforestation with a dense plantation of conifers is 
appropriate to that.
    OK. Similarly, late successional reserve, that land 
allocation is not appropriate for salvage logging. It's not 
preapproved. It doesn't mean you wouldn't do an analysis maybe 
and decide, but no streamlining basically. You leave--you don't 
salvage that. You probably don't even mandate reforestation on 
that.
    So, you know, the only way I could see you doing it is 
going back to land allocations. I think otherwise you try to do 
anything else, you're going to end up with a really incredible 
bollixed up system.
    Mr. DeFazio. So perhaps a little more prescription or 
direction from Congress on how these plans would be developed 
and how they would be applied to different forest 
classifications and types of management regimes.
    Mr. Franklin. That's right. You know, I've had some 
correspondence with Representative Baird about using that kind 
of approach, using the management direction as a basis for 
policy direction.
    Mr. DeFazio. OK. Great. Thank you. I appreciate that.
    Mr. Walden. Thank you, Peter.
    Brian.
    Mr. Baird. A few quick things.
    Peter, I admire and enjoy your bluntness, but in referring 
to the actions of the BLM, it may have appeared stupid. It may 
have appeared to Mr. Inslee as it was politically motivated. 
But the fact is they were obeying the law. And if obeying the 
law is stupid or politically motivated, we've got a problem.
    Mr. DeFazio. They could reinstate the money if they were 
obeying the law before the money was----
    Mr. Baird. Because the law suggested there were legitimate 
questions of process and there were legitimate questions of the 
Hatch Act as were raised earlier. They inquired about--with the 
university about an explanation. The university provided the 
explanation and they proceeded forward. The law provides for 
that.
    And it is shameful that this has been portrayed as a 
political witch hunt. There I believe this administration is 
biased against certain scientific findings. I agree with that. 
I've testified to that. I participated in hearings. I do not 
think this was the case, point one.
    Point two. Dr. Franklin, as we've done this, I've got to 
tell you, you've been quoted only second to God on some of 
these things. You other folks are demigods, sorry. So 
apparently I want to hear what God has to say about this notion 
that we're going to protect our old growth trees, big old 
ponderosa pines that you so dearly love. There was a radical 
anti-environmental piece of legislation a while back written by 
someone I've never heard of, called Greg Walden, called Healthy 
Forests Restoration Act. It was vehemently opposed by the 
environmental community.
    Do you think the Healthy Forests Restoration Act has the 
potential to help us save old growth timber or not?
    Mr. Franklin. Certainly it has some potential to help us 
save old growth timber.
    Mr. Baird. And would it be better to spend more money in 
the wildlands to do that or in the urban interface.
    Mr. Franklin. Well, my position on that is that we have as 
much need for treating fuel-loaded forests outside of the urban 
interface as we do within it. And I'm on record on that, but--
well, published on that, that, you know----
    Mr. Baird. Well, it's just nice to hear God say it once 
again.
    Mr. Franklin. And, incidentally, I miss Jack Thomas because 
when Jack Thomas was involved in this stuff, he was God and I 
was only the Pope.
    Mr. Walden. Jerry, are you saying we still have to kiss 
your ring.
    Mr. Baird. Let me conclude with this. I want to put these 
preapproved concepts into context.
    It is not as if we have not anywhere else in human 
existence said let's take the broad base of information that we 
know on a number of variables and use those variables in 
advance to make decisions about what is best, given our desired 
outcomes.
    There is no absolute right or wrong about what end desired 
outcome is. And one is not necessarily evil or good in being 
able to say in this area this is our desired outcome and this 
is how best to achieve it, and in this area this is our desired 
outcome. Neither is one corrupt or venal. That is what society 
does. That's part of our responsibility. It's part of this 
entire community's responsibility.
    What Greg and I are saying is rather than have every single 
one of these fought out in the courts so we spend millions and 
millions of dollars of the taxpayers' money and depending on 
the judge you get determines the outcome, let's look in advance 
and say what do we want to do with the land, and recognize that 
some land might be for production and others might be preserved 
for environmental qualities. And our legislation allows for 
that. And then say what information do we have and can we agree 
on the best practices, given the goal of the land.
    Now, people may not like that, but there will be in our 
legislation a public process for input under NEPA as we develop 
these plans. We will turn to you folks, and there may be areas 
where by golly you say we've got to leave something or we're 
going to screw things up big time. There may be other areas 
where you say if you don't do something you're going to have a 
brush field for the next 40 years and that may not be good for 
forests.
    This is not such a dangerous, such a radical or such a 
destructive notion. I think it's common sense, and we hope 
common sense can be guided by science. And that's why I 
appreciate your input today.
    And I'll yield back, as we say. I had time to yield, by 
golly.
    Mr. Walden. I appreciate that because we're right on 
schedule.
    I want to thank our witnesses on this panel for their 
insights and the Members for their questions. Members of our 
full Subcommittee who couldn't be with us at this field hearing 
may have questions they'd like to submit to you and the other 
panel. We hope you'll respond quickly, like in ten days, to 
those question.
    Members of the public, you can submit testimony if you have 
comments. We welcome them. There are some sheets here that are 
stacked there that you can use as a guide, and you can submit 
them. And the address--in theory we have an e-mail address too, 
but I don't have it handy. It is the House Resources Committee, 
the Longworth House Office Building, 1337 Washington, D.C., 
20515. My staff will, though, at some point here have an e-mail 
address for you. I assume we have one they can use.
    And for our audience, thank you for the way you've 
conducted yourselves in a most contentious issue.
    To our people who testified, thank you. I know we grilled 
people hard in some cases. It is so we get better knowledge 
about these issues so we can make better decisions.
    If there is no further business before the Subcommittee, I 
again thank the members of the Subcommittee and our witnesses.
    And this Subcommittee stands adjourned.
    [Whereupon, at 4:35 p.m., the Subcommittee was adjourned.

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by Manuela M.P. Huso, 
Consulting Statistician, Department of Forest Science, Oregon 
State University, Corvallis, Oregon, follows:]

 Statement submitted for the record by Manuela M. P. Huso, Consulting 
 Statistician, Department of Forest Science, Oregon State University, 
                    Corvallis, Oregon: March 9, 2006

    Honorable Members of Congress,
    I am respectfully submitting my comments concerning the 
Congressional Oversight Hearing entitled Scientific Research and the 
Knowledge-base concerning Forest Management Following Wildfires and 
Other Major Disturbances, held February 24, 2006 in Medford, Oregon. I 
am a consulting statistician with the Department of Forest Science at 
Oregon State University. Although two of the authors (Messrs. Donato 
and Fontaine) on the publication in the journal Science that 
precipitated this hearing consulted with me regarding study design 
prior to data collection, I was not consulted regarding data analysis 
or interpretation of the data after collection.
    On March 3, Mr. Donato asked me to provide an independent analysis 
of his data in order to assess the validity of his approach from a 
statistical point of view. I did so using a slightly different approach 
than he and his co-authors used. I had two primary objectives: to 
analyze the data from a different, yet statistically sound and 
ecologically relevant perspective in order to compare my results with 
theirs for consistency; and to investigate the potential influence of 
measurements made on any single plot to assess the robustness of the 
results. I have described my methods in detail below. As with all 
statistical analyses, statistical significance of results may or may 
not represent biologically meaningful differences in the context of the 
study. That interpretation is left up to the authors and is not an 
issue I am qualified to address.
    Even though my analysis addressed a slightly different question 
than Donato et al (2006) asked, my results regarding seedling density 
and fine fuels are consistent with the conclusions they draw and their 
analysis appears to be quite robust. My results concerning coarse fuels 
were consistent with Donato et al's but I found that some individual 
plots had slight influence on the magnitude of the results.
    In my analysis, I focused on the salient question of the research 
for each of the three measures: seedling density, fine fuels and coarse 
fuels. I asked ``Is there statistical evidence that, on average, stands 
that were logged between 2004 and 2005 changed more than stands that 
were not logged over the same interval?'' As annual variation can lead 
to changes in these three measures between these two years, regardless 
of the human intervention, I felt it was important to frame the 
research question in a way that incorporates the potential inherent 
change in these measures from year to year. Donato et al also addressed 
this issue but in a slightly different way. They asked two sequential 
questions ``Is there statistical evidence of significant differences 
between logged and unlogged stands in 2004, before logging was 
implemented?'' Once they established that the two groups (logged and 
unlogged) had no initial differences, they then asked ``Is there 
evidence of significant differences after logging, in 2005?'' Both 
approaches are valid, but are estimating slightly different things. I 
deliberately approached this analysis from a different perspective in 
order to assess the consistency of their results. My independent 
analysis of the data indicates the answer to my question above to be 
clearly ``Yes'' for seedling density and fine fuels and a ``qualified 
yes'' for coarse fuels.
    Methods. I used a parametric approach with these data, using log -
transformed values. This transformation is very common in natural 
resources and is often used when effects are multiplicative rather than 
additive. If a factor acts additively, as opposed to multiplicatively, 
it would cause a change of a fixed number of units, no matter how many 
were there to start with. For example, a certain factor may induce an 
average change of 10 units, so that a plot starting with 200 units or a 
plot starting with 50 units are both expected to change by 10 units 
after this factor has acted. A factor that acts multiplicatively would 
cause a change of a fixed percent, no matter how many there were to 
start with. For example, if a factor induces a 10% decrease, a plot 
starting out with 200 units would be expected to decrease by 20 units, 
whereas a plot starting out with 50 units would be expected to decrease 
by only 5 units. When factors act multiplicatively, the distribution of 
the data is often skewed with some few, very large numbers. In this 
case, the median is often a better measure of central tendency than the 
mean. The median represents the half way point in the distribution of 
the data, i.e., half the values can be expected to be above the mean, 
half below. It is much more stable than the mean and is not influenced 
by few large values. The mean in a skewed distribution, on the other 
hand, is highly influenced by a few large values and will be pulled 
toward them. It will not be representative of the half-way point in the 
distribution. In the Donato et al. study, seedling density, fine fuels 
and coarse fuels appeared to be acting on a multiplicative scale, so 
the log transformation was applied to all three measures and median 
values (and 95% confidence limits) are reported.
    In statistical analyses, we can never make such precise estimates 
as those just stated (e.g., 10 unit decrease or 10% decrease). We place 
95% confidence limits or bounds on these estimates of change or 
difference that can be interpreted as having a 95% chance that the true 
change or difference is somewhere within the bounds, so rather than a 
10% decrease we would estimate somewhere between a 7% and 14% decrease, 
for example.
    In addition to answering the above research question, I explored 
the possibility that results were based on an unusual sample of data, 
and that perhaps only one plot with an extreme measured value was 
actually responsible for the results. So, I reanalyzed the data, 
leaving out one plot at a time (16 separate analyses) to see if the 
results would change. If taking out a single point causes the 
conclusions to change, then the results of this study would not be 
considered to be robust. It would be extremely tenuous to interpret as 
general effects, those that are unduly influenced by measurements at 
only one point. However, if the conclusions were qualitatively 
unchanged by removal of any plot, then the results would be interpreted 
as robust and the effects measured would be considered representative 
of a general pattern in the data. Visual representations of the results 
of this analysis are presented in Figures 3, 6 and 9. In each of the 
these, if the plotted interval includes 1, then there is no statistical 
evidence of difference between logged and unlogged stands. If all 
intervals exclude 1, then the conclusions are robust and there is 
statistical evidence of a difference between logged and unlogged 
stands.
    I found that the results derived from Donato's sample were robust 
for seedling density and fine fuels and even leaving any one plot out 
did not change the essential interpretation of the results. Coarse fuel 
measures were extremely variable and there was some evidence that the 
coarse fuels estimates would change slightly if only one point were 
removed.

Analysis Results Based on All Data
Seedling density
    Seedling densities in 2004 ranged from about 300 to 2400 in 2004, 
with (to be) logged plots having about the same range as (to be) 
unlogged plots (Figure 1). Seedling density of most stands declined 
between 2004 and 2005 (9 out of 9 logged, 5 out of 7 unlogged). 
However, the magnitude of the decline was, on average, greater in 
logged stands than in stands that were not logged (Figure 2). While 
seedling density in unlogged plots was estimated to decline 20% from 
2004 to 2005, seedling density in logged plots was estimated to decline 
by 61% over this same time period. The 95% confidence limits for the 
estimated percent change in seedling density in unlogged stands extend 
from a decline of 48% to an increase of 23%, indicating that the 
evidence is equivocal as to whether the average density decreased, 
increased or remained unchanged in these stands. The 95% confidence 
limits for the estimated percent change in logged stands, however, 
extend from a decline of 43% to a decline of 74%, indicating that there 
is strong evidence of a decline over that period, with uncertainty only 
in the magnitude of the decline. Logged stands were estimated to have, 
in 2005, between 27% and 86% of the proportion of seedling density 
remaining in unlogged stands in 2005.

Fine Fuels
    Fine fuels ranged from 0.5 to 2.9 Megagrams per hectare in 2004, 
with (yet to be) logged plots having about the same range as (to be) 
unlogged plots, and well interspersed (Figure 4). In 2005, after 
logging, the fine fuel load of every logged plot was greater than that 
of every unlogged plot (Figures 4 and 5). Fine fuels in unlogged plots 
were estimated to increase by 8% from 2004 to 2005, whereas fine fuels 
in logged plots were estimated to increase by 370% over this same time 
period. The 95% confidence limits for the estimated percent change in 
fine fuels in unlogged stands extend from a decline of 31% to an 
increase of 68%, indicating that the evidence is equivocal as to 
whether the average fine fuel load decreased, increased or remained 
unchanged in these stands. The 95% confidence limits for the estimated 
percent change in logged stands, however, extend from an increase of 
222% to an increase of 607%, indicating that there is strong evidence 
of an increase in fine fuels over that period, with uncertainty only in 
the magnitude of the increase. The change in fine fuels in logged 
stands from 2004 to 2005 was estimated to be between 2.4 to 8 times the 
change in fine fuels in unlogged stands over this same period.

Coarse Fuels
    Coarse fuels ranged from 1 to 81 Megagrams per hectare in 2004, 
with (yet to be) logged plots having a bit larger range as the (to be) 
unlogged plots (Figure 7). The two largest values and the two smallest 
values were measured in plots that were later logged. In 2005, after 
logging the coarse fuel load of every logged plot was greater than that 
of every unlogged plot (Figures 7 and 8). The two plots with the 
smallest coarse fuel load in 2004 each had dramatic increases in coarse 
fuel load after logging. Coarse fuels in unlogged plots were estimated 
to decrease by 34% from 2004 to 2005, whereas coarse fuels in logged 
plots were estimated to increase by 240% over this same time period. 
The 95% confidence limits for the estimated percent change in coarse 
fuels in unlogged stands extend from a decline of 63% to an increase of 
19%, indicating that the evidence is equivocal as to whether the 
average coarse fuel load decreased, increased or remained unchanged in 
unlogged stands. The 95% confidence limits for the estimated percent 
change in logged stands, however, extend from an increase of 7% to an 
increase of more than 1000%, indicating that the data are highly 
variable but there is fairly strong evidence of an increase in coarse 
fuels over that period, with a lot of uncertainty in the magnitude of 
the increase. The change in coarse fuels in logged stands from 2004 to 
2005 was estimated to be between 1.4 and 19.2 times the change in 
coarse fuels in unlogged stands over this same period.

Analysis Results Based on Subset of the Data
    I examined the potential influence of each point on these results 
by removing one point at a time (16 possible) and rerunning each 
analysis. I evaluated the effect on inference by plotting the 95% 
confidence intervals around the estimate of the change in logged stands 
relative to the change in unlogged stands from 2004 to 2005.

Seedling density
    Figure 3 represents the 95% confidence intervals around the ratio 
of percent seedlings remaining in logged stands relative to percent 
seedlings remaining in unlogged stands in 2005. For example, if density 
in logged stands in 2005 was 60% of what it was in 2004, but in 
unlogged stands it was 80% of what it was in 2004, the ratio of the 
percent remaining in logged to unlogged stands would be .6/.8=0.75=75%. 
This ratio takes into account the possibility that densities in all 
stands decreased between the two years. When the seedling density data 
were reanalyzed after having removed one of the plots, none of the 95% 
confidence limits of this ratio included 1, indicating that the results 
were robust and the measured effect was representative of a general 
pattern in the data (Figure 3).

Fine fuels
    When the fine fuels data were reanalyzed after having removed one 
of the plots, none of the 95% confidence limits of this ratio included 
1, indicating that the results were robust and the measured effect was 
representative of a general pattern in the data (Figure 6). In fact, 
this ratio was never less than 2, indicating at least a doubling of 
fine fuels in logged plots relative to unlogged.

Coarse fuels
    When the coarse fuels data were reanalyzed after having removed one 
of the plots, 4 out of 16 of the 95% confidence limits of this ratio 
included 1, indicating that the results were not very robust and the 
measured effect might not be representative of a general pattern in the 
data (Figure 9). Although in all cases the estimate itself indicated an 
increase in coarse fuels, removal of some of the plots caused the 95% 
confidence interval around the estimate to include 1, providing 
equivocal evidence of a general change. In addition, all the 95% 
confidence intervals were extremely large, reflecting the high 
variability in this measure.
Literature Cited
    Donato, D.C., J.B. Fontaine, J.L. Campbell, W.D. Robinson, J.B. 
Kauffman, B.E. Law, 2006. Post-wildfire logging hinders regeneration 
and increases fire risk. Science 311: 352.

                                Figures

[GRAPHIC] [TIFF OMITTED] T6461.010


[GRAPHIC] [TIFF OMITTED] T6461.011


[GRAPHIC] [TIFF OMITTED] T6461.012

                                 ______
                                 
    [A report prepared by the USDA Forest Service Research & 
Development submitted for the record by Chairman Walden 
follows:]

       Research & Development, USDA Forest Service--November 2004

                   POSTFIRE LOGGING: THE CONTROVERSY 
                   AND THE CURRENT STATE OF KNOWLEDGE
    Debate over the effects and appropriate use of postfire logging has 
intensified in recent years. While many managers and scientists 
consider it as part of a suite of possible restoration techniques after 
wildfire, others argue that it causes damage to burned sites sufficient 
to outweigh potential benefits. These discussions, whether in the 
courts or in the literature, have often been carried on with a notable 
absence of balanced evaluation of the available science. Managers and 
policy makers need the soundest possible information in developing 
recommendations for postfire management activities.
What do we know?
    A recent review (Mclver and Starr 2000, 2001) summarized available 
scientific information on this topic. This paper looked at some 21 
studies that addressed effects of postfire logging on erosion, 
wildlife, vegetation recovery and other factors. Since that review, a 
few additional field studies have been completed, and several others 
have been initiated to help address some of the gaps in scientific 
knowledge identified in the review. None of these new studies changes 
the major conclusions:
    <bullet>  The environmental effects of postfire logging depend on 
the severity of the burn, slope, soil type, vegetation composition and 
condition, the presence or building of roads, type of logging system, 
and postfire weather conditions. Logging over snow and aerial logging 
or other low-impact systems help to reduce erosion and soil compaction. 
Road building is likely to cause the greatest increase in sediment 
transport off-site.
    <bullet>  Wildfire, postfire logging, or other management 
treatments alter vegetation structure, food sources, and other aspects 
of animal habitat. These changes will favor some species and reduce the 
occurrence of others; the end result is change in species composition 
but not necessarily in species richness.
      <all>  Both wildfire and postfire logging can cause significant 
changes in the abundance and nest density of cavity-nesting birds, 
particularly those attracted to high insect populations or structural 
changes in recently burned forests.
      <all>  Mammal species composition is changed by wildfire and 
postfire treatments; everything from deer and elk to small forest-floor 
mammals respond to the habitat changes that result from fire and 
postfire logging.
    <bullet>  The probability that insect pest populations will build 
up and infest adjacent healthy tree stands may be reduced through 
removal of vulnerable trees after fire.
    <bullet>  Fine fuels are reduced by fire, and then increase as 
trees or other vegetation die and new growth occurs. Fuel mass 
increases on logged sites as a result of slash left over from harvest 
and on burned but unlogged control sites as the result of dead branch 
litter and falling dead trees. Control of logging slash can minimize 
accumulation after harvest. There are few data on fuel changes with 
time after fire, or on how these changes affect and are affected by 
future fires.
    <bullet>  Maintaining a maximum diversity of habitats and plant and 
animal species across the landscape depends on a shifting mosaic of 
landscape conditions. Fire and other disturbances can be important 
contributors to maintaining a healthy and desired level of spatial and 
temporal diversity over the landscape.
    <bullet>  There is considerable variation in burned forests, in 
logging methods, and in site-specific effects. A coordinated approach 
to addressing key science questions, such as the ecological 
consequences of alternative postfire logging practices in an 
operational context, and could improve our understanding of general 
principles for mitigating ecological damage in the postfire environment 
as well as important site-specific information for adaptive management.
    Several recent papers have discussed postfire logging from various 
perspectives (Beschta et al. 2004, Lindenmayer et al. 2004, Sessions et 
al. 2004). The assumptions that these papers make about desirable 
societal or ecological goals influence their conclusions. Sessions et 
al. (2004) focused on postfire options in areas being managed either 
for old-growth characteristics or for fiber production following the 
2002 Biscuit fire in Southwestern Oregon. They concluded that postfire 
logging and artificial regeneration can help accelerate return to old 
growth characteristics. They also concluded that rapid loss in economic 
value of timber over the first two years after a fire, and the 
potential for rapid growth of shrubs or other species that would 
compete with conifers could make it much more difficult to use postfire 
logging to help meet reforestation or old-growth restoration objectives 
if action was not taken rapidly.
    Beschta et al (2004) started with the assumption that 'nature knows 
best', and that under most circumstances it is desirable to take a 
custodial approach to management in the postfire environment. They did 
little to address the social and economic context within which forest 
lands are managed. They concluded that beneficial postfire management 
activities can include soil protection, road restoration, large-tree 
retention, and support of natural recovery, while most postfire 
logging, seeding of non-native species, disturbance of riparian areas, 
road construction, and in-stream erosion control structures are ``not 
likely to be consistent with ecosystem restoration''. Unfortunately, a 
selective review of the literature, and reliance on indirect evidence 
for many of their arguments detract from the value of this paper as a 
balanced analysis.
    In a policy forum published recently in Science, Lindemayer et al. 
(2004) discussed examples of negative ecological effects of postfire 
logging from around the world. However, they recognized that, depending 
on management objective, there may be situations where postfire logging 
is appropriate. They made the excellent point that post fire or post 
disturbance restoration and recovery activities are best considered 
during the planning cycle, analyzed in a landscape context, and 
incorporated into planning documents as anticipated responses to severe 
fires or other disturbances.

Conclusions:
    Effects of postfire logging and other restoration treatments are 
site specific and strongly dependent on the way in which treatments are 
conducted, the extent and severity of wildfires, and what parts (and 
how much)of the burned area are treated. Both fire and postfire 
treatments affect soils, hydrology, and the structure and composition 
of plant and animal communities. While most research has been conducted 
at the stand level, planning for such treatments should occur in a 
landscape context, and with a clear set of ecological and social 
objectives. Such planning is best done in advance of disturbance events 
and with a full balancing of the potential impacts and benefits of 
treatments, or of decisions not to treat, on recovery and restoration 
of desired landscape condition. Adaptive management is a useful tool 
that could help build understanding of logging effects in the postfire 
environment.

Research is ongoing
    Several studies have been started recently, with support from the 
Joint Fire Science Program and National Fire Plan Research, to help 
enhance our understanding of the effects of postfire logging.
    <bullet>  A study established by the Pacific Northwest Research 
Station following the 1996 Summit fire in eastern Oregon is evaluating 
the effects of postfire logging on fuel structures, fire hazard, soils 
and sediment movement. Treatments include: no postfire logging, harvest 
of one-third of the viable timber, and harvest of all of the viable 
timber. Logging was removed between 43 and 46 percent of timber basal 
area. Logging disturbed between 15 and 30 percent of the soil area in 
the study units. Sediment transport out of the area was minimal, 
probably because the slopes were low, logging was over snow, no new 
roads were constructed, and there were no severe rainfall events in the 
year following logging. Logging added more small-diameter woody fuel in 
the short term, but reduced the amount of standing fuel, in the form of 
dead trees, which will contribute to future fuel loads as they fall 
down. Model projections suggest that logged units might have less fuel 
in the long run and may burn less intensely. This study suggests that 
logging can be done with acceptable effects on soils and minimal 
sediment transport off-site, provided the right equipment and approach 
are used.
    <bullet>  Rocky Mountain Research Station has installed several 
sets of paired watersheds to measure the impact of salvage logging on 
erosion and hydrologic processes. The sites are at the Hayman Fire 
(Pike and San Isabel National Forest, Colorado), the Kraft Springs Fire 
(Custer National Forest, Montana), and on simulated wildfires at Priest 
River and Boise Basin Experimental Forests. Researchers are monitoring 
runoff and sediment yields from these small watersheds (10 ac) on a 
storm by storm basis over three years. Preliminary results indicate 
only small rainfall intensity events for these sites, thus little 
erosion for either the salvage logged or control watersheds. Additional 
sites following wildfires and simulated wildfires will be installed 
over the next several years. FS scientists also continue to improve and 
develop hillslope and watershed-scale models and analysis tools for 
that estimating postfire erosion with and without postfire treatments. 
These tools are widely used by the NFS and other agencies throughout 
the western U.S., and scientists are incorporating available 
information on effects of postfire logging.
    <bullet>  Pacific Northwest Research Station and several 
collaborators are investigating effects of salvaging burned trees 
following the 2002 Cone Fire in northern California. Scientists 
established 2 hectare (5 acre) plots that to evaluate effects of 5 
levels of postfire logging - 0%, 25%, 50% 75%, and 100% of basal area 
removed, with each level replicated 3 times. The historic fire regime 
of this ecosystem was of the frequent/low-moderate severity type of 
interior ponderosa pine in the southern Cascade Range of northern 
California. The study team is assessing effects of levels of postfire 
logging on: 1) the succession of the fuel profile (e.g., How rapidly 
does the fire hazard return; what happens when dead trees fall down; 
how does regrowing vegetation affect fuel hazard?); 2) levels of insect 
infestation and the use over time of the dead trees by woodpeckers; and 
3) the influence of various levels of postfire logging on soil 
compaction.

References:
Beschta, R.L., J.J. Rhodes, J.B. Kauffman, R.E. Gresswell, G.W. 
        Minshall, J.R. Karr, D.A. Perry, F.R. Hauer, C. A. Frissell. 
        2004. Postfire management on forested public lands of the 
        western United States. Conservation Biology 18(4): 957-967.
Duncan, S. 2002. Postfire Logging: Is it beneficial to a forest? 
        Science Findings 47, USDA Forest Service, Pacific Northwest 
        Research Station, Portland, OR. 5 pp.
Lindenmayer, D.B., D.R. Foster, J.F. Franklin, M.L. Hunter, R.F. Noss, 
        F.A. Schmiegelow, D. Perry. 2004. Salvage harvesting policies 
        after natural disturbance. Policy Forum. Science 303:1303.
Mclver, J.D. 2004. Sediment transport and soil disturbance after 
        postfire logging. Proceedings 2002/2003 Annual Meeting of the 
        American Institute of Hydrology.
Mclver, J.D.; Starr, L. 2000. Environmental effects of postfire 
        logging: literature review and annotated bibliography. USDA 
        Forest Service General Technical Report PNW-GRT-486. 72 pp.
Mclver, J.D.; Starr, L. 2001. A literature review on mental effects of 
        postfire logging. Western Journal of Applied Forestry. 16 (4): 
        159-168.
Saab, V.J. Dudley, J. 1998. Responses of cavity-nesting birds to stand-
        replacement fire and salvage logging in ponderosa pine/Douglas-
        fir forests of southwestern Idaho. Res. Pap. RMRS-RP-11. Ogden, 
        UT: U.S. Department of Agriculture, Forest Service, Rocky 
        Mountain Research Station.
Sessions, J., Bettinger, P., Buckman, R., Newton, M., Hamann, M. 2004. 
        Hastening the return of complex forests following fire: The 
        consequences of delay. Journal of Forestry 102(3):38-43.
For further information contact:
<bullet>  Susan G. Conard, National Program Leader, Fire Ecology 
Research (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5b6a6aaaba4b7a185a3b6eba3a0a1ebb0b6">[email&#160;protected]</a>)
<bullet>  Deborah Hayes, National Program Leader, Watershed Research 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1e1f1815081b12121b031f093a1c09541c1f1e540f09">[email&#160;protected]</a>)
<bullet>  Jimmy Reaves, Director, Vegetation Management and Protection 
Research (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f657d6a6e796a7c4f697c21696a6b217a7c">[email&#160;protected]</a>)
<bullet>  Sam Foster, Acting Director, Watershed, Wildlife, Fish, and 
Air Research (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4324252c303726310325306d2526276d3630">[email&#160;protected]</a>)

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
